<html>
<title> - EBONICS</title>
<body><pre>[Senate Hearing 105-20]
[From the U.S. Government Printing Office]


<DOC>


1997                                                     S. Hrg. 105-20
 
                                EBONICS

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations

                    U.S. GOVERNMENT PRINTING OFFICE
39-641 cc                  WASHINGTON : 1997


_______________________________________________________________________

            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman

THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas

                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director

                                 ______

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman

THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        DANIEL K. INOUYE, Hawaii
JUDD GREGG, New Hampshire            DALE BUMPERS, Arkansas
LAUCH FAIRCLOTH, North Carolina      HARRY REID, Nevada
LARRY E. CRAIG, Idaho                HERB KOHL, Wisconsin
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington

                      Majority Professional Staff
                  Craig A. Higgins and Bettilou Taylor

                      Minority Professional Staff
                             Marsha Simon

                         Administrative Support
                            Meg Snyder deg.

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening remarks of Senator Arlen Specter.........................     1
Opening remarks of Senator Lauch Faircloth.......................     3
Statement of Hon. Maxine Waters, U.S. Congresswoman, chairperson, 
  Black Caucus...................................................     4
Statement of Carolyn M. Getridge, superintendent, Oakland Unified 
  School District................................................     7
    Prepared statement...........................................     9
Remarks of Senator Larry E. Craig................................    52
    Prepared statement...........................................    53
Statement of Toni Cook, elected member, Oakland Board of 
  Education......................................................    52
    Prepared statement...........................................    54
Statement of Michael Lampkins, student director, Oakland Board of 
  Education......................................................    54
    Prepared statement...........................................    55
Competitor in the 21st century...................................    56
Statement of Jean Quan, board president, Oakland Unified School 
  District.......................................................    58
Statement of Nabeehah Shakir, teacher, coordinator for the 
  Standard English Proficiency Program, Oakland Unified School 
  District.......................................................    59
Statement of Rev. Amos C. Brown, doctor of ministry, chairman, 
  Civil Rights Commission of the National Baptist Convention, 
  USA, Inc., and member, board of supervisors, San Francisco.....    60
    Prepared statement...........................................    62
Ebonics in Oakland...............................................    63
Statement of Armstrong Williams, Los Angeles Times syndicated 
  columnist and TV talk show host................................    64
Statement of Orlando Taylor, Ph.D., dean, Howard University 
  Graduate School of Arts and Sciences...........................    68
    Prepared statement...........................................    70
Statement of William Labov, Ph.D., University of Pennsylvania, 
  Linguistics, Laboratory........................................    73
    Prepared statement...........................................    75
Statement of Robert L. Williams, Ph.D., professor emeritus of 
  psychology in African and African-American studies, Washington 
  University, St. Louis, MO......................................    77
    Prepared statement...........................................    79
BRIDGE language..................................................    80
Statement of Michael Casserly, Ph.D., executive director, Council 
  of Great City Schools..........................................    80
    Prepared statement...........................................    82
Nonstandard language.............................................    84
Prepared statement of Rev. Jesse L. Jackson, president, Rainbow/
  PUSH Coalition.................................................    87
Letter from Hon. Ronald V. Dellums, U.S. Congressman.............    89
Letter from J. Alfred Smith, Sr., Baptist Ministers' Union.......    89
Letter from Deborah Wright, Oakland Republican congressional 
  nominee, 1994-96...............................................    90
Letter from Alan F. Clayton, Los Angeles County Chicano Employees 
  Association....................................................    91
Prepared statement of Delaine Eastin, California State 
  superintendent of public instruction...........................    93
Prepared statement of John R. Rickford, professor, Stanford 
  University, Standford, CA......................................    95
Letter from John Baugh, professor of linguistics and education, 
  Swarthmore College.............................................    97
Prepared statement of Carlena M. Seymour, president, American 
  Speech-Language-Hearing Association............................    98
Prepared statement of the Center for Applied Linguistics.........   100
  



                                EBONICS

                              ----------                              


                       THURSDAY, JANUARY 23, 1997

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
    Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 9:35 a.m., in room SD-216, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Faircloth, and Craig.

                       NONDEPARTMENTAL WITNESSES

STATEMENTS OF:
        MAXINE WATERS, U.S. CONGRESSWOMAN, CHAIRPERSON, BLACK CAUCUS
        CAROLYN M. GETRIDGE, SUPERINTENDENT, OAKLAND UNIFIED SCHOOL 
            DISTRICT
        TONI COOK, ELECTED MEMBER, OAKLAND BOARD OF EDUCATION
        MICHAEL LAMPKINS, STUDENT DIRECTOR, OAKLAND BOARD OF EDUCATION
ACCOMPANIED BY:
        JEAN QUAN, BOARD PRESIDENT, OAKLAND UNIFIED SCHOOL DISTRICT
        NABEEHAH SHAKIR, TEACHER, COORDINATOR FOR THE STANDARD ENGLISH 
            PROFICIENCY PROGRAM, OAKLAND UNIFIED SCHOOL DISTRICT

                opening remarks of senator arlen specter

    Senator Specter. The hearing of the Appropriations 
Subcommittee on Labor, Health and Human Services, and 
Education, will now proceed.
    This morning's hearing, in our capacity as appropriating 
subcommittee for the Department of Education, relates to the 
subject of ebonics, which is a term derived from ebony, black, 
and phonics, sound, coined in 1973 by Dr. Robert Williams who 
will be testifying at today's hearing and refers to an African-
American speech pattern where linguistics experts have long 
debated whether ebonics constitutes a dialect, a language, or 
vernacular speech.
    There has been considerable discussion, really controversy 
and concern, as to whether ebonics is a separate language, and 
as such undesirable or whether it is a teaching skill and a 
bridge for some to perfect and learn language skills. There is 
a very considerable Federal appropriations involvement because 
of very substantial Federal funds which are available on 
education and related matters.
    Illustratively, title I, education for the disadvantaged, 
provides funding of up to $7.7 billion, some of which could 
conceivably be used in this line, and the bilingual education 
program for limited English proficient students has funding of 
$156.7 million. The Office of Education Research, which studies 
and evaluates innovative educational techniques has a funding 
of $598.4 million. And the school improvement program, which 
addresses the particular needs of each school district and 
innovative methods of learning has funding of $1.426 billion.
    Representative Peter King in the House of Representatives 
has introduced a resolution, H. Res. 28, expressing the sense 
of the House that ebonics should not have Federal funding. The 
current controversy arose on December 18, 1996, when the Board 
of Education of the Oakland Unified School District unanimously 
approved a resolution to devise a program to, ``improve the 
English language skill of African-American students.'' The 
resolution generated controversy around three issues: First, 
whether ebonics is a language or a dialect of English; second, 
whether Federal funds earmarked for bilingual education should 
be made available for ebonics-based programs; and third, 
whether ebonics was to be bought in classes.
    The board further stated that they, ``approved a policy 
affirming standard American English language development for 
all students,'' and further that, ``language development for 
African-American students, who comprise 53 percent of the 
students in the Oakland schools, will be enhanced with a 
recognition and understanding of the language structures unique 
to African-American students.'' When this policy generated a 
considerable amount of concern, the board at Oakland revised 
its resolution on January 15, and the newer version removed the 
statement that African-American students should be taught in 
their native language of ebonics, and instead the emphasis to 
be on the implementation of a full program featuring African 
language systems principles to move students from language 
patterns they bring to school to English proficiency.
    The Secretary of Education, Richard Riley, issued a 
statement on December 24, 1996, as follows: ``elevating black 
English to the status of a language is not our way to raise 
standards of achievement in our schools for our students. It 
has been determined by the United States Department of 
Education and the Clinton administration that the use of 
Federal bilingual educational funds for what has been called 
black English for ebonics is not permitted. The 
administration's policy is that ebonics is a nonstandard form 
of English and not a formal language.''
    The issue generated one very important lawsuit back in 1979 
when in Ann Arbor, MI, a group of African-American mothers sued 
the local school board in the Federal courts for failing to 
recognize that their elementary school aged children used, 
``black vernacular, thus denying them equal educational 
opportunity, and the Federal court found in their favor, and 
without ordering any specific remedy said that there ought to 
be something done about that process.''
    In approaching this subject, I think it is important to 
note the emotional level on the matter generally. I relate to 
that very directly, recalling Yiddish being spoken in my house 
when I was a youngster, both of my parents being immigrants. 
And it was spoken a lot more when my brother was growing up--he 
was 10 years older than I--because he knew a lot more Yiddish 
than I did. And I can recall the difference of my father's 
accent, and it was different. And in our melting pot society, 
we all like to fit in and be similar and not stick out or be 
unusual. But at the same time, we all have pride in our own 
backgrounds, a great deal of ethnic pride.
    And so it is a complex issue, and there is no doubt about 
the fact that education is, if not the highest priority in our 
society today, it is a priority second to none. And it is a 
matter for State and local control beyond any question, and the 
Federal education budget of $28 million is in the 5- to 6-
percent range of the total education budget.
    But we do have a considerable sum of money. The programs 
that I itemized total up to approximately $10 billion, which 
could touch on this subject, and we want to be sure that all 
Americans have the best educational opportunity possible to 
present themselves in the best light in a very, very highly 
competitive society we have, competing with other Americans and 
in a world competition competing with other countries. So it is 
a matter of very considerable importance.
    We have a very balanced witness list. After the hearing was 
announced we had requests from many, many more people to 
testify, and we will have another hearing or hearings, 
depending upon what today's hearing discloses and what the 
interest is, and yesterday afternoon I received word from 
Congresswoman Waters about her interest in testifying, and she 
is the chairperson of the Black Caucus, and we have rearranged 
the schedule. She and I had a lengthy discussion yesterday. She 
said she could boil it down into 5 minutes. That is quite a 
challenge, but we do welcome her here, and I would like to 
yield now to my distinguished colleague, Senator Faircloth.

               opening remarks of senator lauch faircloth

    Senator  Faircloth. Thank you, Mr. Chairman, and I thank 
you for holding the hearing, and I thank you for letting me 
join you this morning. I have just a very brief statement and 
thought on it, and I did want to express it this morning.
    The issue, Mr. Chairman, has received a lot of attention 
all over the United States, particularly since the Oakland 
School Board announced the program. And I simply want to say 
that I think ebonics is absurd. This is a political correctness 
that simply has gone out of control. As Rev. Jesse Jackson 
said, it was teaching down to people, and that is the last 
thing we need to be doing.
    Now, I am very much aware that teaching children in schools 
in the inner cities and in poor neighborhoods all over the 
country, rural or inner city, has never been easy, and it never 
will be. But rather than trying to lower the academic 
standards, we should try some of the old fashioned remedies 
that I think would still work. Nobody should be passed from 
grade to grade unless they can master the basic three R's of 
reading, writing, and arithmetic, and I think we have left 
that.
    I think we need greater teacher control in the classroom. 
We should allow the teachers to discipline the children. That 
did work at one time, and I do not mean physical punishment, 
but they should have the right to discipline the children, to 
expel troublemakers immediately.
    We should try school uniforms to raise the self esteem of 
the students, so families do not have to spend hundreds of 
dollars on clothes for school children. These ideas have 
worked. They worked long ago, and I think they produced a 
generation of people who had the basic reading and writing 
skills all over the Nation, cities and rural areas.
    I simply do not think we need to go searching for a new 
form of English to solve the problems of the schools.
    I thank you, Mr. Chairman, for letting me be heard.
    Senator Specter. Well, thank you very much, Senator 
Faircloth.

                summary statement of hon. maxine waters

    We now turn to our first witness, the Honorable Maxine 
Waters, U.S. Congresswoman and chairperson of the Black Caucus. 
Welcome, Congresswoman Waters.
    Ms. Waters. Thank you very much, Mr. Chairman. I am 
extremely appreciative for the fact that you rearranged this 
hearing somewhat today to allow me to come over and share my 
comments with you, and I know that you were bombarded with 
requests by many people to come and speak, and the fact that 
you have allowed me to do this is indeed very much appreciated.
    I have a prepared statement, and perhaps I will have an 
opportunity to go through some of the points of it, but I 
cannot start where I thought I would start because I want to be 
a part of setting the record straight. And I want to do that in 
a way that will help to educate and instruct so that we will 
not have Members of Congress and others who are policymakers 
continuing to mischaracterize what has been attempted by the 
Oakland School District and to give new definitions to words 
that have been used in an effort to help our children learn 
standard English.
    I do not understand when it is said ebonics is absurd. I 
think it is somewhat misleading. It is not important to focus 
on words that attempt to describe the problem, but what is 
rather very much important is that we understand the issue. The 
fact of the matter is, Mr. Chairman and members, too many 
African-American children have been entering school year in and 
year out speaking different language patterns, something other 
than standard English. It persists, and when this happens it 
obstructs their ability to learn in ways that teachers would 
have them learn. They really cannot learn the sciences and math 
and other subjects that are being taught because they are not 
proficient in the English language.
    We should not continue to pretend that this situation does 
not exist. It does exist. The different language patterns are 
real. Children continue to come to school day in and day out 
with these different language patterns, and it is a problem. We 
should commend the Oakland School District for finally saying 
to everybody: Let us recognize that this is happening, no 
matter what caused it, no matter why it has happened.
    There are those who will attempt to explain it and talk 
about the roots of it, but the fact of the matter is we have 
children with different language patterns. Not only does it get 
in the way of their ability to learn oftentimes, if they 
continue with these language patterns as they enter the world 
of work, people will not listen to what they are saying. They 
will only listen to the fact that they sound different.
    Oftentimes people are said to have said they do not 
understand what is being said by many of the folks who are 
using these different language patterns. And so the Oakland 
School District adopted a resolution, and this resolution 
basically said we are going to recognize that there are these 
language patterns and we are going to do something about it. We 
want all of our students to speak standard English, and we are 
going to have to teach our teachers and involve ourselves in 
the community in ways that will help everybody not only to 
recognize that these language patterns exist, but we must all 
work together to correct them so that in the final analysis the 
students will speak standard English.
    So if we are clear about what is being attempted here, we 
will stop the misdefinitions and the incorrect descriptions 
about what is being attempted. Nobody is saying we want to 
change English, we want to teach black English, nobody is 
saying that. What we are saying is, and what they said is, we 
want to recognize that it is a fact of life. What can we do 
about it? How can we help students learn standard English? That 
is the goal.
    And so let us not talk about ebonics being absurd or 
ridiculous. The fact of the matter is I think we all want the 
same thing. We want our students to speak standard English. So 
again, Mr. Chairman, I would like to thank you for allowing me 
the opportunity to appear today.
    Reiterating, several weeks ago the Oakland Board of 
Education passed a resolution affirming its goal to teach 
standard American English to all of its students, including its 
African-American students. It adopted a strategy which 
recognizes that many African-American students use different 
language patterns. After years of trying to teach children with 
little or no experience using standard English, Oakland 
courageously faced directly that problem that it is, and many 
other school districts across the country face in teaching its 
students.
    Millions of students enter school each year with a language 
structure unique to many African-Americans. Whether we like it 
or not, this is the reality. What the Oakland School Board has 
done is to acknowledge this and adopt a strategy for teachers 
and parents that will enhance their ability to achieve the goal 
of teaching proficient standard English to every one of its 
students. For this, Oakland should be commended. Often 
misunderstood, this action was a bold step, based on months of 
research and experience from many different school districts, 
community involvement, and yes, determination.
    Let us not allow the debate over words, whether it is 
ebonics, pan-African communication behavior, or any other 
description, to obscure the fundamental point of the Oakland 
School Board's action. It does not matter what we call the 
language or dialect of our children. What matters is how we can 
teach them standard English. School districts around the 
country have been facing the problem of young children entering 
the classroom year after year without a basic understanding of 
standard English. Against the persistence of this problem, many 
jurisdictions have employed language development programs like 
that which Oakland has just adopted systemwide that have shown 
great promise.
    We have an educational crisis in many quarters of America. 
According to the California State Department of Education, 
African-American students have a dropout rate of 7.6 percent, 
compared to 2.7 percent for whites. In the Oakland Unified 
School District, African-American students have an average 
grade point average [GPA] of 1.8, the lowest of any racial or 
ethnic group. The poor academic achievement level of African-
American children in Oakland, and indeed in many American 
communities, requires parents, educators, and policymakers, to 
address this reality in a forthright matter. The status quo is 
not working. Many linguists have stated that Oakland's decision 
is credible, it is rational, and a potentially effective way to 
improve the academic standards of its students.
    At a conference in Chicago, IL, this month, the Linguistic 
Society of America concluded that the Oakland School Board 
decision is linguistically sound and a proper teaching method. 
These conclusions underscore the basic point of this entire 
discussion, whether this language starting point, whatever this 
language starting point, we need to help children bridge the 
gap between the language patterns they know and standard 
English. We must find new ways to help these young men and 
women achieve their full potential. This is no simple task, and 
it will require the best creative minds. We must be open to new 
alternatives for bringing all of our children into the 
educational and professional mainstream, instead of ignoring 
language structures that have prevented our children from 
learning math, science, communications, and other subject which 
enhance their future prospects.
    The Oakland School District has confronted the challenge 
head on. The Oakland Unified School District is not the first, 
nor will it be the last, to utilize the most primary teaching 
tool of all, take children where they are, and prepare them for 
the future.
    Mr. Chairman and members of the committee, I hope you will 
agree that the education of our children is one of if not the 
top priority. If we fail to prepare our children for the 
future, we will reap the whirlwind of their frustrated dreams. 
We just understand and incorporate the full context of the 
educational crisis in America to fully appreciate the recent 
actions of the Oakland School Board, as well as their strength 
and resolve. I believe with this perspective we can all move 
forward together, striving to attain the goal of equal 
educational opportunity for all American children.
    I thank you again, Mr. Chairman, for this opportunity to 
share my views, and I hope that following the information you 
will receive today you will have a better understanding of what 
is being done and what was said, and not allow the media hype 
to guide and direct the actions of the Senate or the Congress 
or policymakers of our Nation.
    Senator Specter. Well, thank you very much, Congresswoman 
Waters. The object is to provide the best possible education to 
all Americans, everybody who lives in this country. That is 
what we want to do. And when you make the comment that the 
people sound different, there is no doubt about that. And the 
way a person sounds makes a tremendous impact on that person's 
opportunity to get a job or to move ahead. And a lot of 
conclusions are drawn when you hear somebody over the 
telephone, and as I said in the brief opening comment, very 
meaningful to me as a child growing up, because my father 
sounded very different. And some of us sound different by way 
of our own accents. I still carry a Kansas accent, been trying 
to get rid of it forever, but I cannot do it. I really do not 
want to do it.
    But we very much appreciate your coming here, we appreciate 
your leadership on the caucus, and we thank you for sharing 
your words with us.
    Ms. Waters. Thank you very much, Mr. Chairman.
    Senator Specter. Thank you.

                 summary statement of carolyn getridge

    We will now turn to the next panel, Ms. Carolyn Getridge, 
Ms. Toni Cook and Mr. Michael Lampkins. At the witness table 
with them will be Jean Quan, board president of the Oakland 
Unified School District, and Nabeehah Shakir, teacher-
coordinator for the Standard English Proficiency Program of the 
Oakland Unified School District. We very much appreciate your 
being here.
    We have set very limited time standards because we do have 
so many witnesses. But we will understand if you deviate just a 
bit from them.
    Our first witness is Ms. Carolyn Getridge, who was 
appointed superintendent of the Oakland Unified School District 
in 1994. A career educator, Ms. Getridge has worked in the 
Oakland schools in a number of positions, including teacher, 
principal, and administrator of management and development. 
Thank you very much for joining us here.
    Ms. Getridge. Thank you very much, Mr. Chairman and members 
of the committee. I certainly appreciate this opportunity to 
appear before the subcommittee, and I believe the experiences 
of the Oakland Unified School District will provide helpful 
insight into effective strategies to address the 
underachievement of African-American and other minority 
students in our public schools.
    The single guiding goal in our district is to guarantee 
that conditions exist for all students to achieve academic 
success. This is our promise in Oakland. We are reinventing 
public schooling in a most fundamental way, moving beyond the 
right of students to attend school to a much more profound 
promise that students have the right to academic achievement in 
schools. The children of Oakland deserve this right.
    They include 94 percent children of color; 53 percent are 
African-American children; 60 percent qualify for free or 
reduced lunch; and 48 percent come from households which 
receive aid to families with dependent children. Almost 30 
percent have a home language other than English. Our students 
speak over 80 different languages, of which we formally track 
61.
    Oakland is the sixth-largest school district in the State 
of California, with over 52,000 students enrolled in our K-12 
educational program. Almost 4,000 more children are enrolled in 
our early childhood education centers, and still another 26,000 
adults enroll in adult education courses.
    The recent actions by the Oakland Unified School District 
have sparked a national debate concerning the failure of our 
public schools to effectively serve the educational needs of 
African-American children and other minority students. The 
media, however, has diverted attention away from our intent and 
goal of providing English language development and the more 
fundamental issue of student achievement in urban school 
systems. The action of the board is a bold response to a 
chronic and growing gap between those who are successful in our 
public schools and those who are not.
    In our district, for example, the grade point average of 
African-American students is 1.8 on a 4 point scale, a D plus, 
while white and Asian students average over 3.0, or a B. The 
SAT scores show an equally widening gap. African-American 
students in Oakland score 97 points below the national average 
in verbal skills, and 110 points below the national average in 
mathematics.
    Let me be very clear about the key factor determining 
success in our public schools. It is not race, it is not innate 
ability. Rather, it is a combination of factors such as 
creating an engaging learning environment that is language 
based and using instructional strategies which enable students 
to achieve success through effective effort and quality 
instruction. While there are exceptions, this data clearly 
paints a picture of an educational system in Oakland which 
fails a large percentage of students, and unfortunately this 
pattern of failure is the norm for our Nation's urban school 
districts. Our current educational practices will not prepare 
many African-American and other minority students to perform at 
high levels of achievement in or out of the classroom. In 
Oakland, we have taken a stand, and stated that this 
achievement gap is no longer acceptable.
    What is at issue here is not whether ebonics is a language. 
This is a scholarly debate for linguists. What is at issue are 
the steps we as parents, Government leaders, and educational 
leaders are willing to take to address the chronic 
underachievement of these students. What are we doing to 
address these alarming statistics? We have engaged in 
districtwide reform in our school system. We have established 
high standards and a rigorous academic curriculum, algebra for 
all students by the ninth grade, laboratory science in middle 
schools and high schools, technology and computer classes, and 
a full 4 years of English for high school students.
    We have put in place an accountability system from the 
boardroom to the classroom, and this fall we will widely 
publish our first school-by-school report card on key academic 
indicators. But that is not all. In order to achieve these high 
standards we have had to institute new practices, new ways of 
teaching. These new ways include a clear recognition of the 
connection between language, literacy, and learning. Math and 
science are no longer the gatekeepers determining postsecondary 
enrollment and success. Language is. Without a mastery of 
standard English, students are not able to succeed in 
mathematics and science.
    This is why we have taken the action we have, and 
emphasized the linkage between language, literacy, and 
learning. The Standard English Proficiency Program, or SEP, is 
one such strategy. SEP represents the application of the 
principles of English language development for students who 
bring from home language patterns other than standard English. 
Does this program work? We think so. At Prescott Elementary 
School, for example, which has been an early leader in 
providing SEP strategies in the classroom, students' reading 
scores are consistently above the district average.
    Much has been made also of the issue of funding. We are 
fully committed to the reallocation of our current resources to 
fund a comprehensive array of strategies to implement 
districtwide reforms which guarantee all of our students the 
opportunity for academic success. We have not requested State 
or Federal funds for this purpose.
    We do, however, believe that the Federal Government can 
play a role to support the efforts of urban school districts. 
First and foremost, expand early childhood education programs 
for all children aged 3 and 4. Preschool is a proven and cost-
effective strategy to improve the education and the life 
circumstances of children. Second, fund a longer school day and 
school year to support educational achievement needs of urban 
youth, and youths throughout this country. Third, expand 
funding for professional development opportunities, so that we 
can continue to retool the teacher work force.
    Senator Specter. Ms. Getridge, you are substantially beyond 
your time. Can you summarize?

                           prepared statement

    Ms. Getridge. Yes; I can. I firmly believe we are on the 
verge of becoming a land of new promise and opportunity. Our 
educational system is the guarantee for that opportunity. Our 
moral obligation is to act on the data we have, and take bold 
steps that we may cross the bridge together into the 21st 
century.
    Senator Specter. Thank you very much, Ms. Getridge.
    [The statement follows:]

               Prepared Statement of Carolyn M. Getridge

    Mr. Chairman and Members of the Committee: I am grateful for this 
opportunity to appear before the Subcommittee, which is broadly 
examining important questions regarding what role the Federal 
government should play in helping underachieving African-American 
students improve their academic standing, and exploring effective 
approaches to teach English language skills.
    Hopefully, my background as a career educator of thirty years, and 
now as a Superintendent of an urban school district, the Oakland 
Unified School District, will provide helpful insight into effective 
strategies to address the underachievement of African-American and 
other minority students in our public schools.
    The recent actions by the Oakland Unified School District have 
sparked a national debate concerning the failure of our public schools 
to effectively serve the educational needs of African-American and 
other minority students. The media focus on ``ebonics'' diverts our 
attention from the more substantive concerns of English language 
development, and the more fundamental issue of minority student 
achievement in urban schools systems.
    The central issue is the underachievement of African-American and 
other minority children, and what we are doing to address this dismal 
record. Current achievement data demonstrate that no urban school 
district is effectively educating minority students. After thorough 
research, the Oakland Unified School District has determined a bold 
plan of action in order to turnaround a situation which for far too 
long has been tacitly accepted. This testimony is intended to clarify 
the actions of the Oakland Unified School District and advocate for 
additional reforms which are required if the educational success of 
African-American and minority students is to be improved.
    Although Oakland is the focus of attention, the issues we have 
surfaced are national in their scope. You cannot talk about issues of 
educational achievement of African-American children in urban America 
without also addressing issues of race, class, poverty, language, and 
immigration. Unfortunately, it is clear from the rhetoric surrounding 
this issue that we have not yet learned how to deal with the real 
issues of urban education in a respectful, coherent and logical way. 
Even in Oakland, which is known as the most integrated city in the 
United States, we struggle for ways to have this conversation.
    We have, however, created a teachable moment of national proportion 
on issues of national urgency. Consequently, we also intend this 
testimony to add our perspective to solutions which address the 
underachievement of African-American and other minority children. Our 
reforms attempt to reform educational processes based on a system of 
``sorting'', to a system of ``achieving''. We have fundamentally 
shifted our thinking from the right of students to attend school, to 
the right of students to achieve in school.
    While many of the issues confronting urban American are not of our 
making, it seems all too often that we, as an urban school district, 
are the front line for dealing with these issues.
    We will be better able to deal effectively with these issues if we 
are afforded the following supports:
  --First, expand early childhood education programs for all children 
        aged three and four. Preschool is a proven and cost effective 
        strategy to improve the education and life circumstances of 
        children. The expansion will also lead directly to jobs and 
        support systems for the very people impacted by recently 
        enacted welfare reforms;
  --Second, include funding for schools as part of the various State 
        and Federal urban initiatives and empowerment strategies. For 
        example, urban schools are typically not in a position to fund 
        the physical infrastructure improvements and school building 
        additions required as city demographics shift in response to 
        urban initiatives;
  --Third, expand funding for professional development opportunities so 
        that we can continue to retool the teacher workforce and 
        address the needs of an influx of new teachers into our 
        schools; and
  --Finally, fund a longer school day and school year to support the 
        educational achievement needs of urban youth.
    In return, we will be better able to dedicate our efforts to:
  --Establish clear and measurable academic standards and public 
        accountability for progress toward those standards;
  --Institute professional standards for teachers and administrators 
        such as those developed by the National Board of Professional 
        Teaching Standards; and
  --Develop City-Schools partnerships to mobilize and align resources 
        dedicated to youth initiatives.
    Furthermore, we can link local strategies together to improve urban 
education in the following ways:
  --Establish a National Commission on Urban Education to:
    --Identify key barriers to improving the quality of urban 
        education, building on recent policy reports; and
    --Develop strategies to overcome these barriers that take a 
        systemic approach to school reform and build on corporate 
        experiences re-engineering large organizations.
  --Convene high visibility conferences of urban educators sponsored by 
        the U.S. Department of Education, creating the same dynamic as 
        did the U.S. Department of Labor's ``National Labor-Management 
        Conference'' which defined and elevated the best practice and 
        made those practices acceptable to the mainstream.
  --Hold focused conversations between national and state participants 
        around key areas such as standards so that there is a meshing 
        of state and national standards.
  --Build a strong strand in the United States Conference of Mayors 
        which links educational leaders of urban education with the 
        work of cities.
  --Create networks of this nation's proven reform networks, together 
        with the educational leaders who are ultimately responsible for 
        introducing and implementing those reforms into their 
        districts.
    The Oakland School Board's new policy has touched a nerve across 
the country. Talk show lines have been jammed and commentators have 
offered virtually non-stop opinion about the policy. Unfortunately, the 
reaction is based almost entirely on very basic misinterpretations of 
the meaning and intent of the policy. In the education that America's 
public schools provide to minority children, there are many reasons to 
despair--but this policy is not one of them. Our testimony before this 
Senate subcommittee is an opportunity to set the record straight, 
answer specific questions which have been raised, and explore 
strategies to address the failure of our public schools to educate 
African-American and other minority students.

                               background

    On December 18, 1996 the Oakland Unified School District's Board of 
Education approved a policy affirming Standard American English 
language development for all students. This policy mandates that 
effective instructional strategies be utilized to ensure that every 
child has the opportunity to achieve English language proficiency and 
academic success.
    This policy is the result of over eighteen months of thorough 
research, analysis, and community involvement intended to 
systematically address the historical underachievement of African-
American students in the Oakland Unified School District.
    Committed to seeking strategies to address this dire situation, the 
Superintendent of Schools formed The Task Force on the Education of 
African-American Students to review district-wide achievement data and 
make recommendations for proven practices that would enhance the 
opportunity for all students to access and to successfully achieve the 
core curriculum.
    The research-based recommendations of this Task Force focus on the 
direct connection of English language proficiency to student 
achievement, the unique language needs of many African-American pupils, 
and the opportunities for parents and the community to support improved 
academic achievement.
    The Task Force's research identified the major role language 
development plays as the primary gatekeeper for academic success. 
Without English language proficiency students are unable to access or 
master advanced level course work in the areas of mathematics and 
science which have traditionally been viewed as the gatekeepers to 
enrollment in post-secondary education.
    Language development for African-American students, who comprise 53 
percent of students in the Oakland schools, will be enhanced with the 
recognition and understanding of the language structures unique to many 
African-American students. This language has been studied by scholars 
for decades and is referred to as ``Ebonics,'' or ``Pan-African 
Communication Behaviors,'' or ``African Language Systems.'' The issues 
of language definition are the domain of linguists, and we did not take 
a position on whether these language structures are a dialect or a 
language.
    Our interest is in guaranteeing that conditions exist for high 
achievement and research indicates that an awareness of these language 
patterns by educators helps students build a bridge to Standard 
American English. A variety of strategies will be employed to support 
language development and achieve our goal of high academic performance 
for all students.
    This focus on English language development is the central 
recommendation among a framework of recommendations including 
recommendations for expanding Early Childhood Education programs, 
strengthening parent and community involvement, improving minority 
teacher recruitment, and revising district policies and procedures 
which contribute to increased numbers of students in Gifted and 
Talented programs and fewer students placed in Special Education.
    What began as an attempt to bring about important improvements 
addressing the educational needs of African-American children became 
lost in a debate about words. Less than a month after the headline in 
the San Francisco Chronicle exclaimed ``Oakland Schools OK Black 
English: Ebonics to be regarded as different, not wrong'', it was clear 
that words had gotten in the way of action.
    The Task Force was equally clear that the education of children is 
what matters most, and unanimously amended its resolution to embed the 
legislative intent into the language of the resolution. This amended 
resolution was unanimously adopted by the Board of Education at its 
January 15 meeting.
    The Task Force recognized that parts of its original work required 
clarification:
  --Replaced the term ``genetically based'' with its definition of 
        ``have origins in'';
  --The definition of ``primary language'' was clarified to mean the 
        language a child brings from home; and
  --The term ``instruction in their primary language'' was replaced 
        with the intended meaning ``to move students from the language 
        pattern they bring to school to English proficiency''.
    These changes should reinforce the legislative intent of the Board 
of Education which is as follows:
    First, Oakland Unified School District is not replacing the 
teaching of Standard American English with any other language. The 
District is not teaching Ebonics. Nothing could be further from the 
intent of this policy. Our District emphasizes teaching Standard 
American English and has set a high standard of excellence for all of 
its students.
    Second, Oakland is providing its teachers and parents with the 
tools to address the diverse language needs that children bring into 
the classroom. This is not new. For over a decade our District has 
instituted the Standard English Proficiency Program (S.E.P.), a State 
of California model program, which promotes English-language 
development for African-American students. The S.E.P. training enables 
teachers to build on the history, culture, and language skills that 
many African-American students bring to school. The new Board policy 
takes these and other proven practices to all schools throughout our 
District.
    Third, this policy is not an attempt to reallocate bilingual 
education funding. We are fully committed to incorporating this 
training into the professional development of our teachers and, if 
necessary, redirecting present funds to this end. We have not requested 
any State or Federal funds for this purpose.
    The policy does:
  --Set high standards for English language proficiency and link 
        together effective instructional practices in a comprehensive 
        program;
  --Enhance and broaden early childhood education programs which have a 
        nationally demonstrated positive educational return for the 
        dollars invested;
  --Actively recruit minority teachers and strengthen the professional 
        development for teachers;
  --Organize parents and the community in ways that support high levels 
        of student achievement; and
  --Revise District procedures and services to reduce the number of 
        African-American students in our Special Education classes, and 
        increase the number of our Gifted and Talented classes.
    The directions set forth in this policy hold the promise for the 
positive, sound changes we must make in our nation's schools which 
historically have failed African-American students. This is Oakland's 
strategy to improve, not only students' English proficiency, but their 
overall academic achievement so that they can earn a place in higher 
education and the world of work.
      the city of oakland and the oakland unified school district
    The City of Oakland is situated on the east shore of San Francisco 
Bay in the northwest area of Alameda County. The Oakland Unified School 
District serves the educational needs of the City of Oakland and its 
boundaries are coterminous with the City. The San Francisco Bay Area, 
the fourth largest metropolitan area in the nation, enjoys a 
Mediterranean climate. The San Francisco-Oakland Bay Bridge connects 
the two major cities.
    It has been said that ``Oakland is the most integrated city 
anywhere''. According to the 1990 census, the population of Oakland is 
372,242 and is composed of at least eighty two languages and eight 
major ethnic groups. The 1995 California Basic Educational Data System 
(CBEDS) reported an enrollment of 52,269 for the Oakland Unified School 
District, making it the sixth largest district in California. The 
�RM132�number and percent of the populations of both the city of Oakland and 
the student enrollment of OUSD by ethnic group are shown in the chart 
below (See also Appendix 1).

----------------------------------------------------------------------------------------------------------------
                                                          City of Oakland             Oakland Unified School    
                                                 --------------------------------            District           
                  Ethnic Group                                                   -------------------------------
                                                      Number          Percent         Number          Percent   
----------------------------------------------------------------------------------------------------------------
African-American................................         163,526            43.9          27,265              52
Asian...........................................          45,879            12.3           9,638              18
Caucasian.......................................          69,138            18.6           3,549               7
Filipino........................................           7,327             2.0             512               1
Hispanic........................................          51,711            13.9          10,622              20
Native American/American Indian.................           2,371             0.6             248               1
Pacific Island..................................           1,725             0.5             435               1
Other...........................................          30,756             8.3  ..............  ..............
                                                 ---------------------------------------------------------------
      Total.....................................         372,242             100          52,269             100
----------------------------------------------------------------------------------------------------------------

    At any given time the Oakland Unified School District provides 
educational services to approximately 15,600 Limited English Proficient 
students (30 percent of our student population) who bring with them 
over sixty different home languages. The major language groups include: 
Cambodian, Cantonese, Laotian, Mien, Spanish, Tagalog, and Vietnamese 
(Appendix 2). A full breakdown of the student population by Limited 
English Proficient and Fluent English Proficient is provided in 
Appendix 3.
    During the 1995-1996 school year, the school district operated 99 
school sites including: two K-3 schools, one K-4 school, six K-5 
schools, one 4-8 school, four K-8 schools, forty-seven regularly 
scheduled elementary schools, twelve elementary schools on year-round 
schedules, one 7-8 middle school, one 5-8 middle school, four 6-8 
middle schools, nine 7-9 junior high schools, six comprehensive senior 
high schools, one alternative high school, four continuation high 
schools, three temporary alternative programs, one high school 
independent study center, one Cyesis center for teenage mothers, and 
three Exceptional Children's Centers. The language distribution by 
school and grade is presented in Appendix 4.
    In addition, four adult education schools serve approximately 
26,000 students, twenty five preschools serve approximately 900 
students, and forty child development centers plus one elementary 
school which has ``latch-key'' (before and after school) program that 
serves approximately 26 students.
                          student achievement
    The findings on student achievement in Oakland are evidence that 
the current system is not working for most African-American children 
(Appendix 5). While 52 percent of the students in the Oakland Unified 
School District are African-American, only 37 percent of the students 
enrolled in our Gifted and Talented classes are African-American, and 
yet 71 percent of the students enrolled in Special Education are 
African-American. Other findings include the following:
  --The average grade-point average of African-American students is 
        1.80 compared to the District average of 2.12, and over 3.0 for 
        white and Chinese students (Appendix 6);
  --80 percent of all suspended students are African-American (Appendix 
        7, column 3);
  --64 percent of students who repeat the same grade are African-
        American (Appendix 7, column 3);
  --67 percent of students classified as truant are African-American; 
        and
  --only 81 percent of the African-American students who make it to 
        12th grade actually graduate.
    The achievement test scores for African-American and Hispanic 
students are the lowest in our District. At our benchmark grade levels, 
the African-American students score at least 47 percentile points below 
white students in reading (Appendix 8). While white students have 
exhibited an upward trend in their scores over the past three years, 
scores for minority students have remained flat or declined (Appendix 
9).
     the strategic direction of the oakland unified school district
    The work of the Task Force on the Education of African-American 
Students is part of a larger strategic effort by the Oakland Unified 
School District designed to build a system of excellent schools. If we 
are to move from a system based on ``sorting'' students, to a system 
based on achievement for all students, our reforms must be district-
wide in nature, impacting all schools. We have set out to accomplish 
this by developing clear and measurable standards benchmarked to 
worldclass levels of performance, establishing systems of 
accountability based on objective data, and providing schools and 
offices with the training, resources, and decision making authority 
required to achieve this result.
    This strategic effort builds purposefully on the District's efforts 
to establish powerful models for whole school change, create strategies 
to address the life circumstances of our students, and put in place the 
core curriculum which defines the essential academic standards for 
student success.
    The work has been undertaken within a context of enormous demands 
on, and challenges to the viability of the District. During this period 
the District successfully emerged from Advisory Trusteeship, resolved a 
bitter strike without long-term negative consequences to the financial 
health of the District, and involved parents and community members and 
organizations in unprecedented numbers and ways. Future and unexpected 
demands will, no doubt, emerge and challenge us to remain focused on 
our priority to build a system of excellent schools which work for all 
students.
    At this point in time we have established a District which is 
making positive strides in turning about years of chronic underfunding. 
We have focused staff, parents, students, and the community on an 
effective educational program meeting the needs of all children, and we 
are beginning to see promising signs of improved performance.
    The primary goal of the school district is to ``Guarantee that 
conditions exist for student achievement,'' is supported by five 
additional goals. Our mandate is to build an opportunity structure 
which enables all students to access the core curriculum and achieve at 
high levels of performance.
    Equity of opportunity and high achievement by all students require 
the establishment of high standards and the uniform implementation of a 
rigorous academic core curriculum and support programs. In partnership 
with the Clorox Company Foundation we have embarked upon a district-
wide initiative which embodies the principles of the Efficacy Institute 
as a process for the development of high standards benchmarked to 
national and State standards and reinforced through Efficacy. We have 
continued to implement the Core Curriculum adopted by the Board of 
Education in 1993. The Core Curriculum alignment to achieve these 
standards is an ongoing process.
    The 1995 Mathematics textbook adoption resulted in an upgraded 
Mathematics Curriculum and the publishing of ``Nuts and Bolts,'' a 
highly acclaimed resource guide for teachers of Mathematics. The 
English-Language Arts adoption, currently underway has similarly 
resulted in an enrichment of that curriculum (as evidenced by the 
standards), and has, for the first time, led to the integration of 
English Language Development and Bilingual Education. Our focus on 
early literacy is supported by programs such as Reading Recovery, the 
Early Literacy Inservice Course, and Standard English Proficiency (SEP) 
which serve the diverse learning needs of our students and are 
essential strategies for achieving the goal of all students reading by 
3rd grade.
    The Science Curriculum has also been enhanced through our 
partnerships with the Bay Area Science and Technology Educational 
Consortium (BASTEC), and the Leadership Institute for Teaching 
Elementary Science (LITES). Course requirements have been expanded with 
a full year of science for 7th grade, and the linking of a semester of 
science with the TechLab 2000 in 8th grade. This course structure 
further illustrates the integration of our academic curriculum with a 
career preparation curriculum.
    During the past two years academic offerings lost to previous 
budget reductions have been re-established. These additions include our 
Music program and our Foreign Language program. We are currently 
experimenting with a Distance Learning Program for Foreign Language, 
which, if successful, will enable us to offer language at all schools 
and achieve our goal of all students being fluent in two or more 
languages.
    The Curriculum is supported by the use of technology in instruction 
and as a tool for learning. All schools are being wired for internet 
access and two successful NetDays have resulted in a significant number 
of classrooms connected to computer networks. Recognizing the need for 
ongoing staff development in this area we have dedicated significant 
training resources, including the renovation of our training 
facilities, to prepare staff to use and teach technology.
    Student success in school is directly related to preschool 
preparation. We continue to expand our Child Development Centers and 
the curriculum of these Centers is integrated with our K-12 Curriculum. 
Our collaborative effort with the City--Oakland 2000--will ensure that 
preschool children have the intellectual and social skills for success 
in school. This foundation establishes the essential preparation 
required if we are to realize our goal of literacy at 3rd grade.
    Through District and State resources we were able to successfully 
implement class size reduction of 20:1 in kindergarten and 1st grade. 
Class size reduction of 20:1 will be expanded to grades kindergarten, 
two, and three in September, 1997. We also extended the length of the 
kindergarten school day by 40 minutes to the State maximum. Teacher 
effectiveness in these reduced size classrooms is being supported by a 
grant of $280,000 from the State for professional development in 
literacy.
    This past school year marked a significant milestone in the 
District as the Board unanimously passed a resolution for the 
reconfiguration of grade-levels in our schools to K-5 Elementary 
Schools, 6-8 Middle Schools, and 9-12 High Schools. This 
reconfiguration assures parents that their children will receive the 
same high quality education, no matter which school they attend.
    Oakland's High Schools are recognized nationally for their Career 
Academies and we have continued to add programs (most recently the 
Biotechnology Academy at Fremont High School, and the Shell Program at 
Castlemont High School. Recognition of our success is evidenced by the 
awarding of a $650,000 grant from the U.S. Departments of Labor and 
Education to support the continued expansion of our Academies in the 
Castlemont attendance area. The Board recently approved a 5-year 
School-To-Career plan which establishes the strategies to achieve a 
full integration of career and college preparation in all high schools. 
The curriculum is bolstered by a continuing expansion of the number and 
variety of Advanced Placement courses at every high school.
    Alternative Education programs are provided for students with 
special circumstances and learning needs. This year the programs have 
been restructured to better deliver a sound and rigorous educational 
program. They range from opportunity classes in elementary schools, to 
independent study. Programs are provided in alternative settings on 
community college campuses and in collaboration with community agencies 
such as the East Oakland Youth Development Corporation (EOYDC), the Bay 
Area Urban League, and Wildcat Camp Ranch House. We also support 
student success by utilizing our in-district student-run television 
studio, Channel 13, KDOL, to provide the highly successful homework 
hotline.
    The Adult Education Program serves over 26,000 students who are 
pursuing their high school equivalency, or continuing their education 
to further their learning or career opportunities.
    The District's goals define a set of strategic priorities which 
form the basis of our work in 1997. These priorities include the 
following:
  --Finalize Content Standards and Performance Standards in the Spring 
        of 1997.
  --Adopt Increased High School Graduation Standards in the Spring of 
        1997.
  --Implement class size reduction in grades K-3 by Fall of 1997.
  --Continue to implement the Reconfiguration Plan during 1996-1997 
        working with local school communities to develop solutions to 
        overcrowding caused by a combination of increased enrollment 
        and greater than planned for class size reductions.
  --Implement the Middle Grades Program in Fall of 1997.
  --Expand School-To-Career Academies.
  --Open and staff the Technology Resource Center.
  --Establish coursework standards for professional development 
        progression for certificated and classified staff.
  --Publish the District and Schools Report Card in October of 1997.
  --Expand the Foreign Language and Music Programs.
  --Develop a new Special Education Plan.
  --Develop uniform course descriptions for all Secondary schools.
  --Implement the newly adopted standardized assessment.
  --Adopt English Language Arts Instructional Materials.
  --Implement Summer School Programs and Summer Bridge programs.
  --Expand the Technology and Career Exploration Course to all High 
        Schools.
  --Complete of Internet access in 30 remaining elementary schools.
  --Organize March NetDay.
    Building a system of excellent schools requires the development of 
a system of support and services which provide schools and staff with 
the direction, resources, and solutions they need to deliver high 
quality instruction in an environment conducive to teaching and 
learning.
    The District's organizational structure has been reorganized to 
focus all activities of the Central Office on service to schools. This 
means directly connecting the work of central services to results in 
student achievement. The Curriculum and Instruction functions have been 
integrated with the line support for schools, and that line support is 
now based on a model of service. Business Services are aligned to the 
financial needs of the schools and Facilities Planning has been 
established to effectively manage the massive increase in facilities 
resources, both through local bond funds (Measure C) and State 
Modernization funds. Human Resources has integrated Labor Relations and 
Personnel functions into a comprehensive strategy.
    Each Division has engaged in significant redesign work and 
Departments have worked collectively through the Organizational 
Improvement Audit to establish performance standards. Purchasing has 
achieved a level of 98 percent delivery of materials ordered and this 
department has moved to a computerized system of ordering.
    Custodial services have been restructured and are now based on 
standards of service, and accountability to the school. Furthermore, 
special services have been developed to provide deep cleaning for the 
year round schools.
    A system of accountability is being developed, tied to measures of 
success at the school site. This ensures the alignment of our support 
services to the requirements of our schools. Accountability is also 
supported by the establishment of a District Hotline to handle 
complaints not resolved during the normal operation of our Divisions.
    There has been an ongoing reallocation of resources from the 
Central Office to school sites, with the reduction of $1.5 million 
dollars in administrative costs this past year. Efficiencies have been 
gained through an aggressive contract management process highlighted by 
the negotiation of a new telecommunications contract saving $200,000 
annually, and the purchase of natural gas through SPURR, a consortium 
of school districts collectively purchasing natural gas and other 
fuels.
    District priorities in the area of organizational effectiveness and 
efficiency include the following:
  --Refine measures of customer satisfaction and develop processes to 
        routinely collect that data.
  --Establish the Accountability Commission.
  --Assemble and report to the community the District and School report 
        card on performance in October of 1997.
  --Continue the work of establishing systems of accountability and the 
        monitoring tools necessary to validate results.
  --Develop school improvement system including school improvement 
        indicators and standards.
  --Develop and score School Improvement Portfolios based on grade-
        level rubrics.
  --Fully implement the School Improvement System initiative by 
        September, 1997.
  --Develop a strong monitoring plan for site and District office 
        accountability.
  --Present regular, public reports of the Organizational Improvement 
        Audit.
  --Expand administration of customer satisfaction surveys (of 
        students/parents) before the end of the year.
  --Commit to staff training in targeted areas on customer 
        satisfaction.
  --Develop specific positive recognition programs for spring.

                language arts curriculum and instruction

    In 1993 the Oakland Unified School District adopted a rigorous 
academic core curriculum in the areas of Language Arts, Social Studies, 
Mathematics, and Science. This was the first step in a continuous 
process of raising academic standards within our District.
    The Language Arts Curriculum and Instruction must address the 
learning needs of all 52,000 students who bring 60 languages to our 
schools and include components of English language development and 
bilingual education.
    The Oakland Unified School District is completing work on a 
comprehensive program that aligns high standards, quality teaching, and 
assessment in order to meet the diverse learning requirements of every 
student. Students who bring to the classroom African-American language 
patterns, students who have special learning needs, students who are 
bilingual, students eligible for advanced placement, and English only 
students will be successful learners as a result of the District's 
well-aligned core curriculum program.
    The process to develop the District's core language arts program is 
broad-based and inclusive. Teachers who represent all of Oakland's 
diverse classrooms, administrators, parents, students and community 
members form committees to establish Content and Performance Standards. 
The Standards are then used as criteria to select textbooks and 
materials and to focus on effective teaching practices. Based on the 
ability to measure achievement of the Standards, assessment tools--
standardized tests and performance assessments--are selected or 
realigned. All instructional staff are trained on the Standards and 
their linkages to textbooks and materials, support programs and 
assessment. This comprehensive alignment of the components of effective 
instruction closes gaps through which students--particularly African-
American students--have fallen over the years. The alignment also 
assures that every student is provided a strong, quality program of 
instruction that addresses their diverse learning requirements.
    Content and performance standards, which form the basis for the 
design of this comprehensive curricular program, are based on the 
National Council of Teachers of English/International Reading 
Association (NCTE/IRA) standards, the work of the New Standards 
Project, and the California Challenge Standards. Oakland's drafts of 
the Content and Performance standards reflect the range of language 
diversity in Oakland and are applicable to all students. The Standards 
(see Appendix 10 for examples of the Standards) are organized into the 
following categories: Reading; Literature, Public, and Functional 
Documents; Writing; Speaking, Listening, and Viewing; Media Literacy; 
and Student/Teacher Collaborative Assessment.
    The comprehensive Language Arts textbook and instructional 
materials adoption process, scheduled for completion in April, will 
result in textbooks and materials for the following curricular strands 
(see Appendix 11 for a summary of the textbook and materials process 
and selection criteria): English/Language Arts (ELA); English Language 
Development (ELD); Spanish Bilingual (grades K-5); and Advanced 
Placement English (grade 12).
    The new language arts textbooks and materials are designed to 
enable students to master the reading, writing and speaking standards 
with greater proficiency and success than in past years. Briefly, the 
materials focus on:
  --Phonics.--The explicit learning of phonics, sound-symbol 
        correspondence, letter patterns, semantic cues and grammar in 
        the context of language derived from the readings.
  --Vocabulary and Comprehension.--Instruction in a variety of 
        comprehension and critical thinking strategies that expand 
        vocabulary and develop reading depth.
  --Writing.--Lessons that stress writing as a process and offer 
        opportunities for writing for different audiences and purposes.
  --Speaking and Listening.--Lessons that help students deliver formal 
        and informal speeches and oratorical events, and teach them to 
        listen responsively and observe the customs of courteous 
        discussion.
  --Literature.--Richly multicultural and diverse materials address 
        social issues, and cultivate, positive human value, and provide 
        good role models.
  --Study of Language Diversity.--Materials that stress the study of, 
        and respect for, diversity in language use, patterns, and 
        dialects across cultures, ethnic groups, geographic regions and 
        social roles, and are able to adapt to language use for 
        audience and purpose.
    Support programs, integrated with the adopted textbooks and 
instructional materials include, but are not limited to, the following:
  --Standard English Proficiency Program (S.E.P.).--S.E.P. is a 
        cultural-linguistic program that empowers African-American 
        students with knowledge and understanding of African-American 
        culture and languages. Classroom instruction demonstrates the 
        differences in language spoken in the student's home and 
        standard English. The language students bring into the 
        classroom is embraced and a bridge is constructed to standard 
        English.
  --Bilingual: Sheltered and SDAIE.--Students receive, based on 
        diagnosed needs, English language development instruction in 
        the core language arts program through primary language 
        (Spanish, Chinese, Cambodian, and Vietnamese), sheltered 
        instruction, or Specifically Designed Academic Instruction in 
        English (SDAIE) and instruction which promotes the student's 
        self-esteem and cross-cultural understanding.
  --Strategies for Special Needs Students.--Through the Individual 
        Educational Program (IEP) process, students receive adapted 
        materials (such as large print materials, interpreters for the 
        deaf, specialized computer keyboards, etc.), pull-out 
        instruction, assistance in the regular classroom, special day 
        classes, non-public schools, etc.
  --Early Literacy Inservice Course (ELIC).--ELIC provides staff 
        training which includes topics such as: diagnosis of reading 
        deficiencies, structure of the English language, research on 
        how deficient readers read, planning and delivery of 
        appropriate reading instruction based on assessment and 
        evaluation, relationships between reading, writing, and 
        spelling, and means of improving reading comprehension.
  --Advanced Placement.--Beginning in 9th grade, teachers are provided 
        training and students are provided support in order to increase 
        the number of students, particularly students who are 
        historically underrepresented in intensive, advanced placement 
        courses.
    The content and performance standards also formed the criteria for 
the selection of a new standardized assessment program. The adopted 
test, TerraNova, more accurately assesses the extent to which all 
students are successfully achieving the standards.
    Performance assessments will also be designed and/or acquired to 
measure student progress toward, and the achievement of, the standards. 
These assessments are an important component of an integrated system of 
assessments which provide the teacher and student with valuable 
feedback to improve teaching and learning. Student work is collected in 
portfolios, performances, and projects, and assessed through the use of 
rubric-based criteria.
    The implementation of the Language Arts core curriculum, textbooks 
and instructional materials, support programs, and assessments requires 
intensive and ongoing staff development. Generally, the staff 
development will focus on the following:
  --The implementation of the new textbooks and instructional 
        materials;
  --The diverse language requirements of all of Oakland's students and 
        unique support strategies to meet those requirements (e.g. 
        S.E.P., bilingual, sheltered instruction, SDAIE, ELIC, and 
        special needs);
  --The linkages between standards, assessment, textbooks and 
        materials, support programs, and staff development;
  --Oral language development;
  --Goals 2000: Early Literacy Requirements;
  --Literacy integrated through all subjects;
  --Reading development at the middle and high school levels;
  --Assessment: implementation of the new standardized assessment and 
        the development of performance assessments.
                          implementation plan
    The research and recommendations of the Task Force on the Education 
of African-American Students are to be integrated into the strategic 
direction and Curriculum and Instruction plans of the Oakland Unified 
School District (Appendix 13). The resolution and implementation plan 
require the Oakland Unified School District to develop and implement an 
education program which supports high academic achievement by African-
American students. Central to this program shall be the utilization of 
effective instructional strategies to ensure that every child has the 
opportunity to achieve English language proficiency.
    The development and implementation of this program be monitored by 
the Task Force for the Education of African-American Students. The task 
force will also participate in the development of a communications 
strategy supporting the implementation of the recommendations.
    Subcommittees, consisting of Task Force members, as well as 
teachers, parents, students, community members, and staff assigned by 
the Superintendent, will be convened to specify the programs, 
practices, professional development, parent and community involvement, 
and other activities which shall constitute the recommended education 
program.
    One subcommittee will be convened to address the following 
components of the Educational Program:
  --Establishment of a comprehensive program for English language 
        development, building on and incorporating Standard English 
        Proficiency (S.E.P.), and including assessments, materials, 
        instructional strategies, staff development plan for the 
        phased-in training of certificated and classified staff, and 
        the parent, family, and community education required to 
        implement that program.
  --Enhancement of a comprehensive program for Early Childhood 
        Education to strengthen linkages with, and broaden, existing 
        effective programs and practices, such as Project 2000.
  --Review of existing procedures and instructional strategies for GATE 
        and Special Education and recommend revisions which address the 
        disproportionate over or under representation by African-
        American students.
  --Establishment of strategies to strengthen school-to-career 
        preparation, workplace learning opportunities, and placement 
        through career, job, and college fairs.
  --Identification of a recruitment plan to increase the number of 
        African-American teachers and counselors employed, and increase 
        the number of African-American students enrolled in teacher 
        certification programs.
    A second subcommittee will be convened to recommend a comprehensive 
plan for parent and community involvement in the education of African-
American students and the strategies required to implement that plan. 
This subcommittee will include in this plan the establishment of a 
speakers bureau, community sponsored educational programs, and linkages 
with community service agencies and existing effective programs and 
practices.
    A third subcommittee will be convened to review existing support 
services and recommend a comprehensive structure for support services, 
and psychological and social services. These recommendations will 
include linkages with existing effective programs and practices 
provided by the City of Oakland, Alameda County, and Community-Based 
Organizations. This review will also include existing District services 
such as, Food Services, and make recommendations, if needed, for 
improvements in those services.
    Based on the work of these subcommittees, the Task Force will make 
funding recommendations which will be considered as part of the annual 
budget development process. The District will also develop a process to 
annually evaluate instructional practices and support services to 
determine their effectiveness in increasing the academic achievement of 
African-American students.
                     role of the federal government
    Our efforts to guarantee that conditions exist for student 
achievement will be enhanced by a strong and coordinated support 
strategy linking state and federal resources with our local 
initiatives. Within existing resources we have the capacity to develop 
and implement innovative and promising practices. What we do not have 
the capacity to do is to unilaterally expand services to groups of 
children not currently served by the funding allocations provided to 
our District. Nor do we have the capacity to serve as a conveyor or 
clearinghouse linking together resources from across the country. 
Federal support enables us to move from pilot programs and small-scale 
projects to system-wide initiatives which move best practice to scale.
    If we are to achieve our goal of high achievement by all students, 
we must implement our reforms system-wide. Several enhancements to the 
current educational system will support our efforts.
    First, early childhood education programs should be expanded for 
all children aged three and four. Preschool is a proven and cost 
effective strategy to improve the education and life circumstances of 
children. The expansion will also lead directly to jobs and support 
systems for the very people impacted by recently enacted welfare 
reforms.
    Second, funding for various State and Federal urban initiatives and 
empowerment strategies should include funding for new schools. For 
example, urban schools are typically not in a position to fund the 
physical infrastructure improvements and school building additions 
required as city demographics shift in response to urban initiatives.
    Third, funding for professional development opportunities is 
essential so that we can continue to retool the teacher workforce and 
address the needs of an influx of new teachers into our schools. These 
funds are typically above and beyond the base funding for direct 
instructional services to students.
    Finally, funding a longer school day and school year will support 
the educational achievement needs of urban youth. At present we link 
together on a piecemeal basis various city and community-based projects 
to service some of our youth in after-school, weekend, and summer 
programs. The systematic expansion of instructional time will ensure 
that all children have access to opportunities for higher achievement.
    Furthermore, the Federal government can link local strategies 
together to improve urban education. We have identified several ways to 
achieve this linkage.
    First, establish a National Commission on Urban Education to 
identify key barriers to improving the quality of urban education, 
building on recent policy reports; and develop strategies to overcome 
these barriers that take a systemic approach to school reform and build 
on corporate experiences re-engineering large organizations.
    Second, convene high visibility conferences of urban educators 
sponsored by the U.S. Department of Education, creating the same 
dynamic as did the U.S. Department of Labor's ``National Labor-
Management Conference'' which defined and elevated best practice and 
made those practices acceptable to the mainstream.
    Third, hold focused conversations between national and state 
participants around key areas such as standards so that there is a 
meshing of state and national standards.
    Fourth, build a strong strand in the United States Conference of 
Mayors which links educational leaders of urban education with the work 
of cities.
    And finally, create networks of this nation's proven reform 
networks, together with the educational leaders who are ultimately 
responsible for introducing and implementing those reforms into their 
districts.
                               conclusion

    The low level of African-American student achievement is well 
documented and represents a national crisis. Solutions which reverse 
the educational, social, and economic fortunes of African-American 
youth will require a concerted effort between our nation's communities, 
our school systems, and our governmental agencies at the city, state, 
and national level. In our efforts to address these serious issues, we 
stumbled briefly over a choice of words used to convey the intent of 
our direction, and we have corrected these flaws in our original 
resolution. If anything, however, this national debate does, indeed, 
signal the importance of words and language.
    Even as we move beyond words, however, there is something deeply 
disturbing about the tone and tenor of the ``ebonics'' debate which has 
gripped the newspapers and airwaves of this country. More ink has been 
spilled in twenty five days debating this issue than has been spent in 
the entire thirteen years since the publication of the landmark report, 
A Nation At Risk, addressing the failure of our public schools to 
educate minority children.
    This is not an Oakland problem. It is a national problem. The 
actions of the Oakland Board of Education have elevated the level of 
the debate on the education of African-American children. I welcome 
this debate and I am confident that, as a result, we will move Oakland 
and the nation to an open discussion of the connection between language 
and literacy. We must confront this issue head on.
    The New York Times reported this past week on the growing gap in 
achievement between white and minority students. These statistics are 
both mind-numbing and a cause for moral outrage. Katie Haycock, 
Executive Director of the Education Trust, which produced the report, 
stated that, ``There are schools that are able to overcome the problems 
of urban life and get terrific results. The question is when are we 
going to make them the rule and not the exceptions. We think kids are 
achieving at low levels not because of poverty or because their parents 
are less well educated, but because we're systematically teaching them 
less.''
    The question is not, whether or not we must act; rather we are 
confronted by questions about how best to act, and how quickly can we 
act? The answers to these questions are not simple and they are not 
comforting. Quite to the contrary, the answers to these questions 
challenge some of the fundamental assumptions we have about the purpose 
and design of education.
    The strategies set forth by the Task Force on the Education of 
African-American Students provide us with the tools to instill high 
standards, institute a rigorous academic curriculum, and improve. 
instruction. The recommendations establish English language proficiency 
as the foundation for competency in all academic areas. Passage of this 
policy is a clear demonstration that the Oakland Unified School 
District is committed to take actions to turn around the educational 
achievement of its African-American students.
    Our focus on African-American student achievement is all the more 
compelling because of the fact that if we find ways to help the least 
successful students, we will benefit all of our students. Every moment 
lost is a child lost. In the midst of this debate, our community has 
stood together and proclaimed that the loss of a single child is no 
longer acceptable. I leave it to the conscience of America to move our 
country beyond this debate and focus on issues of educational 
improvement.

Appendix 1.--Oakland Unified School District--grades served K-12

Division of Planning, Research, Evaluation, and Policy Development, 
1995-96

African American..................................................27,265
Pacific Islander..................................................   435
Asian............................................................. 9,638
Caucasian......................................................... 3,549
Filipino..........................................................   512
Hispanic..........................................................10,622
Native American...................................................   248
                        -----------------------------------------------------------------
                        ________________________________________________
      Total enrollment............................................52,269

Student enrollment by ethnicity

                                                                 Percent
Native American...................................................     1
African American..................................................    52
Pacific Islander..................................................     1
Asian.............................................................    18
Caucasian.........................................................     7
Filipino..........................................................     1
Hispanic..........................................................    20

 APPENDIX 2.--SELECTED MAJOR LANGUAGE GROUPS--LEP STUDENTS AS A PERCENT 
                    OF TOTAL DISTRICT ENROLLMENT \1\                    
                                [1995-96]                               
------------------------------------------------------------------------
               Language                    Number           Percent     
------------------------------------------------------------------------
Cambodian............................           1,173               2.3 
Cantonese............................           2,660               5.1 
Laotian..............................             268               0.51
Mien.................................             837               1.6 
Spanish..............................           8,059              15.6 
Tagalog..............................             172               0.33
Vietnamese...........................           1,449               2.8 
------------------------------------------------------------------------
\1\ Total district enrollment 51661.                                    
                                                                        
Data source: 1995-96 Language Census (R-30).                            

[GRAPHIC] [TIFF OMITTED] TPS39641.002

[GRAPHIC] [TIFF OMITTED] TPS39641.003

[GRAPHIC] [TIFF OMITTED] TPS39641.004

[GRAPHIC] [TIFF OMITTED] TPS39641.005

[GRAPHIC] [TIFF OMITTED] TPS39641.006

[GRAPHIC] [TIFF OMITTED] TPS39641.007

[GRAPHIC] [TIFF OMITTED] TPS39641.008

                                 ______
                                 

                              Appendix 10

                    Language Arts Content Standards

                          summary and examples

    Content standards.--Describe: What students should know and be able 
to do.
    Performance standards.--Address the question: How good is good 
enough?
    Performance standards are described in terms of three coordinating 
features: Performance criteria, examplars, and commentaries which 
explain how the exemplars meet the standard.

                                preview

     oakland unified school district english/language arts content 
                         standards--grade 6-12

Content Standard No. 1. Reading
    Students read extensively and comprehend a wide range of materials 
of quality and complexity illustrated in California's recommended 
reading lists as well as district-adopted reading lists. Students read 
in depth and progress steadily in reading skills and fluency.
    1A. Reading range.--Students read and comprehend a wide range of 
materials of quality and complexity illustrated in California's 
recommended reading lists as well as district-adopted reading lists.
    1B. Reading depth.--Students read in depth about single issues, 
themes, or subjects, study multiple works by a single writer, and study 
the features of different literary genre.
    1C. Reading skills and fluency.--Students use a wide range of 
strategies to read, understand, and evaluate increasingly challenging 
texts of many kinds, developing speed and skill.
Content Standards No. 2. Literature, Public and Functional Documents
    Students read, critique, evaluate, and respond to a wide range of 
literature as well as public and functional documents from a diversity 
of time periods, genres, and cultures. Students read for a variety of 
purposes: communication, information, entertainment, aesthetics.
    2A. Literature.--Students read a wide range of literature from a 
diversity of time periods, genres, and cultures to build an 
understanding of the many dimensions of human experience.
    2B. Diversity in literature.--Students read a wide range of print 
and nonprint texts that reflect the diversity of Oakland's community, 
California, the United States, and the world to develop an 
understanding of the multiplicity of American cultures; students study 
their own cultures and explore self-identity.
    2C. Public documents.--Students read, critique, and respond to a 
range of public documents such as speeches, editorials, magazine 
articles, and campaign literature.
    2D. Functional documents.--Students read, critique, and respond to 
a range of functional documents such as manuals, contracts, 
applications, and handbooks.
Content Standard No. 3. Writing
    Students use a wide range of strategies as they write and use 
different writing process elements to communicate for different 
audiences and purposes. Students apply language conventions 
appropriately and respect language diversity.
    3A. Writing as a process.--Students treat writing as a process in 
which they organizer thoughts and information, develop drafts, analyze, 
revise, and edit texts as appropriate for audience, context, and 
purpose.
    3B. Writing for variety.--Students write to communicate effectively 
for a variety of audiences and purposes, developing style and voice.
  --Narration and narrative accounts.--Students write narratives which 
        are fictional, biographical, or autobiographical in 
        stylistically effective ways to appeal to reader interest as 
        well as narrate procedures.
  --Reports and research.--Students conduct research and use a wide 
        variety of resources to gather, evaluate, and synthesize 
        information to create and communicate knowledge.
  --Persuasive writing.--Students write persuasively, supporting 
        positions with sound reasoning and strong evidence.
  --Reflective writing.--Students write a variety of reflections in 
        which they might analyze a situation, develop a personal 
        observation into a larger significance, or create deeper 
        insights.
  --Response to literature.--Students respond to literature using a 
        variety of forms such as suggesting interpretations, comparing 
        and contrasting works, evaluating groups of selections, 
        adapting language for different audiences.
  --Creative/expressive writing.--Students write creatively, tapping 
        the wellspring of personal experiences to re-cast them, for 
        example, as fantasy, poetry, or drama.
  --Public documents.--Students respond to and create a range of public 
        documents such as speeches, editorials, magazine articles, and 
        campaign literature.
  --Functional documents.--Students respond to and create a wide range 
        of functional documents such as manuals, contracts, 
        applications, handbooks, letters, notes, resumes, and 
        instructions.
  --Study of language diversity.--Students study and respect diversity 
        in language use, patterns, and dialects across cultures, ethnic 
        groups, geographic regions and social roles, and are able to 
        adapt to language use for audience and purpose.
    3C. Writing conventions.--Students apply knowledge of language 
structure and conventions: spelling, capitalization, punctuation, 
grammar, word usage, sentence structure, and paragraphing for different 
audiences and purposes. Students show a command of standard English.
Content Standard No. 4. Speaking, Listening, and Viewing
    Students listen, understand, view, evaluate, and speak effectively 
in both formal and informal situations using the appropriate 
conventions of language, for different audiences and purposes, to 
communicate ideas.
    4A. Presenting information.--Students present information in a 
variety of spoken or recorded forms such as drama, oratory, recitation, 
reader's theatre, discussion, story telling, and multi-media 
presentations.
    4B. Exchanging and responding to information.--Students respond as 
attentive, courteous, and critical listeners to oral and media 
presentations.
Content Standard No. 5. Media Literacy
    Students use a variety of media, technological, and informational 
resources such as libraries, databases, computer networks, and video 
resources to gather and synthesize information and to evaluate and 
communicate knowledge.
    5A. Media as resource.--Students use an array of media resources to 
access information and expand learning.
    5B. Media as communication.--Students use media and technology to 
communicate and express knowledge and ideas.
Content Standard No. 6. Student/Teacher Collaborative Assessment
    Students and teachers in collaboration engage in a wide range of 
assessment strategies which are used to plan, evaluate, and carry out 
instruction.
    6A. Performance-based assessments.
    6B. Portfolio collections and assessments.
    6C. On-demand assessments.
    6D. Anecdotal records and student/teacher conferences.
    6E. Standardized assessments.
    [GRAPHIC] [TIFF OMITTED] TPS39641.009
    
    [GRAPHIC] [TIFF OMITTED] TPS39641.010
    
    [GRAPHIC] [TIFF OMITTED] TPS39641.011
    
    [GRAPHIC] [TIFF OMITTED] TPS39641.012
    
    [GRAPHIC] [TIFF OMITTED] TPS39641.013
    
    [GRAPHIC] [TIFF OMITTED] TPS39641.014
    
                                 ______
                                 

                              Appendix 11

         Textbook and Materials: Process and Selection Criteria

  oakland unified school district criteria for english/language arts 
             instructional resources adoption--grades 6-12

    Criteria categories: (based on California State criteria)
  --Literature and the teaching of reading.
  --Composition and the teaching of writing.
  --Speaking, listening, and viewing and the development of oral/aural 
        literacy.
  --Media literacy and technological supports: Integration of the 
        language arts--teacher support and student support. Assessment 
        and evaluation, and presentation of materials.
        [GRAPHIC] [TIFF OMITTED] TPS39641.015
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.016
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.017
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.018
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.019
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.020
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.021
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.022
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.023
        
        [GRAPHIC] [TIFF OMITTED] TPS39641.024
        
                                 ______
                                 

                              Appendix 12

             Standard English Program--A Brief Description

                            what is s.e.p.?
    The Standard English Proficiency Program (S.E.P.) is a cultural-
linguistic program which empowers African-American students with 
knowledge and understanding of African and African-American culture and 
languages. Classroom instruction demonstrates the differences in the 
language spoken in the student's home and standard English. The teacher 
and school community embrace the language the students bring to the 
classroom and build a bridge to standard English. The teacher and 
school community acknowledge and understand the student's language. 
Students may cross the bridge from the language they speak to standard 
English with pride and dignity. The student understands and accepts the 
need to be able to communicate effectively in standard English in 
appropriate situations. The framework of the curriculum includes a 
variety of teaching methods and literary genre to prepare students for 
the global economy of the 21st century.
                                why sep?
    Many children, even before the age of five, learn an intricate 
system of language. They are able to construct sentences, ask 
questions, select appropriate pronouns and form negation using the 
structure (syntax, phonology, and grammar) of the language system to 
which they are born (Fromkin/Rodman, 1974). Basically, children are not 
taught language in the sense that they are taught arithmetic. They 
learn it by themselves and as long as it is spoken around them, they 
seem to mirror the language of their environment. Since language is 
learned by children whether or not it is taught to them, and since they 
model the language and dialects of their immediate environment as well 
as the values and behaviors fostered in that environment, all language, 
then, mirrors the environment in which it is used regardless of race or 
social status; and children, unless neurologically or physically 
handicapped, enter school with a language system that is reflective of 
their cultural milieu.
    For many Black children, this system is euphemistically called 
Black English.\1\ Because of the negative connotation often associated 
with the term ``Black English,'' the State Department of Education 
elected to use the term ``Black Language.''
---------------------------------------------------------------------------
    \1\ Black English is generally used as an euphemism for nonstandard 
English, or vernacular English.
---------------------------------------------------------------------------
    Succinctly, Black Language connotes a system that embodies 
communication styles, intonation, body language, structure, and 
grammar. In addition, various studies support the notion that Black 
Language derives from a bona fide language system with its own semantic 
grammatical and phonological structure. Yet, the origin of Black 
Language is as controversial today as the origin of language itself and 
no one theory seems to earn consensus in the field of linguistics.
    Therefore, the concern of the Standard English Program is not with 
the language system, per se, or its origin; but rather, it is with the 
recognition of the system in helping Black children learn standard 
English.\2\
---------------------------------------------------------------------------
    \2\ Standard English refers to that pattern of English which is 
more culturally valued and therefore, has a higher level of prestige or 
status associated with it.
---------------------------------------------------------------------------
    Standard American English is constantly enriched by words, phrases, 
and usages originating in Black language, whatever its origin, is one 
of the many dialects of English, influenced by the changes which go on 
in other dialects.
    A key problem in understanding differences in American English and 
positively respond to them, is the adverse social attitudes associated 
with so called non-standard dialects. Unfortunately, many teachers tend 
not to evaluate or judge language on the basis of its efficiency as a 
unique means of communication. Typically, language is treated as good 
or bad, right or wrong, and is usually based on the social status which 
specific language patterns tend to enjoy among the high-status people 
in the communities (Goodman, 1971), (Williams and Whitehead, 1971). It 
is important for teachers involved with students who speak Black 
Language to have an awareness of the peculiarity of Black Language in 
their culture and recognize that their language is an integral part of 
the culture; any antagonistic or demeaning criticism of their language 
is a direct attack on the student, the culture, and the society 
(Cromack, 1971). In other words, the perception of the student's 
language as inferior is by implication the perception of the student 
and his culture as inferior.
    Black Language and standard English share most lexical forms and 
rules; the systematic differences are easily understood and can be 
readily taught in the classroom setting. The major obstacles to 
language learning may be teacher attitude and acceptance. Although a 
statement by Kochman may be somewhat limited, it undoubtedly rings of 
truth:
    The inescapable social truth of the matter is that people's 
attitudes toward other people's speech are merely extensions of 
people's attitudes toward their culture and the people of that culture 
(88).
    Perhaps more important than awareness of the sociopsychological 
aspects of language is an understanding of the linguistic merits of 
non-standard dialects.\3\ No language is more superior than another; 
they exist to be meaningful, and are ``equally adopted to the needs of 
those who use them'' (Hymes, 46). Basically, the linguistic viewpoint 
if clear--all communities develop a language that is a well-ordered 
system with a predictable sound pattern, grammatical structure, and 
vocabulary. Further, in that the language fulfills the communication 
requirements of the community, it is structurally as good as any other 
language (Baratz, 1969).
---------------------------------------------------------------------------
    \3\ Dialect is a descriptive term used by linguists in reference to 
language variety. In some parlance, dialect is defined as a ``variety 
of a language generally and mutually intelligible with other varieties 
of that language but set off from them by a unique complex features of 
pronunciation, grammar and vocabulary.''
---------------------------------------------------------------------------
    Without question, language is the basis for communication, and in 
western society, communication plays an important role in the 
determination of an individual's educational, social and vocational 
success. To the extent that standard English is the language of 
commerce both here and abroad, and to the extent that the futures of 
black students are not confined to any one community by dint of their 
language, it is imperative that they also learn the standard English 
dialect. Toward this goal, the Standard English Program is designed to 
assist school-level administrators and classroom teachers and parents 
in expanding the language skills of speakers of Black Language.
                               about sep
    The Standard English Program (SEP) focus on language arts 
enhancement for speakers of Black Language:
  --It is not a program to teach Black Language.
  --It is not a program to develop curriculum materials on Black 
        Language.
  --It is not a program for teachers to learn to speak Black Language.
    It is, however, a program that recognizes and utilizes existing 
strengths in oral language from the students' primary culture as a 
basis for new language learning. The program presumes that language and 
culture are learned. It can be further surmised that the relationship 
between language and culture is so intimate that while the student 
learns the language, the student also learns the culture, and that a 
familiarity with understanding the culture gives better command over 
the language. Because of this intimacy, the relationship between the 
dominant and subdominant language skills, we engage in a process of 
enculturation: we add to their language repertoire and tactfully say, 
``take this, develop it, and go yonder.'' It is crucial that they have 
a conscious knowledge of what is yonder and what they already 
culturally possess.
    While in the past the Standard English Program has focused on oral 
language development the current statewide focus on early literacy 
development requires that SEP also address this area of critical 
concern for African-American students. The year to come will include 
new attention to the role of SEP in promoting and facilitating the 
development of high levels of literacy among African-American children.
                                  sep
    The concerns that give shape to the Standard English Program gained 
social relevance in the mid-sixties (mid-60's) and throughout the 
seventies (70's). The proliferation of research on Black Language 
during the 70's focused, pretty much, on the theme that Black Language 
is neither inferior, deficient, illogical, or incomplete; however, 
there are systematic differences. Just as there are systematic 
differences between English spoken by Americans and English spoken by 
Australians, there are also systematic differences between English 
spoken by speakers of Black Language and English spoken by speakers of 
standard English. Notwithstanding, the need for standard English 
competency in speakers of Black Language has been echoed by parents and 
by employers who hire Black high school graduates. The need is also 
reflected in the 1981 State Proficiency Assessment results, namely, the 
1981 Statewide Summary of Student Performance on School District 
Proficiency Assessment.\4\
---------------------------------------------------------------------------
    \4\ Thirty-five (35) percent of Black students were failing 
standard English proficiency tests as compared to 29 percent and 15 
percent whites. (A report prepared for the California legislature in 
response to the requirements of Educations Code Section 51219).
---------------------------------------------------------------------------
    Interest in a program to address this need was presented at the 
Summit on Educational and Social Concerns in June 1979. A paper was 
subsequently developed by the Equal Educational Opportunities 
Commission (EEOC) of the California State Board of Education and 
presented to the State Board in November 1980. Succinctly, the paper 
outlined the need for special efforts to develop proficiency in 
standard English for students who are speakers of Black Language.
    Following the presentations from the EEOC, the State Department of 
Education and local school board representatives, the State Board of 
Education adopted a policy in February 1981, directing districts to 
address the linguistic needs of Black Language speakers. Therefore, to 
provide proficiency in English to California students who are speakers 
of Black Language and to provide equal educational opportunities for 
those students, the State Board of Education and the State Department 
of Education recognize:
  --That oral language development is a key strategy which facilitates 
        learning in reading and other academic areas.
  --That structured oral language practice in standard English should 
        be provided on an ongoing basis.
  --That oral language development should be emphasized during the 
        teaching of reading and writing.
  --That special program strategies are required to address the needs 
        of speakers of Black Language.
  --That staff development should be provided for policymakers, 
        administrators, instructional personnel, and other responsible 
        persons.
  --That parents and the general public should be informed of the 
        implications of educational strategies to address the 
        linguistic needs of Black students; and
  --That this effort to improve proficiency in standard English for 
        speakers of Black Language is not (1) a program for students to 
        be taught to speak Black Language; (2) a program for teachers 
        to learn to speak Black Language; or (3) a program requiring 
        materials in textbooks to be written in Black Language.
    The Language Symposium is designed to provide administrators, 
teachers, and parents with a paradigm for implementing a quality 
language development program, or to enhance an existing program where 
needed.
                                 ______
                                 

                              Appendix 13

 Implementation Plan for the Recommendations of the Task Force on the 
                 Education of African American Students

Purpose
    It is the policy of the Oakland Unified School District to develop 
and implement an education program which supports high academic 
achievement by African-American students. Central to this program shall 
be the utilization of effective instructional strategies to ensure that 
every child has the opportunity to achieve English language 
proficiency.
Role of Task Force
    The development and implementation of this program shall be 
monitored by the Task Force for the Education of African-American 
Students. The task force shall also participate in the development of a 
communications strategy supporting the implementation of the 
recommendations. This Task Force shall report to the Board of Education 
on a monthly basis.
Subcommittees
    Subcommittees, consisting of Task Force members, as well as 
teachers, parents, students, community members, and staff assigned by 
the Superintendent, shall be convened to specify the programs, 
practices, professional development, parent and community involvement, 
and other activities which shall constitute the recommended education 
program. These subcommittees shall present their recommendations to the 
Task Force. Based on Task Force consensus, recommendations shall be 
presented to the Superintendent.
Educational Program
    A subcommittee shall be convened to address the following 
components of the Educational Program:
    Establishment of a comprehensive program for English language 
development, building on and incorporating Standard English Proficiency 
(S.E.P.), and including assessments, materials, instructional 
strategies, staff development plan for the phased-in training of 
certificated and classified staff, and the parent, family, and 
community education required to implement that program.
    Enhancement of a comprehensive program for Early Childhood 
Education to strengthen linkages with, and broaden, existing effective 
programs and practices, such as Project 2000.
    Review of existing procedures and instructional strategies for GATE 
and Special Education and recommend revisions which address the 
disproportionate over or under representation by African-American 
students.
    Establishment of strategies to strengthen school-to-career 
preparation, workplace learning opportunities, and placement through 
career, job, and college fairs.
    Identification of a recruitment plan to increase the number of 
African-American teachers and counselors employed, and increase the 
number of African-American students enrolled in teacher certification 
programs.
Parent and Community Involvement
    A subcommittee shall be convened to recommend a comprehensive plan 
for parent and community involvement in the education of African-
American students and the strategies required to implement that plan. 
This subcommittee shall include in this plan the establishment of a 
speakers bureau, community sponsored educational programs, and linkages 
with community service agencies and existing effective programs and 
practices.
Support Services
    A subcommittee shall be convened to review existing support 
services and recommend a comprehensive structure for support services, 
and psychological and social services. These recommendations shall 
include linkages with existing effective programs and practices 
provided by the City of Oakland, Alameda County, and Community-Based 
Organizations.
    This review shall also include existing District services such as, 
but not limited to Food Services, and make recommendations, if needed, 
for improvements in those services.
Recommendations for Funding
    The Task Force shall, by March 15, present to the Superintendent a 
list of funding priorities to support the implementation of its 
recommendations. These funding recommendations will be considered as 
part of the annual budget development process.
Evaluation
    The District shall develop a process to annually evaluate 
instructional practices and support services to determine their 
effectiveness in increasing the academic achievement of African-
American students.

                   REMARKS OF SENATOR LARRY E. CRAIG

    Senator Specter. Senator Harkin, who is ranking on the 
committee, cannot be here. He is attending the funeral of 
Senator Paul Tsongas. I had wanted to go there myself. Senator 
Tsongas and I were colleagues for the first 4 years that I was 
here. But with witnesses coming from so far, we decided that I 
should stay and proceed with the hearing.
    We have been joined by distinguished colleague Senator 
Larry Craig. Senator Craig, would you care to make an opening 
statement?

                           prepared statement

    Senator Craig. Mr. Chairman, I do have an opening 
statement. I would ask that it be submitted for the record.
    Senator Specter. It will be made a part of the record in 
full.
    Senator Craig. Why do we not get on with the witnesses? 
They have traveled far, and we are anxious to hear what they 
have to say.
    Senator Specter. Thank you very much, Senator Craig.
    [The statement follows:]

              Prepared Statement of Senator Larry E. Craig

    Thank you Mr. Chairman. I would first like to thank the Chair, 
Senator Specter, and the ranking member, Senator Harkin, for holding 
this hearing and giving the subcommittee the opportunity to investigate 
this important topic.
    While we are here to discuss the effect of language on education, 
the impact of language goes well beyond our nation's schools. And while 
America has always celebrated our ethnic diversity, a common language 
has allowed us to define who we are as a coherent people.
    During the 104th Congress, I cosponsored legislation to make 
English the official language of government. I did so in the hope that 
an unified language would help bring our nation's ethnic groups closer. 
Already plagued by violence and division, the last thing our schools 
need is more separation. On the other hand, by encouraging students to 
work together, in a common language, we foster growth and 
understanding.
    Language can be a tool in the hands of educators in elevating their 
pupils' ideas and knowledge. It is my understanding, and this will be 
clarified by our first panel of witnesses, that the Oakland policy on 
Ebonics aims to teach standard English, despite early press reports to 
the contrary. It is clearly in the students' interest to learn English 
early on and to participate in all that our schools and nation have to 
offer.
    I look forward to hearing more on this issue, not only from our 
witnesses from Oakland, but from all those before the subcommittee 
today. Ideally this hearing will help to clarify the national 
discussion on the use of language in our schools--a topic important to 
all of us.
    Thank you, Mr. Chairman.

                     summary statement of toni cook

    Senator Specter. We will now turn to Ms. Toni Cook. Elected 
to the Oakland, CA, Board of Education in 1990, she serves on 
the mayor's educational cabinet and the city council's 
community policy task force, and has also served as associate 
dean at Howard University School of Architecture and Planning 
and on the faculty of Morgan State University in Baltimore. 
Welcome, Ms. Cook. The floor is yours.
    Ms. Cook. Thank you, Senator Specter.
    Mr. Chairman, I am excited about having this opportunity to 
affirm much of what Superintendent Getridge has already shared 
with you, but I think more importantly to move out of the way 
some of the myths. Because I think what Oakland did has excited 
this country to talk about urban education, and in particular 
the education of the African-American young people.
    First, let me just give you a brief summary of the task 
force, because I think far too many people think it was 30-
some-odd people who sat in a room and had nothing else to do 
but to devise a plan that, ``speaks down to our children.'' The 
task force was comprised of scholars, one of which was from the 
University of California at Berkeley, Dr. Agbu, comprised of 
administrators who must manage our school sites, teachers who 
have the awesome job day-to-day of educating our children, 
parents who entrust their children to us, and community members 
who have a stake in whether or not our children are well 
educated. And, of course, myself as a board members.
    This, in fact, was one of the few opportunities that the 
elected officials, the administrators who must put it into 
place, the researchers who gave us our framework, and community 
who as a guiding part of our school system comes together to 
look at an issue, to depend on research, and to get it through 
our board of education. This task force spent some 6 months 
examining the issue. It was put together at my request to the 
superintendent. It was a simple board request. They looked at 
this issue over time, looked at research. What the task force 
concluded, that the key to achievement of any of our students, 
whether they be African-Americans, Asian-Americans, Latinos, 
Caucasians, it matters not, is how well we master the language 
of commerce, and in this country it is the English language.
    Ours is a literacy goal. As the superintendent has 
indicated to you, we allow reference to several names in which 
the black language, ebonics, pan-African language systems, we 
allowed reference to that, but in neither statement, neither 
the original version or the amended version, will you read a 
reference where we called it ebonics. We made reference to what 
the scholars have referred to it. This was the intent of the 
task force, and they came forth with nine recommendations, not 
just one.
    But we believe, as I have said before, that the key to any 
child learning, the key to African-Americans learning, is how 
well we master the language of commerce. And as the 
superintendent has indicated, our guiding force has not been 
whether or not you agree or disagree with ebonics. It is the 
reality of what is happening in the Oakland Unified School 
District. Seventy-one percent of the students enrolled in 
Special Education, of which there are about approximately 5,000 
who are African-Americans. Thirty-seven percent of the students 
enrolled in the gifted and talented program classes are 
African-Americans. Sixty-four percent of the students retained 
are African-Americans. Sixty-seven percent of students 
classified as truant are African-Americans. Seventy-one percent 
of the African-American males attend school on a regular basis. 
Nineteen percent of the 12th grade students who are African-
Americans do not graduate. Eighty percent of all suspended 
students are African-Americans. And yes, it is true, of those 
seniors who graduate, they graduate with an average of 
approximately 1.8.
    If we continue in the way that we are going, there is no 
way in which we can make good to these young people the new 
promise of America. We have an obligation to these youngsters, 
both moral and ethically. I believe the Oakland Unified School 
District, the board to the parents, has indeed made a bold 
statement. And without the statement and the steps that we 
made, unfortunately, Mr. Senator, we would not be here in this 
dialog.

                           prepared statement

    If we have contributed nothing else to the discussion, on 
some 1,000 days plus before we enter the 21st century, you and 
I are sitting here before America talking about the educational 
status of the African-American student, and I hope that we 
leave here with you and I and America coming up with more 
recommendations, more solutions. We owe these young people, as 
we owe all of our young people, the best public education that 
we can offer. And I believe that you and I together can give 
them that promise.
    Thank you.
    Senator Specter. Thank you, Ms. Cook.
    [The statement follows:]

                    Prepared Statement of Toni Cook

    Our goal in coming here today is to focus attention on the facts--
in Oakland, as in other urban school districts, research points to the 
overwhelming need to implement educational policies and instructional 
methods that produce more learning in the classroom, more motivate 
African-American students, and ultimately better schools.
    The public education system, as it currently exists, is failing 
urban minority children at an alarming rate. Rich schools are thriving 
at the expense of poor schools; and, it is urban classrooms that are 
filled with the poor.
    The fallout from under-educating generation, after generation of 
urban children is destined to take its toll America. The promise of 
global competitiveness for these children is fast becoming a gloomy 
one.
    It is our job, as educational policy makers, is to develop 
innovative ways to nurture the critical thinkers and visionaries who 
sit in our classrooms, not to scold and discourage them; or, to break 
their spirit them and contain them.
    Our student's under-achievement is symptomic of a larger problem 
with America's public education system--Nationally, parents, teachers, 
educators, and students themselves want classrooms organized in a 
manner conducive to teaching and learning. To us that is what true 
education reform is about.

                 summary statement of michael lampkins

    Senator Specter. We now turn to Mr. Michael Lampkins, who 
is a 12th grade students in Oakland Technical High, where he is 
associated student body vice president. He is a student 
director on the board of education. For the past 4 years he has 
been a staff member of the Boys and Girls Clubs of Oakland, and 
was recognized as the 1995-96 Pacific Regional Youth of the 
Year.
    Welcome, Mr. Lampkins.
    Senator Craig. Mr. Chairman, I saw a lump in this young 
man's throat just now, and so while you are getting ready to 
make your statement, let me say that I was once a student body 
officer in a high school, and I think I would have been scared 
to death testifying before a congressional panel of this 
nature, so relax, take a deep breath. We are very anxious to 
hear from you.
    Senator Specter. Mr. Lampkins, whatever side of the podium 
you are on, there is a lot of tension being at these hearings. 
Senator Craig and I even have some ourselves. So it is your 
turn.
    Mr. Lampkins. Thank you very much, Mr. Chairman and 
distinguished panel members. As we embark on the 21st century, 
I come to you today with a plea. I want to be part of the new 
promise. I want to be able to have a competitive education and 
advanced degree so that I can compete in the global work force. 
But in order to compete I need a solid education.
    I want to learn. I want teachers and administrators who not 
only want to see me succeed, but who will help me to succeed. I 
want my fellow students to join me on that quest to success, so 
that we can take over the leadership of this country and this 
world.
    Let me give you a little background information about 
myself. I am 17 years old, and I currently work at the Boys and 
Girls Clubs of Oakland. I interact with youth on a day-to-day 
basis. I have been recognized as the Pacific Region Youth of 
the Year for Boys and Girls Clubs of America due to my 
participation in community activities, as well as my 
participation within the school, home, and within the world. 
And, in fact, I have held an audience with President Clinton. 
But when I walk out the door, 9 times out of 10 I am perceived 
quite differently. If the teachers do not understand me, and in 
turn I do not understand the teachers, learning does not take 
place. There must be common ground. There must be 
communication. There must be some type of understanding.
    The Oakland public schools want to create this 
understanding. Just as a doctor must be trained to diagnose 
symptoms of disease, a teacher must be trained to recognize 
language patterns. And although those patterns may be different 
than standard English, they are not deficiency. And with proper 
tooling and proper education, a bridge will built so that the 
youth do meet the standard English skills, so that they can 
speak, write, and read proficiently.
    I firmly believe that through communication and through 
understanding, learning does take place. And as I said before, 
if a teacher does not understand the student and the student 
does not understand the teacher, then learning does not take 
place. We have spent countless amount of time debating the 
issue of whether or not ebonics is a language. I am not a 
linguist. I am, however, a brother, a student, and someone who 
cares. It is important that not only African-American students, 
but students in general be literate.
    The students must acquire the three L's before they can 
acquire the three R's, the three L's being learning, literacy, 
and language. Once they have the three L's, the three R's are 
then possible. Without the three L's, the three R's seem 
foreign. There has to be common ground. There have to be tools 
in place to help students achieve standard American English.

                           prepared statement

    This board has recognized that the students do come into 
the classrooms with an established language pattern. As a child 
growing up in your household, you adopt the language patterns 
that you hear on a day-to-day basis, and that is what you 
provide and that is what you have to offer when you step to the 
classrooms. When the teacher is able to recognize those 
patterns and when the teacher embraces that child, that child 
feels welcome, that child feels nurtured, and that child will 
accept learning.
    Again I plea, I want to be a part of the new promise. I 
want my fellow students to be a part of that new promise.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Michael Lampkins

    I am a 17 year-old high school senior. My grades put me at the top 
of my Class. I work part-time and volunteer my time to help kids. I 
care for my elderly Grandmother. I was elected ``Youth of the Year'' by 
the Boys and Girls Clubs of America. And, I have held audience with 
President Clinton. But when I walk out that door, nine times out of 
ten, I'm perceived quite differently.
    I need a solid education. I want to learn. I want teachers and 
administrators who want me to succeed in my future. I want African-
American student counterparts in my classrooms who want to learn. 
Therefore, I need instructors with the classroom strategies that are 
right to meet my unique needs growing up in a contemporary urban 
community.
    Just as a doctor must be trained to diagnose the symptoms of 
disease--teachers must be trained to recognize the language patterns 
students bring into the classroom. And, while those language patterns 
are different than standard English, they are not deficient, and with 
the proper instructional methods a bridge is built to transition 
students to learn to speak, read and write standard English 
proficiently.
    As America embarks on the 21st Century, I come before you with a 
plea: I want to be a part of the ``new promise.'' I want to be prepared 
with a competitive education, and advanced degrees, so that I may take 
my rightful place as a leader in tomorrow's global workforce.

                     competitor in the 21st century

    Senator Specter. Well, thank you very much, Mr. Lampkins. 
That is a very impressive statement for anyone, especially 
someone in the 12th grade. And as a product of the system, you 
speak very well and make a very, very good showing.
    We are going to proceed now with 5-minute rounds for the 
members, and let me begin with your comments, Mr. Lampkins, and 
I certainly endorse what you say about being a competitor in 
the 21st century, both at home and abroad. You said that when 
you walk out the door you are perceived differently. What did 
you mean by that? Would you amplify that as to how you feel 
that you are perceived differently?
    Mr. Lampkins. When I make the statement that I am perceived 
differently, it is that just as Superintendent Getridge and 
board member Cook have stated, 53 percent of African-American 
students make up the Oakland Unified School District, and of 
that 50 percent the average is a 1.8 GPA. I look at myself to 
be an exception, but I do represent those students. Those 
students are my counterparts. They are, I would say, my 
constituents, as it is part of my duty as a student board 
member, I have to work with the students so that they 
understand the board.
    Senator Specter. When the students come to school, have you 
found that they have a need for a different kind of linguistic 
or language instruction?
    Mr. Lampkins. I think I made the statement before, and I 
will say it again. When a student does not understand the 
teacher and the teacher does not understand the student, 
learning does not take place.
    Senator Specter. Well, when the students come to you, have 
you found that from your own experience, that the students do 
not understand the teacher and the teacher does not understand 
the students?
    Mr. Lampkins. It is definitely evident. You have teachers 
who have gone into the classrooms not having been able to 
understand the students and have classified those students as 
special education students.
    Senator Specter. Did you have a situation from your own 
personal involvement in education?
    Mr. Lampkins. Like I said, I consider myself to be an 
exception. I have had teachers who embraced me, who nurtured 
me, who understood, and who respected what I brought to the 
classroom. So I have been an exception, but there are not many 
exceptions. These numbers show that there are not many 
exceptions. We need to bring the numbers off those levels that 
they are currently in.
    Senator Specter. Ms. Getridge, turning to the question that 
may not be the real question but it is on a lot of different 
people's minds as to whether ebonics is a different language, 
and more precisely what it is and how it would be defined, on 
the Oakland Board Resolution for January 15 of this year, after 
the controversy arose, the statement was made, ``a program 
featuring African language system principles to move students 
from the language patterns they bring to school to English 
proficiency.'' Now, what do you mean by African language 
systems principles, and how would you really answer the 
question which is on a lot of minds as to whether it is a 
separate language?
    Ms. Getridge. Senator Specter, the issue regarding African 
language systems, ebonics, pan-African communications, 
behaviors, being a language or not, is not the debate of the 
Oakland schools. There are linguists who will testify today who 
will probably give more indepth understanding of that than can 
I.
    The position of the Oakland schools is very clear. We 
recognize that children who come to us, many of the children 
who come to us, have language systems that are not consistent 
with standard English. Teachers must be aware of those systems, 
and they must have tools to move the students from those 
systems to standard English. So we have not taken a position as 
to whether it is a language. We simply acknowledge that these 
systems exist.
    Senator Specter. When the student does not speak the basic 
English, why is there a need to teach some intermediate 
language before you teach the student English?
    Ms. Getridge. No; there is not. But there is a need to know 
that the language pattern has a fundamental basis in a grammar, 
in a structure, in a syntax, and what tools are available to 
move that student to standard English. The language patterns, 
and I am sure that Dr. Labov and Dr. Williams and Dr. Taylor 
will talk about this in their comments, but the language system 
has an African language base that includes English language 
words transposed thereupon, and an understanding of these 
principles will allow teachers to more effectively engage with 
students.
    Just one final point on that: Language is the mechanism for 
engaging in the learning process. If for any reason the teacher 
believes, as Michael indicated earlier, that because that 
language pattern is different, that the student may not have 
the academic capacity to learn the more challenging content, 
that is an assumption that can be made.
    Further, when students have an opportunity to engage in 
learning and they are consistently told that what they say or 
how they express themselves is wrong with no explanation of the 
reason that it is not acceptable or standard English, then 
students begin to shut down and will at some point, either 
intellectually or physically, drop out of the process.
    We went to change that reality for many of the students in 
Oakland by giving teachers the ability to address these issues 
in a more consistent, thoughtful, and respectful way.
    Senator Specter. Thank you very much, Ms. Getridge. I would 
yield now to my colleague, Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much.
    Ms. Cook, I think we all recognize the importance of a 
language for communicating and understanding what is 
communicated, and I sense that this is what this is all about. 
You had mentioned the panel and the work they did. Was it 
solely this work, recognizing that you focused on the problems 
of the school district and the statistics that we have here. 
The 71 percent of students enrolled in special education being 
African-American, the 37 percent of students enrolled in gifted 
and talented classes being African-American, was it the 
language issue, the communicative issue only, or were there 
other issues involved or other recommendations that came from 
that panel that the school board and the school district was 
looking at?
    Ms. Cook. You are absolutely right. The task force made 
nine recommendations, in terms of a total plan. The language 
issue was just one of those recommendations seen as a key. And 
it was about literacy, not just reading or writing. It was a 
literacy function. And, in fact, in some of the materials that 
have been shared with you, the task force recommendations are 
included.
    Senator Craig. I will look at those.
    Ms. Cook. Please. And I believe that we are keeping our 
promise and acting on that.
    And while I have the mike, I am sorry that the other 
Senator left, would you share with him that the Oakland Unified 
School District is the second district in the State of 
California to adopt a mandatory uniform policy. That is just 
one thing that we are doing in our rather holistic approach to 
improving student ability. We wanted our students to 
concentrate more on substance and style. If you will share that 
with him, I am sure he will be pleased.
    Senator Craig. Thank you. I have no further questions.
    Senator Specter. Thank you very much, Senator Craig.
    Before turning to the next panel, Ms. Getridge, I would 
like to ask you just one more question about a bit of your 
testimony where you said that none of the Federal funds were 
used on this program. Do you segregate the funds? You do 
receive title I funds and other Federal funds in a variety of 
ways, do you not?
    Ms. Getridge. My comment was that we have not requested 
State or Federal funds for this purpose. The standard English 
proficiency program does include some use of title I funds on a 
schoolsite basis. Those decisions are made by the School Site 
Councils at the respective schools as a part of their overall 
planning process. The decision as to whether or not these 
resources are appropriate for those students is made at the 
local level.

                     summary statement of jean quan

    Ms. Quan. Senator Specter, may I just say one thing?
    Senator Specter. Ms. Quan, you may.
    Ms. Quan. You can say as president of the board, I am very 
proud to be president of the Oakland Board this year, and for 
the last 4 years I was the president of the Asian Pacific 
Islander School Board Association.
    When you spoke of Federal funds earlier and you raised the 
issue of bilingual funds, it was never the intent of this board 
to use bilingual funds. To be quite honest, as an Asian-
American, I do not think the funds are adequate even for the 
currently defined population. However, many of our kids in 
Oakland, one-third of them, are immigrants, and their home 
language is something other than English. They sit in 
classrooms next to African-American children who also have an 
issue of English proficiency. So I think that is where this 
confusion came out. Parents sit, and they see that one group of 
children's teachers get special training and special help and 
materials, and another group of children who also do not speak 
standard English, do not get special training for their 
teachers and special help.
    Clearly, at many of our schools they have decided for the 
site decision process to use title I funds to develop a 
holistic training system for teachers, and it is not that we 
would not welcome the Federal program, looking at language 
development programs that would merge, ESL, bilingual 
education, SEP. The heart of it, though--and let me just say 
because of the media hype--is that we as an urban board are 
waging a war on a growing gap on poverty and achievement. We 
just use every tool, and one of the most important tools is 
that our children, whether their home language is Cambodian, 
and in Prescott School the other one-third of the students are 
Cambodian students, and, in fact, when they learn English they 
often learn African-American English or dialects in their 
school, and it becomes more complicated. Not only are we 
teaching them English, but we have to teach them the difference 
between what their classmates speak and standard English.
    That is why in California we are really looking at a much 
more comprehensive system of language development training 
which--frankly, I am sorry Mr. Faircloth is not here. It has a 
lot of grammar, lots of phonetics, perhaps the only difference 
in what you and I may have had when we were in elementary 
school is it uses some wonderful African-American and Asian-
American and Hispanic literature that may not have been in the 
system when we were growing up.
    But it is important. I think the heart of our resolution is 
that we respect the home language of our children and we take 
them from that home language to standard English, and I will 
just point out yesterday's headlines of the business section 
talks about the wage gap. It talked about African-Americans who 
cannot get jobs because they do not speak standard English. We 
as school board members have to do everything to give our kids 
an equal chance.
    We did not think this was controversial. We were not trying 
to be politically correct. We were just trying to do what sort 
of made sense to us that seems to be working with the kids and 
is showing improved test scores.
    Senator Specter. Thank you very much, Ms. Quan, for those 
comments.
    One final question, Ms. Getridge. If action were taken by 
Congress in line with the House resolution that has been 
introduced by Representative Peter King which would prohibit 
the use of Federal funds to support projects in schools based 
on ebonics, would that affect your program?
    Ms. Getridge. As currently constructed, it would. But I 
also believe that it would conflict with the basic principle of 
the title I funding, which is allowing local school sites the 
discretion to use their resources in ways that they believe 
benefit their students.
    Senator Specter. All right. Thank you very much.

                  summary statement of nabeehah shakir

    Ms. Shakir, you have been at the panel. Do you care to add 
a word or two?
    Ms. Shakir. Yes, thank you, Mr. Chairman. I would just like 
to speak for the teachers in Oakland who have volunteered to 
develop, design, and implement this program for the last 4 
years. We have 125 teachers coming from 26 school sites who are 
very excited about this methodology. We have teachers from 
every ethnic background. They use the principles, and these 
teachers, many of them, are veteran teachers that have been 
teaching in the district successfully for over 20, 25, 30, 35 
years, and they are very happy at the end of their career to 
learn about this new strategy that we are giving them. And with 
this implementation, they are seeing greater successes in their 
classrooms, and just a joy to learn something new as a teacher.
    So we thank you again for allowing us to be here today and 
to hear the voice of the teachers in Oakland, and I am sure 
around the State of California, from the standard English 
proficiency program.
    Senator Specter. Well, thank you very much, Ms. Shakir and 
Ms. Quan, Ms. Getridge, Ms. Cook, and Mr. Lampkins. Thank you.

STATEMENTS OF:
        AMOS C. BROWN, DOCTOR OF MINISTRY, CHAIRMAN, CIVIL RIGHTS 
            COMMISSION OF THE NATIONAL BAPTIST CONVENTION, USA, INC., 
            AND MEMBER, BOARD OF SUPERVISORS, SAN FRANCISCO
        ARMSTRONG WILLIAMS, LOS ANGELES TIMES SYNDICATED COLUMNIST AND 
            TV TALK SHOW HOST

                  summary statement of rev. amos brown

    Senator Specter. We will now turn to the second panel, the 
Reverend Amos Brown and Mr. Armstrong Williams, if you would 
come forward, please.
    Rev. Amos Brown is the national chairman of the Commission 
on Civil Rights and Human Services of the National Baptists of 
the United States of America, Inc. Reverend Brown serves on the 
board of supervisors of the city and county of San Francisco, 
and since 1976 has been the pastor of the Black Baptist Church 
in San Francisco.
    Reverend Brown, you are welcomed here, and the floor is 
yours.
    Reverend Brown. Thank you, Mr. Chairman and members of the 
panel.
    Ladies and gentlemen, I come today not in isolation and not 
representing myself. I come representing the mind and spirit of 
the largest religious body of African-Americans in this Nation, 
the National Baptist Convention, USA, Inc., with a constituency 
of 8.2 million members and 36,000 churches. Yesterday, at our 
board meeting in Nashville, TN, we unanimously voted to not 
support the concept of ebonics as it is presently defined and 
constituted.
    I have a prepared statement that I wish to read for your 
hearing.
    Senator Specter. Your full statement, Reverend Brown, will 
be made a part of the record. To the extent you can summarize 
it within the 5-minute time limit, we would appreciate that.
    Reverend Brown. That I will do.
    During the past month, the brouhaha about teaching ebonics 
in Oakland and elsewhere has produced, in my estimation, more 
heat than light. The focus on ebonics, a so-called language, 
oversimplifies a complex problem and acts as a red herring, 
distracting us from the hard questions. The key question is not 
whether African-Americans and other minorities can master 
standard English. The question, and it is pertinent in every 
State, is how can these youngsters excel so they are prepared 
to embrace the vast opportunities America offers.
    The answer does not lie in the reductionism of ebonics. It 
resides in the inadequately taped holism of America. Without a 
holistic approach which draws on multiple sources a significant 
percentage of our population will grow up ignorant and 
unskilled. They will lack the internal discipline for the 21st 
century, a discipline that comes from a positive cultural 
milieu and a vast, vibrant support system. That discipline, 
which becomes self discipline, is nurtured by a multipronged 
environment. We need to recreate that environment.
    A recent article in the Washington Post pointed out the 
painful truth that parents, teachers, churches, and the broader 
community expect too little from African-American youngsters. 
Unfortunately, too few African-American youngsters expect 
enough of themselves. Too few of them, not to mention America 
in general, know about the endless chain of heroes and 
heroines, sung and unsung, who surmounted racist obstacles and 
survived crises because of their inner discipline and the 
strength and expectations of their communities that nurtured 
them.
    Martin Luther King, Jr., once received a C grade in an 
English course at Moorehouse College, but he recovered and 
responded to the pressures of men like Benjamin Elijah Mays, 
the president of Moorehouse, who cajoled, encouraged, and 
pushed his students to excel. Walter Turnbull, founder of the 
Boys Choir of Harlem, scoured the community for young men who 
he would inspire to aspire to unsuspected heights by his 
vision, expectation, and discipline.
    That is equally true of Lawrence Clifton Jones, who in 
1909, in Braxton, MS, founded the Piney Woods School under a 
cedar tree. The first classroom for his students, who came from 
poor rural district backgrounds, and spoke broken English, just 
like the poor whites they lived among, was a log for them to 
sit on. That did not matter to Jones. He had clear expectations 
for the students. Two years ago at a reception at the 
Ambassador's home in Dakar, Senegal, West Africa, I heard 
students from Piney Woods School sing ``Lift Every Voice and 
Sing,'' both in French and English, with impeccable diction and 
with tight harmony. These students had responded to 
expectations that were built into their curriculum.
    This hearing, in conjunction with examples like those I 
have mentioned, will alert the American public that we must 
support President Clinton's thrust for educational programs. In 
particular, we need programs that will enable the church, the 
basic institution of African-Americans, to fulfill its noble 
role as a bastion of hope. Used wisely and responsibly, the 
funds for these programs under which communities and churches 
collaborate, can equip our youngsters to leap into the 
mainstream and make their contribution.
    To do this, our young people must master standard English. 
They must gain mastery by continuous exposure to the masters, 
and that means that their parents, teachers, and communities 
must model for them, point them in the right direction, and 
spell out expectations. At this moment in history, too many of 
these youngsters are not conditioned to excel. Low achievement, 
however, does not reside in their genes. It is in their 
conditioning, in their immediate culture. The need to be 
programmed for excellence.
    Senator Specter. Reverend Brown, could you summarize the 
balance of your statement?
    Reverend Brown. The balance of the statement is that we 
need a holistic program that involves the home setting, turning 
the television off 3 hours a night to study, the church 
communities serving as a bastion and a support system, where 
after school our youngsters are brought into those churches, 
instead of hanging on corners, and really being loved into 
learning by their elders in the community; and we need teachers 
who will get their attitudes right. The issue is not per se 
ebonics.
    In Oakland, unfortunately, you have 85 percent plus of the 
teachers are white. I am not impugning all white teachers, but 
God knows that the reason why many of these youngsters do not 
excel is because they are teachers who have attitudes. They are 
not a part of the community, and, therefore, they do not earn 
the right to discipline and challenge these youngsters to 
excel.

                           prepared statement

    Our appeal is if there is a portion where there needs to be 
some ebonics, hallelujah, let them have it. But let us stop 
this simplistic reductionistic approach that only deals with a 
major problem in an isolated, half baked, half done manner. We 
need a holistic program to deal with the underachievement of 
black students all over this Nation, and it is not just in 
Oakland, it is in San Francisco, it is in Washington, DC, 
Chicago, IL, and New York, too. The question is are we able to 
assume the responsibility of facing the challenge and doing 
something collectively and not in isolation.
    [The statement follows:]

                Prepared Statement of Rev. Amos C. Brown

    During the past month, the brouhaha about teaching ebonics, in 
Oakland and elsewhere, has produced more heat than light. The focus on 
ebonics, a so-called language, oversimplifies a complex problem and 
acts as a red herring, distracting us from the hard questions.
    The key question is not whether African-Americans and other 
minorities can master standard English. The question--and it's 
pertinent in every state--is how can these youngsters excel so they are 
prepared to embrace the vast opportunities America offers. The answer 
does not lie in the reductionism of ebonics; it resides in the 
inadequately tapped wholism of America. Without a wholistic approach, 
which draws on multiple sources, a significant percentage of our 
population will grow up ignorant and unskilled. They will lack the 
internal discipline for the 21st century, a discipline that comes from 
a positive cultural milieu and a vibrant support system.
    That discipline, which becomes self-discipline, is nurtured by a 
multi-pronged environment that has expectations. We need to re-create 
that environment. A recent article in The Washington Post pointed out 
the painful truth that parents, teachers, church, and the broader 
community expect too little from African-American youngsters.
    Unfortunately, too few African-American youngsters expect enough of 
themselves. Too few of them--not to mention Americans in general--know 
about the endless chain of heroes and heroines, sung and unsung, who 
surmounted racist obstacles and survived crises because of their inner 
discipline and the strength and expectations of their communities that 
nurtured it. Martin Luther King, Jr., once received a ``C'' grade in an 
English course at Morehouse College. But he recovered and responded to 
the pressures of men like Benjamin Mays, the president of Morehouse, 
who cajoled, encouraged, and pushed his students to excel.
    Walter Turnbull, founder of the Boys Choir of Harlem, scoured the 
community for young men who he would inspire to aspire to unsuspected 
heights by his vision, expectations, and discipline.
    That's equally true of Lawrence Clifton Jones who in 1909, in 
Braxton, Mississippi, founded the Piney Woods School under a cedar 
tree. The first classroom for his seven students, who came from poor 
rural backgrounds and spoke broken English just like the poor whites 
they lived among, was a log for them to sit on. That didn't matter to 
Jones; he had clear expectations for them. Two years ago at a reception 
in Dakar, Senegal, I heard students from Piney Woods School sing ``Lift 
Every Voice and Sing'' in both French and English. These students had 
responded to expectations that were built into their curriculum.
    This hearing, in conjunction with examples like those I've 
mentioned, will alert the American public that we must support 
President Clinton's thrust for educational programs. In particular, we 
need programs that will enable the church, the basic institution of 
African-Americans, to fulfill its noble role as a bastion of hope. Used 
wisely and responsibly, the funds for these programs, under which 
communities and churches collaborate, can equip our youngsters to leap 
into the mainstream and make their contribution. To do this, our young 
people must master standard English. They must gain mastery by 
continuous exposure to the masters. And that means that their parents, 
teachers, and communities must model for them, point them in the right 
direction, and spell out expectations. At this moment in history, too 
many of these youngsters are not conditioned to excel. Low achievement, 
however, does not reside in their genes; it's in their conditioning, in 
their immediate culture. They need to be programmed for excellence.
    The wholistic approach can turn students around. What worked for 
Professor Henry Higgins in ``My Fair Lady'' can work for the rest of 
us. When we apply this approach, we'll see that African-American 
children can turn the TV off, sit at the feet of masters, learn, live a 
good life, and pass on their wisdom.
    Those who rely only on quick fixes like ebonics are myopic. 
Language is essential, of course. And we treasure much of our African 
heritage. But African-Americans are American! Schemes to return us to 
Africa failed because this is our country. We need to function here as 
Americans. Education programs that galvanize the whole community and 
strengthen our commitment to future generations will help us succeed, 
despite racism. High expectations from all segments of the community 
will rekindle that ``in spite of'' attitude that led to so many stellar 
achievement.

                           ebonics in oakland

    Senator Specter. Well, that is a powerful statement, 
Reverend Brown. Thank you very much.
    You said in your last statement that if they need some 
ebonics in Oakland you would be prepared to let them have some 
ebonics in Oakland, did I understand you correctly?
    Reverend Brown. I am saying that there are always 
alternative measures, but I am concerned that we have focused 
the issue basically on language. There are other groups that do 
not master standard English, but because of the support systems 
and resources that are available in the home and the community, 
they do master science, they do master biology. The basic 
question is are we going to provide the support system for a 
holistic program. And I think this is what the Department of 
Education ought to be looking at, and not just concentrating on 
an issue of giving dignity and respect to a way that we talk 
about privately.
    I do not need a teacher in the schoolhouse to validate me. 
We spoke that broken language at home. Martin Luther King spoke 
it at home and at Moorehouse. But whenever he went to Harvard 
or to Yale or to Princeton, you had better believe it, he 
talked so much that he could talk the horns off a billy goat 
with eloquence. He was able to communicate about Socrates, 
about Plato, Euripides, and all of these, because he had a 
bicultural educational program. And in the words of W.E.B. 
DeBoise, he was trained to see reality through two eyes, 
through our twoness, and I think that is what we have got to 
enable our young people to do to function in this country, have 
the currency and the facility to function, and we need to do 
that in a holistic way.
    Senator Specter. Well, that is a powerful message. I concur 
with you about turning off the television set, Reverend Brown, 
except for the part of C-SPAN to hear you. [Laughter.]

                summary statement of armstrong williams

    We now turn to Mr. Armstrong Williams, who is a syndicated 
columnist with the Los Angeles Times, and host of the TV show 
``The Right Side.'' Mr. Williams is no stranger to Capitol 
Hill, having worked for Senator Strom Thurmond and Congressman 
Carroll Campbell and Floyd Spence. He has a very distinguished 
record, and we welcome you here this morning, Mr. Williams.
    Mr. Williams. What I have to say today will not take long. 
In fact, the issue of education in this country is quite a 
straightforward matter. First of all, I would like to pay my 
respects to all the hard-working, dedicated teachers and school 
board members in Oakland, CA, and all over this country. They 
are doing the best they can with resources they currently have 
available.
    The controversy and the tumult surrounding the Oakland 
school board's proposal to use ebonics as a means of teaching 
standard English, though, deeply troubles me. I think that the 
words and sentiments conveyed in the media have been divisive 
rather than constructive. But even more troubling to me, 
Senator, is what I think is a misguided approach to education 
in this country.
    From a personal perspective I am fully aware that as a 
country of many heritages there are many colloquial idioms 
spoken in this country. Where I come from in South Carolina 
there are dialects such as Gullah, which might be 
incomprehensible to everyone in this chamber. And I know that 
in casual conversation rules of grammar, syntax, and vocabulary 
are bent, broken, and inflected to convey friendship and 
familiarity.
    I would deny no one the right to express themselves in the 
customary manner of their native culture or place of origin. 
But when we talk about teaching standard English to children, 
we are talking about investing them with the standard currency 
of this great Nation of ours. We are instilling in them the 
means to communicate in the marketplace of ideas as well as the 
marketplace of commerce and governance. We are saying to them, 
Senator, come into the fold. Plant your ideas and your strength 
in this land so that we may all be stronger.
    I can remember my nieces and nephews in South Carolina who 
spoke in idiom, or slang if you will, that was not standard 
English. I remember teaching them using a phonics game which 
was fun, enjoyable to them and their parents. Within 2 months 
they were able to speak standard grammatical structure, and 
they were so proud to have learned and be able to take part in 
a whole new world.
    I can also remember walking into my first French class at 
South Carolina State College, and initially being completely 
confused by all the teachers, because what the teacher spoke 
was totally French. She did not speak one word of English. 
Nevertheless, Senator, I learned, and I think it was what was 
best for me at that time.
    And I have also here with me today my editorial assistant 
Amari West, who was born and raised a short distance from here 
in Southeast Washington. I remember him telling me that when he 
attended Ketchum Elementary School in Anacostia his mother 
constantly corrected his broken English, not allowing him or 
his brothers to make a habit out of speaking his neighborhood 
slang. In fact, she took her children, Senator, out of the 
public schools and taught them using phonics tapes. I can 
honestly say that this young man is one of the finest writers 
and thinkers that I have ever met at his young age of 23.
    They did not achieve such levels of efficiency and 
expertise by someone talking down to them. No one ever accepted 
substandard speech and writing from them. They were not coddled 
into thinking that their culture dialects were a hindrance or 
that they were in any different situation. Rather, they were 
encouraged, Senator. They were encouraged, cajoled, loved, and 
above all, shown a higher standard. This is what makes them the 
men they are today.
    What we are seeing with the ebonics issue is really about 
conflict in values in education. Let us be honest here. And on 
a broader level, Senator, conflict in philosophies about social 
understanding and equality. Proponents of ebonics feel that 
teachers should be able to relate to the students by showing 
that they, too, are able to speak the structure cultural 
student idiom. But I do not agree with this approach, and I 
will tell you why.
    A teacher would not teach mathematics by trying to show 
that he or she could make mistakes in addition or subtraction. 
Must one, Senator, have to smoke marijuana to be able to relate 
to teenage drug addiction? Should they smoke marijuana in order 
to teach them a better way? Definitely not. And the same is 
true with language. I feel that teachers should be a model of 
what is just and proper in formal speech. They, in other words, 
should set the standard.
    Schools should not be a feel-good session where whatever 
anyone wants to speak should be used. It should be a place for 
diverse experiences, background, and strength to meet a common 
goal, to learn from each other. And that means having a common 
language. The essence of equality, Senator, should be to create 
and maintain a level playing field.
    Now in closing, I am aware that the issue of standard 
language versus cultural dialect is a value-laden issue. People 
feel devalued if what they do is not accepted as the norm. Yet 
I think everyone can see the value of having a norm. There will 
always be differences in speech, meaning, and pronunciation. 
But that does not mean that America has to become the Tower of 
Babel. We have a standard. Let us stick with it and help others 
to learn it.
    And finally, let me specifically address the issue of black 
English in America. Since the early part of this century there 
has been a debate about the cultural saliency of black English. 
Cultural anthropologists such as Franklin Frazier and Melville 
Herkowitz had heated debates over whether the languages and 
customs of black Americans were vestiges of slavery or whether, 
in fact, they were patterns of speech and culture that 
originated in Africa.
    The debate is still important today with respect to the 
ebonics controversy. Supporters say that speakers of ebonics 
are expressing something innately African. Thus, they say that 
it should be preserved as a cultural legacy. Detractors say 
that black speech arose from the lack of education.
    Senator Specter. Mr. Williams, could you summarize the 
balance of your statement?
    Mr. Williams. Sure. We are not here today to resolve the 
debate I just mentioned. In fact, the argument today, Senator, 
is quite an academic one. We know that there is a standard of 
English. We know that children would be better equipped if they 
spoke it. And we know that the only way to transmit the 
language effectively is for teachers to be a model for their 
students. So respectfully, then I must conclude that ebonics is 
bad policy for an already bad situation.
    Senator Specter. Thank you very much, Mr. Williams.
    When you talk about the conflict of education and the 
cultural dialect, I would ask you--you were here, of course, 
when Ms. Carolyn Getridge testified. Did you disagree with her 
approach as something that she said as to what is being done in 
the Oakland School District, something that you would disagree 
with?
    Mr. Williams. I am trying to understand the ebonics debate 
every day.
    Senator Specter. I ask you that question, Mr. Williams, 
because I am not sure that we are on different tracks, and I am 
trying to come to grips with the specifics as to what you 
disagree with as to what she said, if there is some area of 
concrete disagreement.
    Mr. Williams. I think she has admitted ebonics is not a 
language, and I think she has also admitted, if I heard her 
correctly, that they have a problem with the kids who speak 
slang, and there needs to be a way for teachers to communicate 
with those kids to speak proper, standard English.
    Senator Specter. Do you disagree with any of that?
    Mr. Williams. I do not disagree with the spirit of it, but 
I would disagree if you would try to say to these students that 
the teacher must come down to where you are, to understand your 
dialect instead of saying the student needs to go where the 
teacher is, because the teacher should always be the model.
    Senator Specter. Well, you heard Mr. Lampkins say, and the 
teachers and the students have to talk the same language and 
understand each other.
    Mr. Williams. No; absolutely not. I took French. I did not 
understand a word of it. I had to learn to speak French. The 
teacher was the model, and because the teacher never changed 
her standards for me I was forced and was able to learn a 
language that I never thought I could.
    Senator Specter. But did the teacher ever say what the 
English translation was of French?
    Mr. Williams. She always spoke French. Always, from the 
beginning of the semester to the end. That is all she spoke was 
French. I had to learn it.
    Senator Specter. Without any indication as to what in the 
French referred to English.
    Mr. Williams. No; she spoke French. She had the book. We 
had little syllabuses we had to follow. Basically I had to 
learn it on my own and through study groups. I was forced to 
learn it. That may seem foreign, but many people can relate to 
that.
    Senator Specter. All right, then you had books and you had 
study groups which gave you the bridge.
    Mr. Williams. That is fine, but we are talking about the 
teacher. The teacher should always be the model. Teachers 
should not try to learn slang, that is my argument, and learn 
bad English.
    Senator Specter. Reverend Brown, do you want to make a 
comment?
    Reverend Brown. Yes; very much so. I am sure, Mr. Specter, 
you heard Gardner Taylor deliver the prayer at the 
Inauguration. Gardner Taylor went to one of the struggling 
academies of the South, Leland College. Dr. Taylor shared with 
me the other day out of his childhood experiences that the 
teachers in his classroom had a standard. They did not speak 
broken English.
    They came to class speaking broken English, but the teacher 
loved them into learning. It is a question of what the teacher 
is to the student, and if the teacher is there with an attitude 
condescending to the student, he will never be able to turn 
that student around.
    I go back to my point that we need to have a program that 
deals with teacher attitudes and with the attitudes of parents 
in the home to be open also. My parents, who did not make it 
through high school, made it only to the eighth grade, they 
spoke broken English also, but they had an expectation of more 
coming from me and my other siblings.
    It is a question, I repeat, as I stated earlier, of what we 
expect and what we see in the students and in Oakland, CA, and 
in San Francisco, whether the teacher is black, blue, green, 
yellow, or polka dot, that teacher must go to that classroom 
with the right attitude, and if a child does speak wrongly, 
correct that child and love.
    Let me give you just one point. In my home church in 
Jackson, MS, I shall never forget one Sunday morning I was 
reading the Scripture, and I was reading the resurrection 
narrative, and I called sepulcher sepulcher. Brother T.S. 
Alexander, who worked with the State Teachers Association, 
pulled me aside and said after the service, young man, the word 
is sepulcher, not sepulcher.
    I never forgot it, but I did not resent it, and I did not 
feel bad, and I think that if these teachers put their arms 
around these children and give them the standard, they will 
learn standard English and not feel threatened and still speak 
their broken language at home.
    Senator Specter. Well, I am not sure that Ms. Getridge was 
talking about speaking broken English. This is a little 
irregular, but we are going to recall you, Ms. Getridge, to ask 
you--and we have to conclude the panel because we have to move 
on to the next one, but do you speak broken English to the 
students?
    Ms. Getridge. Absolutely not, and I want to say to Reverend 
Brown that I, too, am from Louisiana, was baptized in the 
church that Gardner C. Taylor pastored by Rev. T.J. Jemison, 
Mount Zion Baptist Church, so my experience, too, is one where 
standard English may not have been the most prevalent method of 
communication. I, too, had teachers and parents and friends who 
were excellent models of standard English.
    Senator Specter. Do you disagree with the thrust of what 
Reverend Brown and Mr. Williams have said?
    Ms. Getridge. Absolutely not. I think that the thrust of 
the comments are the same, but I do want to point out that the 
language system students bring to school does not include 
slang. It is not about slang or the rap culture of the language 
of many students today. The linguists will certainly give you 
more information about that, but this is not slang. these are 
patterns of language development that students bring to school 
that must be corrected if students are to engage in literacy 
activities. It is the difference between what one hears and 
says in acquiring the language and being able to engage that 
language on a printed page.
    Senator Specter. Thank you very much. I would like to go 
on, gentlemen. We really have to move on to the next panel.
    Mr. Williams. Just 10 seconds, please. You asked the 
question, alternative approaches are desperately needed, and I 
would say absolutely, unequivocally yes, but the approaches to 
heal what ails American schools, Senator, should be rooted in a 
philosophy in which doctors treat the patients rather than 
contract the illness.
    Senator Specter. All right. Thank you very much. We very 
much appreciate your testimony, Reverend Brown, Mr. Williams. 
Sometimes it is good to have the witnesses side by side. 
Occasionally even on the Senate debate we have debate instead 
of just speechmaking, but not very often.

STATEMENTS OF:
        ORLANDO TAYLOR, Ph.D., DEAN, HOWARD UNIVERSITY GRADUATE SCHOOL 
            OF ARTS AND SCIENCES
        WILLIAM LABOV, Ph.D., UNIVERSITY OF PENNSYLVANIA, LINGUISTICS, 
            LABORATORY
        ROBERT L. WILLIAMS, Ph.D., PROFESSOR EMERITUS OF PSYCHOLOGY IN 
            AFRICAN AND AFRICAN-AMERICAN STUDIES, WASHINGTON 
            UNIVERSITY, ST. LOUIS, MO
        MICHAEL CASSERLY, Ph.D., EXECUTIVE DIRECTOR, COUNCIL OF GREAT 
            CITY SCHOOLS

                  summary statement of orlando taylor

    Senator Specter. I would now like to move to the next and 
last panel, Dr. Orlando Taylor, Dr. Robert Williams, Dr. 
William Labov, and Dr. Michael Casserly.
    Our first witness on the panel is Dr. Orlando Taylor, who 
is the dean of the Howard University Graduate School of Arts 
and Science, and a nationally known expert on ebonics.
    Dr. Taylor, welcome, and the floor is yours.
    All statements will be made a part of the record in full, 
and we would appreciate it if we could proceed in the 5-minute 
time limit on the summaries.
    Mr. Taylor. Thank you very much, Mr. Chairman. I would like 
to congratulate you and the members of the subcommittee for 
having the foresight to convene this special hearing today to 
address issues pertaining to language and the underachievement 
of African-American students, at least of many African-American 
students.
    We live in a Nation that is characterized by rich diversity 
in language and communications, where numerous regional and 
social dialects are spoken, and we have had much testimony here 
today to characterize some of those regional and social 
dialects.
    In many ways, the defining attribute of the United States 
is diversity, and like all cultural groups in America--indeed, 
the world--there is great diversity of language used in the 
African-American community, ranging from the King's English to 
what some refer to as ebonics.
    The linguistic system referred to as ebonics, which is 
different from African-American slang--and I think it is very 
important to make that point here now--is spoken by some but by 
no means all African-Americans, and by many African-American 
children.
    It is a stereotype, and it is incorrect, to think that this 
variety of English has nothing in common with standard English, 
or that its speakers do not understand standard English, or 
that its speakers speak it all the time. Many African-Americans 
are competent in several language systems and switch from one 
language system to another according to audience and situation.
    I would like to highlight just three points from my written 
statement this morning, and they are as follows:
    One, the current controversy surrounding ebonics has forced 
us once again to come face-to-face with one of the 
quintessential issues in American contemporary life. And that 
is how do we accommodate, indeed, celebrate cultural and 
linguistic diversity on the one hand, and on the other hand 
teach all of our students a language system, in this case 
standard English, that will facilitate academic achievement and 
career opportunities as well as cohesion and harmony within our 
Nation?
    Two, it is important to remember that the most important 
point to remember about the ebonics debate is not whether it 
exists or whether it is valid, or where it came from and what 
to call it, or is it a language or a dialect; but rather that 
far too many African-American children have not acquired 
sufficient competence in standard English to enhance academic 
success and that traditional teaching methods for teaching 
standard English, which often dismiss or devalue the language 
systems that many African-American children bring to school, 
have been unsuccessful with too many African-American children.
    The fact that we are having this hearing today provides 
clear testimony, in my opinion, to the failure of traditional 
teaching methods for far too many African-American children 
and, while I would not assert that the acquisition of standard 
English is a guarantee for academic success, I would state that 
academic achievement is severely compromised for youngsters who 
do not acquire competence in standard English for speaking, 
writing, and reading purposes.
    We as a Nation should be open to other strategies to 
teaching standard English, strategies which use children's home 
or peer language systems as a bridge, as we have said so often 
today, a point of departure, if you will, to teach the school's 
language.
    These pedagogical techniques are not new. They have been 
used in many California school districts, for example, for 
almost 15 years. Aside from Oakland, there are 16 other school 
districts in California alone, including Los Angeles, where 
more than 20,000 students in that district's 93,000 or so 
African-American students are enrolled in a Standard English 
Proficiency Program that is very similar to the program that 
you have heard described here this morning. Similar programs 
have been reported in such diverse jurisdictions as Atlanta, 
Seattle, Miami, and Dallas.
    I think it is important for everyone here to remember and 
to understand that using ebonics or any other vernacular 
language system as a bridge to teaching standard English should 
never be equated to teaching ebonics or requiring teachers to 
speak it.
    I do believe, in conclusion, there is a Federal role here. 
I think that the Federal Government can provide incentives and 
support to colleges and universities to produce a better corps 
of teachers for the next century, a teacher corps that knows 
more about cultural and linguistic diversity and how to use 
that diversity to enhance, widen, and expand the language and 
communication skills of their students.
    It can also provide support for more research on the rich 
linguistic heritage of our Nation and to determine techniques 
for teaching standard English that are more effective than the 
ones we are using today.

                           prepared statement

    In conclusion, I would simply say I think the challenge 
that we face today in our schools in this country is to make 
certain that we can produce students who can walk and talk with 
kings but not lose the common touch.
    Senator Specter. Thank you very much, Dr. Taylor.
    [The statement follows:]

                Prepared Statement of Orlando L. Taylor

    Mr. Chairman and Distinguished Members of the Subcommittee: Let me 
begin by thanking you for having the foresight to schedule a special 
hearing on language issues and academic underachievement of many of our 
nation's African-American children. I am honored to have been invited 
to present testimony on this very important subject. To my knowledge, 
this hearing is the first that the Congress of the United States has 
ever called specifically to address this issue.
    This special hearing comes in the wake of several weeks of 
controversy and debate in the nation's news media on the subject of 
Ebonics, a learned, social dialect that is at variance with standard 
American English and one that is spoken by many--but certainly by no 
means all--African-Americans. This sometimes emotionally laden 
controversy has been, in my view, divisive and frequently characterized 
by misinformation and misconceptions.
    While the controversy has raged, one central fact remains and that 
is that far too many African-American children have not acquired 
sufficient proficiency in standard English to facilitate academic 
success and career mobility. Many of these children speak as their 
primary language system a rule governed, social dialect of English 
referred to variously as Ebonics, African-American English, Black 
English, Black English Vernacular, African-American Language Systems, 
etc. This variety of English, as other non-standard English dialects, 
has often been stigmatized by the mainstream society. Yet it often has 
currency among peers, family and community as an acceptable means of 
communication, especially in informal situations. Moreover, Ebonics, as 
well as elements of African-American urban slang (a different aspect of 
African-American communication), have been popularized--indeed 
glamorized--in the nation's popular culture through film, television 
and recorded music. It is indeed somewhat paradoxical that Ebonics and 
other aspects of African-American communication are devalued in some 
aspects of American life, but used as a legitimate vehicle for 
generating millions of dollars in other aspects. On the other hand, 
this phenomenon reinforces perhaps the commonly held sociolinguistic 
principle that there is a time and place for all language.
    In any event, I believe that our challenge as a nation is to devise 
positive, sensitive and effective ways to teach African-American and 
other children standard English--the language of education and career 
mobility. In my opinion, such instruction should be delivered in an 
environment that (1) does not denigrate the student, (2) recognizes 
that all groups have a human right to retain culturally based language 
systems to communicate with family, peers and friends, and (3) utilizes 
the language systems that children bring to school as a vehicle for 
teaching them the school's language. After all, ``taking students where 
they are to where they need to go'' is an educational principal that is 
as American as apple pie.
    The current Ebonics debate, while fueled by a resolution passed by 
the Oakland Unified School District, revolves around several long 
standing issues. However, the Oakland proposal to use students' 
language as a vehicle to teach standard English is neither new, nor 
limited to Oakland. Similar programs have been in existence, and often 
funded by local, state, or Federal (Title I) funds, for more than two 
decades. In California alone, similar programs are currently in 
operation in 17 school districts (see appended list). One in Los 
Angeles reportedly enrolls approximately 20,000 of the district's 
93,000 African-American children. Similar programs have been initiate 
in such diverse locations as Atlanta, Georgia, Dallas, Texas, Miami, 
Florida and Seattle, Washington.
    Many academic topics have been--and will continue to be--examined 
and debated by sociolinguistic scholars. These topics include such 
issues as the nature of language systems spoken in the African-American 
community, their origins, what to call them and whether to classify 
them as languages or as dialects. These healthy academic discussions 
should be encouraged and funded by the Federal government through its 
various research programs designed to understand the nature and history 
of the American people.
    However, these academic pursuits should not--indeed must not--cause 
us to blur our sights on the larger goal of how to teach standard 
English to all of our nation's children and yet celebrate their 
diversity and their ability to communicate effectively in a variety of 
settings.
    As our schools seek to achieve this goal, we must be ever mindful 
of certain generally accepted facts about the way English is spoken in 
the United States. Some of these facts are appended to this testimony. 
I would like, however, to highlight just five of the most salient of 
these facts:
    1. Many African-American children come to school communicating in a 
language system that diverges from standard English. This language 
system has been well described as a rule governed system that is deeply 
rooted in a variety of complex social, political, economic, historical 
and educational factors. This language system may be spoken by children 
as well as adults and should not be confused with African America 
slang, although many users of these language systems may also speak 
African-American slang.
    2. African-American children are not the only children that may 
come to school speaking a non-standard regional or social dialect. 
Thus, the current Ebonics issue is not solely an African-American 
issue, but rather one that probably typifies the language situation for 
many other groups of American children. It is reasonable to expect that 
these children are also at risk for low academic achievement.
    3. There is difference between slang and dialect. While many media 
reports and public commentaries on the Oakland School Board's proposals 
have focused on contemporary African-American slang, the Oakland 
program focuses upon the finite set of pronunciation and grammatical 
dialect rules that govern the speech of many--again not all--working 
class African-Americans. Slang is rapidly changing vocabulary and 
idioms used by certain ``in-groups'' within a culture.
    4. Using the language that children bring to the classroom as a 
bridge to teaching new language systems is a widely used technique in 
second language instruction.
    5. Competence in more than one language or dialect makes one more 
effective in communicating with a variety of groups.
    Mr. Chairman and distinguished subcommittee members, the current 
Ebonics controversy has brought us face to face with a quintessential 
American issue. That is, how can we as a nation accommodate, indeed 
celebrate, linguistic diversity, while at the same time teach children 
to speak, write, read and comprehend standard English--the language 
system that will facilitate cohesion among our nation's diverse groups 
and facilitate access to achievement and careers for all students.
    I wish to respectfully suggest that this national question needs 
Federal direction and support. Specifically, I believe that the Federal 
government should:
  --Provide incentives and support to the nation's colleges and 
        universities to produce the next generation of teachers with a 
        better knowledge of cultural and linguistic diversity, and the 
        skills required to effectively teach standard English to 
        increasingly diverse student bodies. Such instruction should be 
        delivered in a positive environment that celebrates diversity 
        and encourages communication that fits the audience and 
        situation. In many ways, this may be one of the greatest 
        imperatives for the United States. As our nation's population 
        becomes increasingly diverse (already upwards of \1/3\ of the 
        population are members of racial and cultural minorities), it 
        is absolutely essential for our schools to teach all students 
        the language skills that are needed for access to further 
        learning in mathematics, engineering, the humanities and the 
        physical, biological, and social sciences. Indeed, I believe 
        that our nation will have a difficult time retaining its status 
        as a world power if it does not accomplish this goal.
  --Provide funds and incentives for local school boards to upgrade the 
        skills of the current teacher force to teach standard English 
        to culturally and linguistically diverse learners.
  --Provide funds to support research and dissemination on ``best 
        practices'' to teach standard English to African-American and 
        other children that do not speak standard English as their 
        primary language system. Many individuals have doggedly 
        insisted upon using traditional methods for teaching standard 
        English to African-American children that devalue the language 
        systems that many of them bring to school. Yet, the facts show 
        that these approaches have simply failed in far too many 
        instances. If they had been more successful, we would have no 
        need for this current hearings.
  --Many individuals, including myself, have argued for an approach to 
        teaching standard English that utilizes the language brought to 
        school by children as a bridge--a base if you will--to teach 
        standard English. This approach is based upon the assumptions 
        that there is a time and place for all language, that the role 
        of schools is to extend, enhance and deepen language skills and 
        that versatility in language usage is an asset.
  --Federal support is needed to assess and document the effectiveness 
        of this and other alternative strategies to teach English. I am 
        confident that African-American children are fully capable of 
        acquiring competence in standard English. However, they must be 
        motivated to do so, believe (along with their teachers) that 
        they can do so, and taught it in a positive environment free of 
        ridicule and denigration.
  --Provide support for our nation's colleges and universities to 
        produce more research on the diverse language and communication 
        systems used by African-Americans and other culturally diverse 
        groups across the spectra of gender, age, education, region, 
        and socioeconomic status. To date, most of the research on 
        African-American communication has focused on the working 
        classes, and the results of that research have been 
        overgeneralized to the entire African-American community.
    It has often been said that progress often evolves out of debate 
and controversy. I believe that the current Ebonics controversy has 
given our nation an opportunity to engage in thoughtful discourse, 
leading to the institution of new policies and practices to address one 
of our most challenging national issues. As I have said, it is clearly 
in the nation's best interest to produce children who can speak, read, 
write and comprehend standard English in order to be competitive in the 
information age, and yet at the same time preserve the rich cultural 
heritages of our people. I believe that we can, and that indeed that we 
must, do both.
    Finally, we must do a better job in educating the public on 
language issues. The current Ebonics flap has been fueled by 
considerable misinformation. Too many stereotypes continue to exist 
about the language and communication of African-Americans and other 
culturally diverse groups of Americans. We need to inform our citizens 
about the true nature--and value--of linguistic diversity among our 
citizens, and that this diversity means, in no way, that we must lower 
our standards in teaching standard English. Indeed, through this 
recognition of diversity, we may come closer to achieving our goal of 
successfully teaching standard English to all of our children, and in 
so doing, provide them with the tools for greater academic achievement. 
Clearly our nation will win in such a situation. And, our children--all 
of them--will most certainly win as well.
             some generally accepted sociolinguistic facts
    1. Variations within English--or any language--are normal, learned 
phenomena that exist as regional and social dialects. These variations 
result from a complex mix of social, political, historical, and 
economical factors. These dialects have been described by a number of 
distinguished scholars and such august professional societies as the 
Linguistics Society of America and the American Speech-Language-Hearing 
Association. The linguistic system referred to by some linguists as 
Ebonics is a vernacular English variety. It may be spoken in a number 
of social situations by some African-Americans, but especially among 
the underclass, the undereducated, and the socially isolated.
    2. Vernacular language systems are often devalued within societies, 
e.g., the Cockney of England, the English of the Appalachian mountains, 
Brooklyn-ese in New York City--and Ebonics!
    3. All language systems are learned, not biologically based.
    4. It is absurd for schools to teach Ebonics or any other 
vernacular language system. It is highly unlikely that any school 
system in the United States has ever made teaching Ebonics or any other 
vernacular dialect as a goal. Using the vernacular language system 
brought to school by children as a bridge to teaching the school's 
language cannot be equated with teaching the vernacular language.
    5. Teachers don't have to speak Ebonics or any other vernacular 
language in order to teach standard English. However, it is desirable 
for them to understand the rules of these systems if they are to use 
them as bridges to teach standard English.
    California school districts with standard English proficiency 
programs that address the language learning needs of African-American 
children: Center Unified School District, Compton Unified School 
District, Del Paso Heights Unified School District, Duarte Unified 
School District, Grant Unified School District, Los Angles Unified 
School District, Lynwood Unified School District, Oakland Unified 
School District, Pomona Unified School District, Ravenswood Unified 
School District, Richmond Unified School District, Sacramento Unified 
School District, San Bernardino Unified School District, San Francisco 
Unified School District, Stockton Unified School District, Vallejo City 
Unified School District, West Fresno Unified School District.
                        some suggested readings
    1. Baugh, J., (1983), Black Street Speech: Its History, Structure 
and Survival. Austin: University of Texas Press.
    2. Dillard, J.L. (1972) Black English: Its History and Usage in the 
United States. New York: Random House.
    3. Fasold, R., (1984), The Sociolinguistics of Society. London: 
Basil Blackwell.
    4. Rickford, John R., (1987), Dimensions of a Creole Continuum. 
Stanford, California: Stanford University Press.
    5. Saville-Troike M. (1982), The Ethnography of Communication. 
Baltimore: University Park Press.
    6. Taylor, Orlando L. (1986) ``Teaching Standard English as a 
Second Dialect.'' In Orlando Taylor, Treatment of Communication 
Disorders in Culturally and Linguistically Diverse Populations. Austin, 
Texas: Pro-Ed Publications.

                   summary statement of William Labov

    Senator Specter. Our next witness is Dr. William Labov, 
professor in the Department of Linguistics at the University of 
Pennsylvania, author of numerous books and articles on 
linguistics, including many publications in the area of 
nonstandard English and its role in education especially for 
African-Americans.
    Welcome, Dr. Labov. The floor is yours.
    Dr. Labov. Thank you, Senator Specter. I am testifying 
today as a representative of an approach to the study of 
language that is called sociolinguistics. It is a scientific 
study based upon the recording and measurement of language as 
it is used in America today, and I am now completing research 
supported by NSF and NEH that is mapping changes in the English 
language throughout North America for both mainstream and 
minority communities.
    Since 1966 I have done a number of studies in the African-
American community, beginning with work in South Harlem for the 
office of education, that was aimed at answering the question, 
are the language differences between black and white children 
responsible for reading failure in the inner cities?
    The term ebonics that is our main focus here has been used 
to suggest that there is a language or features of language 
that is common to all people of African ancestry whether they 
live in Africa, Brazil, or the United States. Linguists who 
have published studies of the African-American community do not 
use this term, but they refer instead to African-American 
vernacular English, a dialect spoken by most residents of the 
inner cities.
    Now, this African-American vernacular English shares most 
of its grammar and vocabulary with other dialects of English, 
but it is distinct in many ways. It is more different from 
standard English than any other dialect spoken in continental 
North America. It is not simply slang, or grammatical mistakes, 
as has been pointed out several times here, but a well-formed 
set of rules of pronunciation and grammar that is capable of 
conveying complex logic and reasoning.
    Research in New York, Philadelphia, Washington, Florida, 
Chicago, Texas, Los Angeles, and San Francisco shows a 
remarkably uniform grammar spoken by African-Americans who live 
and work primarily with other African-Americans. Repeated 
studies by teams of black and white researchers show that about 
60 percent of the African-American residents of the inner city 
speak this dialect in its purest form at home and with intimate 
friends.
    Passive exposure to standard English through the mass media 
or in school has little effect upon the home language of 
children from highly segregated inner city areas. However, 
those African-Americans who have had extensive face-to-face 
dealings with speakers of other dialects show a marked 
modification of their grammar.
    In the first two decades of research, linguists were 
divided in their views of the origin of African-American 
English, whether it was a southern regional dialect descended 
from nonstandard English and Irish dialects, or the descendent 
of a Creole grammar similar to that spoken in the Caribbean.
    By 1980, a consensus seemed to have been reached, as 
expressed in the verdict of Judge Charles Joyner in the King 
trial which you mentioned I testified in myself. This variety 
of language showed the influence of the entire history of the 
African-American people from slavery to modern times, and was 
gradually converging with other dialects.
    However, research in the years that followed found that in 
many of its important features, African-American vernacular 
English is becoming not less but more different from other 
dialects.
    Research on the language of ex-slaves showed that some of 
the most prominent features of the modern dialect were not 
present in the 19th Century. It appears that the present-day 
form of African-American English is not the inheritance of the 
period of slavery, but the creation of the second half of the 
20th century as a result of increasing racial segregation.
    An important aspect of the current situation is the strong 
social reaction against suggestions that the home language of 
African-American children be used in the first steps of 
learning to read and write.
    Now, the Oakland controversy is the fourth major reaction 
that I know of to proposals of this kind. Plans for programs to 
make the transition to standard English have been misunderstood 
as plans to teach the children to speak African-American 
English, or ebonics, and to prevent them from learning standard 
English.
    As a result, only one such program has been thoroughly 
tested in the schools, and even that program, though very 
successful in improving reading, was terminated because of 
objections to the use of any African-American English in the 
classroom.
    At the heart of the controversy I think there are two major 
points of view taken by educators. One is that any recognition 
of a nonstandard language as a legitimate means of expression 
will only confuse children and reinforce their tendency to use 
it instead of standard English, a point of view we just heard. 
The other is that children learn most rapidly in their home 
language, and they can benefit in both motivation and 
achievement by getting a head start in learning to read and 
write in this way.
    Both of these views are honestly held and deserve a fair 
hearing, but until now, only the first has been tried in the 
American public school system extensively. The essence of the 
Oakland School Board resolution as I see it is that the first 
method has not succeeded and the second deserves a trial.
    Research on reading shows that an essential step in 
learning to read is the mastery of the relation of sound to 
spelling. As linguists, we know that for most inner city 
African-American children this relation is different and more 
complicated than for speakers of other dialects.

                           prepared statement

    We have not yet been able to apply this knowledge to large-
scale programs for the teaching of reading, but we hope that 
with the interest aroused by the Oakland School Board 
resolution this will become possible in the near future, and I 
have appended an article I wrote last year, published last 
year, called, Can Reading Failure be Reversed, which attempts 
to describe this dialect in more detail and gives suggestions 
for how that knowledge can be used.
    Senator Specter. Thank you very much, Dr. Labov.
    [The statement follows:]

                  Prepared Statement of William Labov

    I am testifying today as a representative of an approach to the 
study of language that is called ``sociolinguistics,'' a scientific 
study based on the recording and measurement of language used in every 
day life. My general interest is in the language changes that are 
taking place today, and I'm now completing research supported by NSF 
and NEH that is mapping changes in the English language through all of 
North America, for both the mainstream and minority communities. Since 
1966, I have done a number of studies of language in the African-
American community, beginning with work in South Harlem for the Office 
of Education that aimed at the question, ``Are the language differences 
between black and white children responsible for reading failure in the 
inner city schools?''
    The term ``Ebonics'', which is our main focus here, has been used 
to suggest that there is a language, or features of language, that are 
common to all people of African ancestry, whether they live in Africa, 
Brazil or the United States. Linguists who have published studies of 
the African-American community have not used this term, but refer 
instead to African-American English, or Black English, meaning all the 
ways that the English language is used by African-Americans in this 
country. This covers a very wide range, from a standard English almost 
identical with the standard English spoken by others, to the African-
American Vernacular English spoken by most residents of the inner city. 
This African-American Vernacular English is a dialect of English, which 
shares most of the grammar and vocabulary with other dialects of 
English. But it is distinctly different in many ways, and more 
different from standard English than any other dialect spoken in 
continental North America. It is not a set of slang words, or a random 
set of grammatical mistakes, but a well-formed set of rules of grammar 
and pronunciation that is capable of conveying complex logic and 
reasoning.
    As the result of the research of the past 30 years by teams of 
African-American and Euro-American linguists, we now know more about 
this dialect of English than any other non-standard dialect in any 
language. Research in New York, Philadelphia, Washington, Chicago, 
Texas, Los Angeles, San Francisco and other cities shows a remarkably 
uniform grammar throughout the country, spoken by African-Americans who 
live and work primarily with other African-Americans. Repeated studies 
in city after city show that about 60 percent of the African-American 
residents of the inner city speak this dialect at home and with 
intimate friends. Exposure to standard English on the mass media, or 
from teachers in schools, has little effect upon the home language. 
Those African-Americans who have extensive face-to-face dealings with 
speakers of other dialects show a shift of their grammar in the 
direction of these other dialects. African-Americans who are raised in 
a standard English environment, or who acquire standard English in 
later life, share a great deal of knowledge, conscious and unconscious, 
with the inner city African-American community, and often can speak in 
a way that is accepted by inner city residents, but the actual grammar 
they use is quite different.
    In the first two decades of research, linguists were divided in 
their views of the origin of African-American English: whether it was a 
Southern regional dialect descended from nonstandard English and Irish 
dialects, or the descendant of a Creole grammar similar to that spoke 
in the Caribbean. By 1980, a consensus seemed to have been reached, as 
expressed in the verdict of Judge Charles Joyner in the King trial in 
Ann Arbor: this variety of language showed the influence of the entire 
history of the African-American people and was gradually converging 
with other dialects through the process of decreolization.
    However, research in the years that followed uncovered a surprising 
new tendency in the opposite direction. In many of its important 
features, African-American Vernacular English was becoming more 
different from other dialects. Furthermore, research in the language of 
ex-slaves born in the 19th century, and the letters of freed slaves, 
showed that some of the most prominent features of the modern dialect 
were not present then. It appears that the present-day form of African-
American English is not the inheritance of the period of slavery, but 
the creation of the second half of the 20th century. Research in rural 
and urban areas shows that the modern dialect was formed as the result 
of the Great Migration of southern rural blacks to large cities, 
primarily in the North. The increasing difference between the language 
of African-Americans in the inner city and other dialects is correlated 
with increasing residential segregation.
    Although many of the features of African-American Vernacular 
English are new, they may indirectly reflect the African heritage of 
black Americans, since they are in the direction of the type of 
grammatical features that are found in West African languages.
    An important aspect of the current situation is the strong social 
reaction to suggestions that the home language of African-American 
children be used as a basis for learning to read and write. The Oakland 
controversy is the fourth major reaction that I know of to proposals to 
introduce children to reading and writing in a language closer to their 
home language than standard English, and move them gradually to the 
reading and writing of standard English. Many leaders of the African-
American community believe that there is no distinctive African-
American English, and that the dialect described by linguists is simply 
the same ``bad English'' that is spoken by uneducated people anywhere. 
The suggestions for transitional programs have been regularly reported 
to the public as plans to teach the children to speak African-American 
English, or Ebonics, and to prevent them from learning standard 
English. As a result, only one such program has been thoroughly tested 
in the schools, and even that program, though very successful, was 
terminated because of objections to the use of African-American English 
in the classroom.
    At the heart of the controversy, there are two major points of view 
taken by educators. One view is that any recognition of a nonstandard 
language as a legitimate means of expression will only confuse 
children, and reinforce their tendency to use it instead of standard 
English. The other is that children learn most rapidly in their home 
language, and that they can benefit in both motivation and achievement 
by getting a head start in learning to read and write in this way. Both 
of these are honestly held and deserve a fair hearing. But until now, 
only the first has been tried in the American public school system. The 
essence of the Oakland school board resolution is that the second 
deserves a fair trial as well.

                  summary statement of robert williams

    Senator Specter. We will turn now to Dr. Robert Williams, 
professor emeritus of psychology in Africa and African-American 
studies at Washington University in St. Louis, and Dr. Williams 
coined the phrase ``ebonics,'' and is the author of several 
books, including: ``Ebonics: The True Language of Black 
Folks.''
    Welcome, Dr. Williams. We look forward to your testimony.
    Dr. Williams. Thank you, Mr. Chairman. I am indeed honored 
to be invited to this panel this morning.
    On January 26, 1973, almost 24 years ago, I coined the term 
ebonics at a conference that I chaired in St. Louis, MO. A 
group of black scholars and myself argued that we needed to 
define the language spoken by many blacks rather than let 
others define it for us. At that conference, I combined two 
terms, ebony, meaning black, and phonics, meaning the science 
of speech sounds, to form the term ebonics.
    In 1975, I published this book, entitled ``Ebonics: The 
True Language of Black Folks.''
    Now, ebonics has two major dimensions as a language: (1) a 
lexicon, or the vocabulary of the language, and (2) morphology, 
or the study of the structure and the form of the language that 
includes its grammatical rules.
    Ebonics may be defined as the linguistic and paralinguistic 
features which, on a concentric continuum, represent the 
communicative competence of the West African, Caribbean, and 
U.S. slave descendent of African origin. It includes the 
grammar, various idioms, patois, argots, ideolects, and social 
dialects of black people.
    Now, we all certainly agree that standard English is the 
lingua franca, or the common language spoken by the people of 
the United States of America. It is certainly the language of 
the business, commerce, and industrial world. Our goal is to 
develop methods that will enable African-American children to 
master standard English. I think the basic question that 
concerns us is, what are the best methods for achieving this 
goal?
    To answer this question I will discuss a brief personal 
history and three pieces of research that strongly support the 
use of ebonics as a legitimate approach to teaching standard 
English and reading.
    In a Little Rock high school I tested in the lower average 
intelligence range by earning an IQ of 82. I barely missed 
being placed in the special education classes by three IQ 
points. My counselor placed me in a vocational trade curriculum 
because she said I did not have college ability. She told me 
that I did not talk right and that I did not have college 
ability. She told me that my grammar was poor. I spoke ebonics.
    Through a fluke, however, I went to a junior college and 
then on to Philander Smith College, a small historically black 
college in Little Rock, AR. It was there that I learned the 
rules of standard English from an English teacher and a French 
instructor. I graduated with honors in 1953, cum laude--lawdy 
lawdy, and thank you, lawdy. [Laughter.]
    I went on to Wayne State University and received a master's 
in psychology in 1955. In 1961, I earned a doctorate in 
clinical psychology at Washington University, St. Louis, MO. I 
was a full professor for 22 years before retiring in 1992.
    The first study is one that I conducted in 1970 that led me 
in the direction of the ebonics hypothesis. I developed the 
black intelligence test of cultural homogeneity to show that 
African-Americans performed better on a test that contained 
items from their cultural pool rather than from an unfamiliar 
cultural pool. The results supported my argument.
    The second study conducted in 1972 set out to determine the 
effect of language on test scores of African-American children. 
I switched codes or translated the test items from standard 
English into ebonics. This method provided a standard English 
version of the test and a nonstandard version, or ebonics. Nine 
hundred and ninety kindergarten, first grade, and second grade 
children were included in the study.
    The results were striking. The children scored 
significantly higher on the ebonics version than on the 
standard English version.
    The following two examples are given here to show the 
method of code-switching or translation:
    One, standard English: Mark the toy that is behind the 
sofa. Ebonics version: Mark the toy that is in back of the 
couch.
    Two, the standard English version: Point to the squirrel 
that is beginning to climb the tree. The ebonics version: Point 
to the squirrel that is fixing to climb the tree.
    What I discovered in the first example, the words 
``behind'' and ``sofa'' were blocking agents. I translated both 
words to ``in back of'' and ``couch.'' In the second example, I 
translated the word ``beginning'' to ``fixing to.'' These 
changes produced dramatic changes in the children's test 
scores.
    Dr. Gary Simpkins is the author of the third study. Using 
ebonics, his BRIDGE Program places emphasis on language skills 
already in the students' repertoires using material 
representative of their cultural experiences. BRIDGE is a 
reading program in which students proceed from the familiar 
ebonics to the less familiar standard English in a series of 
transitional steps.
    The BRIDGE Program emphasizes the axiom, start where the 
child is. Over a 4-month period the BRIDGE group showed 
significantly higher reading achievement test scores than the 
non-BRIDGE group. The BRIDGE group progressed in reading scores 
by 6.2 months, whereas the non-BRIDGE group increased only 1.2 
months. Teachers who were initially opposed to the BRIDGE 
Program changed from negative to positive after using the 
program.

                           prepared statement

    I close, Senator, with these two thoughts:
    One, you cannot appreciate or value what you do not 
understand, and you cannot understand what you do not know.
    Two, how do you know where I'm at if you ain't been where 
I've been? Understand where I'm coming from.
    Thank you.
    [The statement follows:]

            Prepared Statement of Robert L. Williams, Ph.D.

    On January 26, 1973, almost twenty-four years ago, I coined the 
term Ebonics at a conference that I chaired in St. Louis, Missouri. A 
group of Black scholars and myself argued that we needed to define the 
language spoken by many Blacks rather than let others define it for us. 
At that conference, I combined two terms: (1) Ebony, meaning black and 
(2) PHONICS, meaning the science of speech sounds to form the term 
Ebonics. In 1975, I published a book entitled: Ebonics: The True 
Language of Black Folks.
    Ebonics has two major dimensions as a language: (1) A lexicon or 
the vocabulary of the language, (2) Morphology or the study of the 
structure and form of the language that include its grammatical rules.
    Ebonics may be defined as the linguistic and paralinguistic 
features which on a concentric continuum represent the communicative 
competence of the West African, Caribbean, and United States slave 
descendent of African origin. It includes the grammar, various idioms, 
patois, argots, ideolects, and social dialects of Black people. 
(Williams, 1973, p. VI)
    Now, we all agree that Standard English is the ``lingua franca'', 
or the common language spoken by the people of the United States of 
America. It is certainly the language of the business, commerce and 
industrial world. Our goal is to develop methods that will enable 
African-American children to master Standard English. The question that 
concerns us is: ``What are the best methods of achieving this goal?''
    To answer this question I will discuss a brief personal story and 
three pieces of research that strongly support the use of Ebonics as a 
legitimate approach in teaching Standard English and reading. In a 
Little Rock, Arkansas High School, I tested in the Low Average 
intelligence range by earning an I.Q. of 82. I barely missed being 
placed in the Special Education Classes by three I.Q. points. My 
counselor placed me in a vocational trade curriculum because she said I 
did not have college ability. She told me that I did not talk right and 
that my grammar was poor (I spoke Ebonics). Through a fluke, I went to 
a Junior College and then onto Philander Smith College, a small 
Historically Black College in Little Rock, Arkansas. It was there that 
I learned the rules of Standard English from an English teacher and a 
French instructor. I graduated with honors in 1953--Cum Laude, Lawdy 
Lawdy and Thank you Lawdy.
    I went on to Wayne State University and received a Masters in 
Psychology in 1955. In 1961 I earned a Doctorate in Clinical Psychology 
at Washington University, St. Louis, Missouri. I was a full Professor 
for 22 years before retiring in 1992.
    The first study is one I conducted in 1970 that led me in the 
direction of the Ebonics hypothesis. I developed the Black intelligence 
test of cultural homogeneity to show that African-Americans performed 
better on a test that contained items from their cultural pool than 
from an unfamiliar cultural pool. The results supported my argument.
    The second study, conducted in 1972, set out to determine the 
effect of language on test scores of African-American children. I 
switched codes or translated the test items from Standard English into 
Ebonics. This method provided a Standard English version of the test 
and a non-standard (Ebonics) version of the test. Nine-hundred and 
ninety kindergarten, 1st and 2nd grade African-American children were 
included in the study. The results were striking. The children scored 
significantly higher on the Ebonics version than on the standard 
English version. The following two examples show the method of code 
switching or translation:
    (1) Standard English: Mark the toy that is behind the sofa.
    Ebonics: Mark the toy that is in back of the couch.
    (2) Standard English: Point to the squirrel that is beginning to 
climb the tree.
    Ebonics: Point to the squirrel that is fixing to climb the tree.
    What I discovered was that, in the first example, the words 
``beginning'' and ``sofa'' were blocking agents. I translated both 
words to ``in back of'' and ``couch''. In the second example, I 
translated the term ``beginning'' to ``fixing to''. These changes 
produced dramatic positive changes in the children's test scores.
    Dr. Gary Simpkins is the author of the third study using Ebonics. 
His BRIDGE program places emphasis on language skills already in the 
students' repertoires using material representative of their cultural 
experiences. BRIDGE is a reading program in which students proceed from 
the familiar (Ebonics) to the less familiar (Standard English) in a 
series of transitional steps.
    The BRIDGE program emphasizes the axiom ``Start where the child 
is''. Over a four-month period the BRIDGE group showed significantly 
higher reading achievement test scores than the non-BRIDGE group. The 
BRIDGE group progressed in reading scores by 6.2 months whereas the 
non-BRIDGE group increased only 1.2 months. Teachers who were initially 
opposed to the BRIDGE program changed from negative to positive after 
using the program.
    I close with these two thoughts:
    (1) ``You can't appreciate or value what you don't understand, and 
You cannot understand what you do not know.''
    (2) ``How do you know where I'm at if you ain't been where I've 
been? Understand where I'm coming from''.
    Thank you.

                            bridge language

    Senator Specter. Dr. Williams, before going on, Dr. 
Casserly, do you end up in the same place? That is, if you have 
the BRIDGE language and you use the ebonics at the end of the 
course do the students communicate in standard English?
    Dr. Williams. Yes; they know that there is home talk and 
there is school talk, and they learn standard English. I still 
speak ebonics every day I play golf. We get down.

                 summary statement of michael casserly

    Senator Specter. We will pick up some more questions after 
we turn to Dr. Casserly.
    Dr. Michael Casserly is executive director for the Council 
of the Great City Schools, the national organization that 
exclusively represents large urban public districts. For nearly 
20 years, Dr. Casserly has dedicated his career to improving 
the education of the Nation's 5.8 million inner city 
schoolchildren. Dr. Casserly, welcome, and the floor is yours.
    Dr. Casserly. Thank you, Mr. Chairman. I would like to 
associate myself first of all with the serious academic work 
that the gentlemen on this panel have done, and I congratulate 
them on their statement.
    I am Michael Casserly. I am executive director of the 
Council of the Great City Schools, a coalition of the Nation's 
largest urban school systems, and I am pleased to testify 
before this critical subcommittee this morning.
    I would like to devote my brief comments this morning to 
the achievement of African-American and other children in urban 
schools nationally. I hope this will give additional context to 
the issues being discussed here this morning.
    But before I do, I do want to publicly acknowledge and 
applaud your leadership and advocacy last fall for increasing 
Federal title I appropriations, and the appropriations for the 
Individuals With Disabilities Act and other programs. We will 
do everything in our power to make sure that those additional 
appropriations in elementary and secondary education are spent 
effectively.
    In preparation for this hearing, the Council of the Great 
City Schools conducted a brief survey of its membership asking 
for information on the use of programs such as the one in 
Oakland. We received survey returns from some 25 or so major 
urban school districts across the country. So far about 23 
urban public school systems across the country have indicated 
that they do not use an approach similar to the Oakland 
approach as a formal policy or program districtwide.
    Several urban public school systems, however, do use such 
an approach similar to Oakland. One is San Diego and one is Los 
Angeles, as you have heard. San Diego has a program called the 
Mainstream Academic English Program that provides professional 
development for teachers to help African-American and English-
speaking Latino students achieve mastery in standard English. 
The program is used in 16 of the districts, approximately 150 
schools, and with some 43 of the district's 5,300 teachers.
    Los Angeles has a program called the Language Development 
Program for African-American Students. Its focus is on 
professional development of teachers and staff. The program is 
used in approximately 31 of the districts, some 775 schools. 
Evaluations of all of these programs, including the one in 
Oakland, indicate higher achievement scores in all three cases.
    A number of other urban school districts across California 
use a similar approach, partially in response to the California 
Standard English Proficiency Program, as you heard from Carolyn 
Getridge. Schools in Chicago and Dallas have also used the same 
approach in the past.
    Most urban public school systems across the country do not 
have a formalized policy or program similar to Oakland's 
however. Several districts, however, do offer workshops to 
teachers and staff on how to improve proficiency in standard 
English for African-American students, and we assume that some 
teachers use these approaches on an ad hoc basis in their 
classrooms.
    Each of these programs, whether formal or informal, have a 
number of things in common: (1) they work to improve the 
ability of students to speak standard English; (2) they do not 
attempt to teach students how to speak or improve their 
efficiency in ebonics; (3) they attempt to improve proficiency 
in standard English by respecting the language that students 
bring to school, rather than characterizing it as a deficit; 
and (4) they provide techniques for students and staff in 
helping students move from one dialect to standard English.
    The main challenge that programs such as the one in 
Oakland, Los Angeles, and San Diego try to address involves the 
achievement levels of African-American and other students. The 
goal is to teach children to world class standards in the core 
subjects and to prepare them for the workplace, and for full 
participation in democracy and the economy.
    So far, the Nation's schools have had a fairly mixed track 
record in the achievement of African-American students, 
particularly in the inner cities. We have good news in terms of 
the gaps being closed over a 20- to 25-year period for African-
American students, but if you were to take a snapshot of the 
achievement of African-American students, particularly in urban 
school districts, you will still find them considerably behind 
many other students, and it is programs like the one in Oakland 
and in San Diego and Los Angeles that are attempting to address 
these achievement gaps, and I have attached data from a variety 
of studies throughout the country.
    The Federal Government has an important role, in 
conclusion, Mr. Chairman, to play that is entirely consistent 
with the historic mission in education of improving 
opportunity. Within its current authorizations, Congress could 
insist on targeting more of the Federal Goals 2000 money on 
urban schools. It could pump more money into the title I 
concentration program.
    Finally, Mr. Chairman, I would like to suggest one thing 
that the Congress and the Federal Government resist doing. I 
hope the political leaders everywhere will resist turning 
issues raised by the Oakland schools into political rhetoric. 
There is a disquieting rush to judgment on this issue when that 
issue reached national visibility. The issue has the potential 
to divide us.

                           prepared statement

    This debate should not be about good versus bad, low versus 
high, excellent versus superior. It should be about how it is 
we move our urban school systems and the achievement of 
African-American students in our urban centers to excellence.
    Thank you for this opportunity. I appreciate the time this 
morning.
    [The statement follows:]

                 Prepared Statement of Michael Casserly

    Mr. chairman, my name is Michael Casserly and I am the Executive 
Director of the Council of the Great City Schools. I am pleased to 
testify before this critical Subcommittee on the important issue of 
educating African-American children in urban school systems nationally.
    Currently in its 40th year, the Council of the Great City Schools 
is a national organization composed of some 50 of the nation's largest 
urban public school systems. Our Board of Directors is composed of the 
Superintendent and one Board of Education member from each city, making 
the Council the only education group so constituted and the only one 
whose membership and purposes are solely urban.
    The urban school districts comprising the Council serve some 6.0 
million inner-city children or about 13 percent of the nation's public 
school enrollment. Some 36 percent of the nation's African-American 
children, 30 percent of its Hispanic children, and 21 percent of the 
nation's Asian-American students are educated in our schools each day. 
In addition, these urban school systems educate about 30 percent of the 
country's poor children and 36 percent of its limited English 
proficient students. Over 60 percent of our students are eligible for a 
free or reduced-price federal meal subsidy.
    Mr. Chairman, I would like to devote my brief comments this morning 
to the achievement of African-American and other children in urban 
public schools nationally. I hope this will help give additional 
context to the issues being discussed here this morning and to some of 
the decisions faced by the Oakland Board of Education and other urban 
school systems across the country.
    Before I begin, however, I want to take this opportunity and 
applaud your leadership and advocacy last Fall for increasing the 
federal appropriations for such vital programs as Title I (and 
particularly its Concentration Grant component), the Individuals With 
Disabilities Education Act, and other programs. We will do everything 
in our power to ensure those dollars are spent effectively.
    The immediate issue before this Subcommittee involves Ebonics and 
the context of its use such as in the Oakland Public Schools. The 
Council also assumes that the Subcommittee is interested in the use of 
Ebonics by other school systems, particularly urban schools, and why it 
is being used by some.
    In preparation for this hearing, the Council of the Great City 
Schools conducted a quick survey of its membership asking for 
information on the use of programs such as the one Oakland has been 
using for several years. We are still receiving survey returns, but 
twenty-three (23) major urban school districts, so far, have indicated 
that they did not use a language or curriculum approach like Oakland's. 
They include the public school systems in Broward County (Ft. 
Lauderdale), Buffalo, Cleveland, Dade County (Miami), Dallas, Dayton, 
Denver, Detroit, El Paso, Fresno, Houston, Las Vegas, Louisville, 
Memphis, Milwaukee, New York City, Norfolk, Philadelphia, Pittsburgh, 
Portland, San Antonio, Seattle and St. Louis. Most also had no 
immediate plans to adopt the approach.
    Several urban school districts, however, do use an approach similar 
to Oakland's. They include:
  --San Diego--has a program called the Mainstream Academic English 
        Program which provides professional development for teachers to 
        help African-American and English speaking Latino students 
        achieve mastery in standard English. The main goals of the 
        program are to develop student mastery of standard English, 
        improve teacher understanding of cultural and linguistic 
        variations, and to promote parental involvement. The program is 
        used in 16 of the district's approximately 150 schools with 
        some 43 of the district's 5,300 teachers.
  --Los Angeles--has a program called the language Development Program 
        for African-American Students. Its goal is to remove barriers 
        to students in learning mainstream English and to ensure that 
        students have an equal opportunity to benefit from the 
        curriculum. Its focus is on professional development of 
        teachers and staff. The program is used in 31 of the district's 
        some 775 schools.
    A number of other non-urban school districts in California use a 
similar approach partially in response to California's ``Standard 
English Proficiency Program (S.E.P.)''. Schools in Chicago and Dallas 
have also used the approach on a limited basis. Most urban school 
districts do not have a formalized policy or program similar to 
Oakland's. Several districts, however, do offer workshops to teachers 
and staff on how to improve proficiency in standard English for 
African-American students. And we assume that some teachers use these 
approaches on and ad hoc basis in their classrooms. Each of these 
programs, formal and informal, have a number of things in common:
    1. They attempt to improve the ability of students to speak 
standard English;
    2. They do not attempt to teach students how to speak or improve 
their proficiency in Ebonics;
    3. They attempt to improve proficiency in standard English by 
respecting the language that students bring to school rather than 
characterizing it solely as deficits; and
    4. They provide techniques for teachers and staff in helping 
students move from one dialect or another to standard English.
    The main challenge that program's such as the ones used in Oakland, 
Los Angles and San Diego try to address involves the achievement levels 
of African-American and other students. The goal is to teach children 
to ``world class'' standards in the core subjects, and to prepare them 
for the workplace and for full participation in our democracy and 
economy. So far, the nation's schools have a mixed track record in 
meeting this challenge, particularly for African-American students.
    There is both good news and bad news. On the positive side, the 
nation's schools and society have seen progress on a number of 
important indicators:
  --The Census Bureau reported in 1996 that young Black adults (ages 
        24-29) had pulled abreast of white young adults in their high 
        school completion rates.
  --The National Assessment of Educational Progress (NAEP) shows that 
        African-American children have made the largest percentage 
        gains in reading and math since 1971.
  --The College Board reports that African-American students continue 
        to improve on the Scholastic Aptitude Test (SAT) at a rate of 
        one or two points per year while increasing their participation 
        rates.
  --The Council of the Great City Schools reports that the percentage 
        of African-American students in urban schools successfully 
        completing a first year course in algebra by the end of the 
        10th grade has also increased significantly.
  --The National Research Council indicates that the number of African-
        Americans earning a doctoral degree was at an all-time high in 
        1995 (the latest year for which data are available).
  --The National Science foundation reports that college graduation 
        rates among African-American students have increased in science 
        and engineering.
    On the negative side, other indicators point to how much the 
nation's schools still need to achieve for African-American students:
  --Data from NAEP and recently reanalyzed by the Education Trust 
        indicate that progress in closing the achievement gaps between 
        African-American and white students has nearly stopped since 
        about 1988.
  --The absolute achievement gap between African-American students and 
        white students is significant on NAEP, the SAT and on 
        standardized tests given in individual local school systems.
  --African-American students continue to lag behind several other 
        groups in course taking and advanced placement rates.
    We have attached data compiled by the Council of the Great City 
Schools on 1992-93 indicators of achievement by race in the major 
cities. These data and data from other sources generally point to 
substantial--if not profound--improvements in the achievement of 
African-American students for which the nation, its schools and its 
students can be justifiably proud.
    At the same time, it is clear not only that significant gaps remain 
but that the positive trend lines we have seen since the early 1970's 
have now leveled off if not declined in recent years. It is the concern 
for the remaining gaps and the recent stagnation that drive discussions 
about how school systems, particularly in cities, can keep trend lines 
moving in the right directions.
    Urban school systems across the nation use a variety of approaches 
to improve the achievement of African-American students and to close 
achievement gaps. Some of those approaches include:
  --The development and implementation in urban school systems of new, 
        high standards for all student achievement;
  --Professional development for teachers and staff in multicultural 
        settings;
  --Development of assessment systems that are culturally-fair as well 
        as aligned with high standards;
  --The use of Afro-centric curricula;
  --Mentoring programs; and
  --Parent involvement strategies.
    The federal government has an important role to play that is 
entirely consistent with its historic mission in education of improving 
opportunity. Within its current authorizations, the congress could 
insist on targeting more of the federal Goals 2000 program on urban 
school systems and other very poor communities. Most urban school 
systems receive disproportionately small grants under this program to 
help them improve standards, reform the curricula or develop new 
assessment systems.
    Second, the federal government can continue to improve and expand 
the federal Title I program and its Concentration grant provision. The 
program, historically, has been one of the main engines for improving 
achievement in urban public school systems.
    Third, the federal government might consider authorizing special 
assistance to urban school systems across the country to assist them in 
addressing the problems that reforms in the welfare system are likely 
to cause in the next few years.
    Finally, I would like to suggest one thing that congress and the 
federal government resist doing. I hope that political leaders resist 
turning issues raised by the Oakland schools into sources of political 
rhetoric. There was a disquieting rush to judgement on the merits and 
motives of Ebonics when it reached national visibility. The issue has 
the potential to divide us once more. This debate should not be about 
good versus bad, low versus high, excellent versus inferior. It should 
be about how we move our schools from a place where they are not 
succeeding with African-American and other children to the extent they 
should to a place where the schools equip all students with a common 
language that is the coin of the realm for future success in American 
society.
    Thank you very much for this opportunity to testify. I would be 
happy to try and answer any questions you may have.

                          nonstandard language

    Senator Specter. Well, thank you very much, Dr. Casserly. 
The testimony which this panel has given is obviously very 
erudite, and very complicated.
    Dr. Labov, you, I think, crystallized it when you say the 
two major points of view are, one, any recognition of a 
nonstandard language as a legitimate means of expression will 
only confuse children and create or force the use of it instead 
of English, and the other is that children learn most rapidly 
in their home language. Where do you come out on it?
    Dr. Labov, you have recited your statistics, but I do not 
sense a conclusion in your testimony.
    Dr. Labov. Well, I myself am not an educator, but the 
results of research on effective teaching throughout the world 
come down on the second side. Some of the most effective work 
has been done by the psychologists testing the emersion 
programs in Canada and examining second language learning 
programs throughout the world.
    Wallace Lambert in particular has shown that whether we are 
dealing with the French learning English in Maine, or Latino 
speakers learning English, that reinforcing the home language 
in the first stages and respecting it leads to more rapid 
advance in both languages, so that the consensus of research is 
that the children do learn most rapidly when they are given--
when the teaching proceeds on the basis of what they know when 
they come to school, a point of view that has been expressed a 
number of times here.
    Senator Specter. Well, I can see that they would learn most 
rapidly if you use the language that they have used before 
coming to school, but that raises the question as to whether 
that is the best way to get them to use standard English.
    Dr. Williams, I am impressed by your definition, concentric 
continuum represents the communicative competence, et cetera. 
That would challenge Dr. Henry Higgins for where the rain is, 
as I read it, and I am obviously impressed by your 
achievements, and when you talk about using a second language, 
I can understand how you can handle it on the golf course and 
handle a different form of speech and maybe interchange it in a 
Senate hearing room, but how about the students in school? Are 
they able to handle the use of ebonics interchangeably with the 
use of standard English and still keep up?
    Dr. Williams. One thing that I think we all must understand 
is that African-Americans are very creative and very flexible. 
They are able to code-switch very easily. They can translate if 
they are taught how to do this, what the equivalents are.
    For example, in the studies that we have done, the children 
already have information into their repertoire of experience, 
but if you are asking them questions which do not match up with 
what they have, then they do not really understand what you are 
saying. Code-switching is very easy to do, or translating what 
is being said into another language.
    Senator Specter. Well, I can see that if you are asking 
somebody a question and the use of the word fixing is the one 
they understand, as contrasted with another, that you ask them 
a question in a language that they can understand so they can 
give you an answer that is competent, but how long do you use 
that, their starting language? How fast do you change it over 
into standard English so that they use standard English?
    Dr. Williams. I think as soon as they enter kindergarten, 
or wherever they enter the school, and they are using 
nonstandard English or ebonics, you teach them how to translate 
by simply presenting to them the model language, and the 
children quickly pick that up. You do not teach them ebonics. 
They already have mastered ebonics.
    Senator Specter. Dr. Casserly, I focused on your testimony 
about attempting to improve proficiency by respecting their 
ebonics language rather than by characterizing it solely as 
deficits, but do you share Dr. Williams' sense that the 
students at these tender ages, without Dr. Williams' IQ, can 
move back and forth?
    He said he was tested at 82, only 3 points above the other 
category. I am not going to ask if he was retested after that. 
[Laughter.]
    Dr. Casserly, do you share Dr. Williams' view that these 
students can move back and forth?
    Dr. Casserly. Well, first of all I am not an instructional 
expert like most of the panel is here. I generally think that 
Dr. Williams is probably correct about the necessary code-
switching that goes on, but this is one of those areas where I 
think it is important to leave instructional approaches like 
this to local school and instructional officials who can make 
an adequate judgment about the instructional needs of the 
individual students.
    Senator Specter. Dr. Taylor, by the time the students reach 
your level, as dean of the School of Arts and Sciences, this 
problem is all behind them?
    Dr. Taylor. I think that we find that the issue of 
competence in standard English is seen throughout the entire 
educational system. From time to time you see students 
graduating from high schools in our country who go on to 
college who might have mastered the academic content of subject 
area but who still need support to enhance their language 
skills.
    We have some of the legislation already. Special services 
for students, student special services in Trio Program, title 
IV, and these programs often provide tutorial support for 
students who need further enhancement in the acquisition of 
standard English.
    Just a comment, Mr. Chairman, if I might, with regard to 
really trying to determine which teaching strategies are most 
effective.
    Dr. Casserly pointed out that there were a number of school 
districts that are engaged in rather ad hoc sort of 
arrangements with regard to examining these approaches. We need 
an opportunity and some encouragement and some incentives to 
systematically examine other approaches to teaching standard 
English to all of our students at all levels of the educational 
system. We need more support for researchers and scholars who 
can really come back to us with data which would inform us on 
the strategies that are most effective in doing this.
    Right now, we are operating somewhat in an environment 
where there is speculation and hypothesis-making. We need to 
have more definitive information.
    Dr. Casserly. Mr. Chairman, I would like to agree with that 
wholeheartedly. In the current climate with the current 
polemics it is very hard to do very systematic studies, but it 
is absolutely necessary to do that.
    So far, I think you really cannot answer the question, what 
is the best? We do know that the approach that Oakland is using 
is raising the achievement scores of African-American students 
in that school. What we have not done is a whole lot of serious 
academic comparisons about what the best way is to do that.
    Senator Specter. Dr. Williams.
    Dr. Williams. Yes; I would like to make what I think is one 
significant correction. It has been stated that using ebonics 
as a transitional method is teaching down to students. I do not 
think that it is teaching down to students. It is simply 
matching the teaching method to where the student is so that 
that student can make a connection and move on to another 
level.
    If you do not connect with the student, the student is left 
behind, and the teacher is moving on leaving the student back 
there, so it is not teaching down, it is really plugging in to 
where the student is and making the connection with that 
student in order to lead the student on.
    Senator Specter. Dr. Labov.
    Dr. Labov. To connect with what Dr. Casserly was saying, I 
am a member of a committee of the National Research Council 
putting together a report on the prevention of reading 
difficulties among young children, and my colleagues, who are 
psychologists and experts in reading, have asked me what is the 
scientific evidence for the cultural effect on reading?
    My answer so far has been that we do not have the kind of 
evidence that would be comparable to the massive studies of the 
Head Start and the early intervention programs for the reasons 
that we have seen here. The strong emotional reactions against 
the introduction or even the tolerance of the language of the 
children have terminated the testing of programs and interfered 
with the knowledge we would like to have, so one result I feel 
of this controversy is that people will see the need for us to 
pursue these alternatives and develop that kind of information.
    Senator Specter. Well, thank you very much. I think there 
is a large body of agreement coming out of the hearing today, 
as I hear it. No doubt about everybody's objective, to see to 
it that the students are educated in the best way possible so 
that they can compete in America and compete in the world, and 
the end product we want to have is students who understand 
standard English and who speak standard English.
    The issue is in some stage of difference of opinion as to 
whether it is a bridge that is helpful or whether it is a 
distraction, but I would commend the written statements of this 
panel to those who focus on this issue, because it takes a lot 
more analysis and a lot more reflective thought than you can 
get by just hearing it once, or by having the questions raised.
    I thank you, Dr. Casserly, for your compliment about the 
funding which we have made out of this committee. We consider 
it very, very important. There is a real battle among the 
priorities which we have on the $1,600 billion, and our 
subcommittee has fought hard to make education a very, very 
high priority to see to it that these funds are available, and 
basically we prevailed last year. It was a real battle.

                          prepared statements

    Statements for the record have been submitted by Rev. Jesse 
Jackson, who wanted to be here but his plane had not arrived by 
the end of the hearing, and by the Hon. Ronald Dellums of the 
House of Representatives. Other statements for the record will 
also be inserted at this time.
    [The statements follow:]

 Prepared Statement of Rev. Jesse L. Jackson, President, Rainbow/PUSH 
                               Coalition

    Last month, Oakland schools and ebonics--the name scholars have 
given to the black language pattern of the ghetto streets--suddenly 
became front page news. Oakland school officials were reported as 
planning to teach ebonics--the black slang of the ghetto--in the 
classroom. That has been denounced--as it should--by black leaders and 
educators across the country, including myself. The conservative claque 
will add it to their litany against affirmative action, poverty 
programs, aid to education: ``These people want to use your tax dollars 
to teach black slang as a separate language,'' they will rant.
    An easy cheap shot--but it turns out it is not true. We'd do better 
to learn from Oakland than to spurn it. I oppose any suggestion of 
teaching an ungrammatical language pattern or of elevating it into a 
language, because it implies that African-Americans are incapable of 
learning standard American English. But the Oakland's school officials 
have made it clear that isn't what they intend. Unlike their critics, 
they are less focused on ebonics as a term than on at risk children as 
a reality.
    Over half of Oakland's children are black; most from the poorest, 
most isolated of black inner city neighborhoods. These are children of 
broken homes, raised on hard streets. They grow up so segregated from 
the rest of America that they come to school speaking a distinct 
language pattern that they learn on the streets, on the radio, in the 
music, even from the pulpits.
    These kids are failing. They are channeled to jail as surely as the 
sons and daughters of the affluent are channeled to Yale. Seventy-one 
percent are in special education programs, with learning disabilities 
worsened by malnutrition, inadequate medical care, unsafe housing. Many 
will leave the schools functionally illiterate.
    America's primary response is to lock them up. One half of all 
black babies are born to poverty. Some make it out. But one-third of 
all African-American men between the ages of 20 and 29 are now in 
prison, jail, parole or probation. Of those in jail, 90 percent are 
high school drop outs; 92 percent are functionally illiterate; there is 
a 75 percent recidivist rate. And the pain is being recycled; there are 
700,000 black men in jail with children at home under the age of 8.
    Oakland school officials and teachers are on the front lines. They 
can't pontificate about education from editorial suites or preach 
morals from suburban sanctuaries. They have to find a way to save as 
many of these kids as they can.
    Their goal--clearly stated in their controversial program--is to 
make the children proficient in reading and writing standard American 
English. Study after study shows that the language pattern that the 
kids bring to the school--the language of the streets--makes learning 
standard English more difficult. The Oakland strategy is to teach 
teachers how to detect that language pattern, correct it and redirect 
it. Oakland officials have no intention of teaching slang to kids as a 
separate language. But they would like to get the added resources that 
come for those teaching children with special language deficiencies.
    Once that was clarified, the jive talk around the Oakland programs 
has come mostly from pundits well versed in the King's English. Mary 
Magrory, esteemed columnist of the Washington Post, called for an 
``emergency'' performance of ``My Fair Lady'' in Oakland, so Henry 
Higgins can save the kids. George Will fulminated against teaching 
these kids the self esteem that was no doubt taught to his own 
children. Oakland's strategy may or may not work; but it makes a lot 
more sense than most of the pundits.
    If educators and parents on the scene in a local school system want 
to experiment with this strategy of teaching--with the objective of 
helping students master proper English--surely that is an experiment 
that we can allow, a judgment that we encourage local school systems to 
make. That is, as your conservative colleagues will surely tell you, 
exactly what local control of schools is all about.
    I am for national standards for all children; the conservative 
majority in this Congress opposes them. But even those of us who are 
for national standards support the local control of schools, and 
support the idea that local school boards, parents and teachers should 
be making decisions about how best to teach the children that they are 
responsible for. Conservatives may not approve of the Oakland strategy, 
but surely they support the right of the Oakland schools to experiment 
with that strategy.
    The burlesque of the Oakland school board is not surprising. This 
country remains in a state of denial about poverty in America. Few want 
to admit that segregation is so entrenched that inner city communities 
literally have developed their own patois, as divorced from standard 
English as cockney was from the court in royal Britain. Few want to 
admit what Jonathan Kozol called the ``savage inequality'' of schools 
in this country, with local financing insuring that the kids with the 
most needs go to schools with fewest resources.
    We need to turn the heat on this issue into light. Oakland is not a 
joke and it is not alone. Grammar is important--but not just the 
grammar of language but the grammar of life. These children, in Oakland 
and cities across the nation, have trouble conjugating verbs. But this 
committee must understand that that difficulty relates to their trouble 
in conjugating nutrition, their challenge of conjugating mean streets, 
their burden of conjugating inadequate medical care. They have trouble 
with sentence construction; but the real sentences being constructed 
for them are three or two strikes and out, rather than four balls and 
on. They are sentenced to jail, just as surely as other children are 
channeled to Yale.
    In cities across this country, children are failing, unable to 
overcome odds that are just too great. A recent study showed that where 
schools have adequate funding, classes are small, teachers decently 
paid, and standards high, poor black children do as well or better as 
any. But too many impoverished kids go to impoverished schools.
    Rather than devoting the resources, time and attention needed to 
save the children, the current response is to apply the lock them up 
strategy sooner and longer: prosecute kids as adults, two or three 
strikes and out. Investing on the front side of life--pre-natal care, 
head start, day care, small classes, tutors, modern schools--makes more 
sense. It is the right thing to do, and it costs less than jailcare and 
welfare on the backside.
    If you care about the grammar taught these children, you must care 
about the grammar of their lives, not simply the grammar of their 
language. We need a national crusade to save the children. The 
president who has set out to make his mark in education must decide 
whether he will start with the children who have the greatest needs. 
Conservatives who claim to be for choice must decide if they offer 
children a chance from the start, not simply bad choices after the 
options are foreclosed. A wealthy country can choose to lift these 
children up or continue to cast them out, to invest in creating hope or 
suffer the far higher costs of despair. That is the real choice that 
Oakland poses to the country.
                                 ______
                                 

               Letter From Congressman Ronald V. Dellums

                     Congress of the United States,
                                  House of Representatives,
                                  Washington, DC, January 22, 1997.
Senator Arlen Specter,
Chair, Senate Appropriations Subcommittee on Labor, Health and Human 
        Services, and Education, Washington, DC.
    Dear Senator Specter: I understand that your subcommittee will 
conduct a hearing tomorrow on the issue of Oakland's recently adopted 
program to enhance the language skills of its African-American 
students.
    Obviously much controversy has swirled around the program's 
characterization--much of it uninformed. I understand that your 
subcommittee is attempting to gather information and will hear 
testimony from both the Oakland superintendent of schools and from a 
representative member of its Board of Trustees. I am certain that they 
will be able to share with the subcommittee their views on what they 
believe will be the efficacy of this approach to improving language and 
standard English skills of our students, and will be able to show the 
pedagogical precedents and the linguistic basis of their approach. (A 
recent meeting of the key U.S. professional society of linguists 
supported both the linguistic and pedagogical approach taken by 
Oakland, an approach previously adopted in other districts.)
    As the Congress takes up this issue, it would be my hope that the 
House and Senate will be able to focus in on how we can provide 
desperately needed resources to all school districts. This should be 
one of our highest national priorities--and may even be properly seen 
as one of our highest national security priorities. For, without 
educated and inspired youth, our society will face serious problems in 
the next century.
            Sincerely,
                                         Ronald V. Dellums,
                                                Member of Congress.
                                 ______
                                 

                    Letter From J. Alfred Smith, Sr.

                                 Baptist Ministers' Unions,
                                     Oakland, CA, January 21, 1997.
Senator Arlen Specter,
Chair, Subcommittee on Labor, Health and Human Services, and Education, 
        and Related Agencies, U.S. Senate Appropriations Committee, 
        Washington, DC.
    Dear Senator Specter: We, the members of the Baptist Ministers' 
Union of Oakland and the East Bay, are highly supportive of 
Superintendent Carolyn Getridge and the trustees of Oakland Public 
Schools in having the courage to address the low performance of 
African-American students by using Ebonics. Before Ebonics became an 
issue, no one used the media to address low test scores in English, and 
no political leader attempted to gain political mileage by addressing 
the plight of African-American students.
    America cannot afford to be in denial about the existence of a 
large African-American underclass that is struggling to overcome the 
barriers in communication which prevent them from fully participating 
in the competitive race of main stream society. The Ebonics program is 
a bold attempt to address this issue. Ebonics is successfully used in 
Los Angeles.
    We need your support of the Ebonics program in Oakland. We are 
asking you and the Appropriations Committee to provide Superintendent 
Getridge with the funding that she is requesting for the establishment 
of Ebonics in the Oakland Public Schools.
            Cordially yours,
                                      J. Alfred Smith, Sr.,
                                                         President.
                                 ______
                                 

                       Letter From Deborah Wright

                                     Oakland, CA, January 22, 1997.
Senator Arlen Specter,
Chairman, Appropriations Subcommittee on Labor, Health and Human 
        Services, and Education, and Related Agencies, Washington, DC.
    Dear Senator Specter: I am writing regarding the appearance of the 
Oakland School Board before your committee. I was the Republican 
Congressional Nominee in 1994 and 1996 for the Oakland, California 
area. I strongly oppose Ebonics. It is a racist policy that blames the 
parents and children for the failure of the public schools.
    There is an enormous amount of evidence that Black children can be 
successful, if they are placed in competent and aggressive academic 
programs. When I was a child attending segregated black schools the 
solution to English proficiency was an emphasis on grammar and 
vocabulary. In those days black leaders were fighting against black 
English and the inferiority perceptions and stereotypes that Ebonics 
promotes.
    The Oakland Unified School District commissioned a group called the 
African-American Task Force to develop solutions to the low achievement 
of Black students in the district. Unfortunately there was little 
discussion with the community at large and physical threats were made 
by members of the task force against anyone even school board members 
who opposed Ebonics. Because of this hostile atmosphere, I am certain 
that you have not seen the level of opposition that actually exists in 
Oakland.
    I am opposed to any policy that is created for ``those people''. If 
the policy is not good enough for my child, then it is not good enough 
for any child. I am offended by the excuse that Black children are 
limited English proficient when they come to school. Many Black 
students from two parent college educated homes like my son are not 
graduating from high school because of the dangerous, undisciplined and 
poor academic environment in the schools.
    The issue in Oakland is not money it is management who fails to 
hire competent teachers and fire incompetent teachers. The influence of 
the unions places the teachers first and the students dead last. 
Oakland has done a terrible job with the black students. Ebonics is an 
attempt to blame the parents and students for the failure of the 
schools.
    Some of the policies or practices that contribute to the problem:
  --Parents are not notified when their children are suspended.
  --Parents are not notified when their children skip class.
  --Parents are not notified when their children are sent to the office 
        or disciplined in any way at school.
  --When parents report serious deficiencies with teachers and 
        classrooms they are told that they are wrong.
  --The schools are maintained improperly with no heating, leaky roofs 
        and dirty restrooms.
  --Playgrounds are lacking.
  --The schools are dangerous because they are undisciplined and out of 
        control.
  --The schools do not teach grammar according to Superintendent 
        Carolyn Getridge.
  --The schools do not teach phonics.
  --They do not teach vocabulary.
  --Good teachers are not as effective as they could be, because there 
        are administrators who do not support the competent caring 
        teachers.
  --Over 50 percent of the teachers are deficient in one or more of the 
        following ways and race is not a factor. The most competent and 
        caring teacher that my son had in high school was of Japanese 
        decent.
  --There are non-native English speaking teachers who do not 
        understand the students and cannot relate to the student.
  --There are teachers who cannot gain respect nor control their 
        classes.
  --There are teachers who do not know their subject matter.
  --There are teachers who just don't care. You can find them saying 
        that they are just trying to get through the year.
                               solutions
    1. Implement commonsense solutions that have proven to work in 
other schools. Stop education experiments using Black children as 
guinea pigs. Ebonics is just another educrat experiment that has not 
been proven.
    2. Develop objective measures of teacher accountability and fire 
the incompetent.
  --Public for parents and teachers what should be learned each year.
  --Test students in September to obtain what the student knows.
  --Test again in May to determine what the student has learned.
  --If the majority of the students in a class do not progress at least 
        one academic year, the teacher should be terminated.
  --If the majority of the students in a school do not progress at 
        least one academic year, fire the principal also.
    3. Start teaching grammar, phonics and vocabulary.
    4. Expand the pool of eligible teachers and increase the likelihood 
of finding teachers who can gain the respect and control of classrooms.
  --Continue to require the CBEST test for teachers.
  --Allow professionals to substitute 5 years professional experience 
        and a BA degree.
  --Schools can take advantage of downsizing by hiring scientist, 
        engineers and other experienced professionals who know and can 
        teach a subject matter.
  --Provide students with teachers who can demonstrate practical usage 
        of material being taught and expose students to the world of 
        work with professionals as teachers.
    Ebonics is a more money ploy. Teachers want to be paid extra for 
teaching Black children English. Black Americans everywhere are fed-up 
with the low academic performance. If the educators do not believe that 
they can teach Black children without Ebonics, they should find another 
job and allow competent people who have experience and success to take 
control of Oakland public school system.
    Please help us stop Ebonics. I predict that Ebonics will increase 
the drop out rate in Oakland because the Black students are 
embarrassed. They have become the laughingstock. Racism is racism 
regardless of who proposes it. Ebonics is a racist policy that is 
hurting our children. Ebonics must be stopped. A teenage girl 
approached me after I spoke in opposition to Ebonics at the January 15, 
1997 school board meeting, to thank me for my presenting her view. I 
told her that someone has to stand-up for the children. She replied, 
``Please do.'' The children of Oakland are pleading for your 
assistance.
    Please call me, if I can be of assistance. I will continue to speak 
out against the racist policy of Ebonics. I am working with other 
parents to organize opposition to Ebonics and support for commonsense 
reforms that actually put the children first.
            Sincerely,
                                                    Deborah Wright.
                                 ______
                                 

                      Letter From Alan F. Clayton

                         Los Angeles County Chicano
                                     Employees Association,
                                    Alhambra, CA, February 3, 1997.
Hon. Arlen Specter,
Chairperson, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, U.S. Senate Appropriations 
        Committee, Washington, DC.
    Dear Senator Specter: The Los Angeles County Chicano Employees 
Association is very concerned about the lack of balance in your 
subcommittee hearing on ebonics. The vast majority of your invited 
speakers spoke in favor of ebonics. It was evident that there was not 
adequate representation of organizations and individuals that have 
concerns about the credibility of the ebonics proposal. There was no 
representation from Latino organizations that have expressed opposition 
to ebonics proposals so the committee members were not able to listen 
to their concerns about the impact that this program could have on 
English speaking Latino students who speak nonstandard English.
    In the Los Angeles Unified School District, 25 percent of the 
district's 667,000 students are English-speaking Latinos, some of whom 
speak a dialect of English, while 14 of the district's 667,000 students 
are Afro-American, some of whom speak a dialect of English. These 
students need to move from nonstandard English to English as quickly as 
possible.
    Enclosed is a position paper for publication in the record of your 
hearing that shows our organization's concern with ebonics.
    Thank you for your consideration.
            Sincerely,
                                           Alan F. Clayton,
                          Director of Equal Employment Opportunity.
                                 ______
                                 
    ebonics proposal ignores the true causes of educational failure
    Ebonics has suddenly emerged as a divisive issue this past month. 
Many persons, including blacks, felt then as they do now: That the 
ebonics/black English proposal may perpetuate the myth that blacks are 
unable to learn standard English. Also, I believe that there is no 
substantial and convincing evidence to support the proposal's 
fundamental premise that it will help black children learn standard 
English more easily.
    There are three significant problems with the proposal. First, the 
current Los Angeles Unified School District proposal seeks to equate 
ebonics as a separate language such as French, Japanese, or Spanish. 
The absurdity of this notion becomes clear when we see that the LAUSD 
proposal could require us to recognize such ``dialects'' as 
Appalachian, Brooklynese, Southern English and ``Spanglish'' as 
languages. Each is different from standard English in vocabulary, 
phrases, pronunciation, and syntax. Should we have specially paid 
teachers to ``educate'' the speech of the underachieving surfer who 
proclaims, the words of the Beattie cartoon, ``Hey, dude! When do I get 
this, like totally tubular ebonics credit for being bilingual?''
    It is instructive that in the court system, where the need to 
clearly understand what is being said by lawyers, witnesses, and the 
judge, individuals who speak a language other than English and cannot 
understand English, by law, are provided with a translator so that they 
can fully understand the proceedings. However, there are no ebonics 
translators for Afro-Americans because they speak English even if some 
of them speak in a non-standard fashion. Also Latinos and Asians and 
Anglos who speak English, but in a non-standard form, are not provided 
with translators. It is clear that ebonics is not a language but a 
dialect.
    More importantly, the ebonics proposal is extremely divisive. Our 
schools are failing most poor children--of all colors and backgrounds. 
In Los Angeles City Schools, many native born Latino and Asian children 
speak English ``dialects'' that reflect the mix of English and their 
native languages. For example, in LAUSD, approximately 25 percent of 
the students are Latinos who speak English and 14 percent of the 
students are Afro-Americans who speak English. If all children were to 
be treated equally, then the ebonics proposal would require the schools 
to, legally, follow the same logic and make absurd decisions about the 
``first dialect'' of each such student--a mindless proposition, without 
any educational, fiscal or social merit. The original proposal presumes 
to create a special privileged class primarily within the African-
American community and seeks to potentially spend $34 million for a 
special program almost exclusively for that group alone, excluding 
almost all Asian, Latino, Anglo and other children who also speak 
``dialects''.
    In fact, in a report issued by the LAUSD Board in March 1989 (``The 
Children Can No Longer Wait'') the board set up a different criteria 
and curriculum for the Afro-American children who speak and write non-
standard English in comparison to other ethnic children who speak and 
write non-standard English. The report said that all ethnic groups 
should be taught standard English skills if they were speakers of non-
standard English. However, for Afro-American children only the policy 
statement put forth two additional controversial and educationally 
unsound statements as policy: ``(1) recognize and value African-
American language (Black Language) as a viable language with its own 
system of rules, sounds and meanings, and (2) help students learn to 
switch from African-American language to standard English, when 
appropriate.'' It is clear that these are ideological and political 
statements that are designed to treat Afro-American children who speak 
non-standard English as fundamentally different from Latino, Asian, 
American Indian and White children who speak non-standard English. It 
is a race-based decision and not a need based solution to a complex 
problem. Unfortunately, the current motion on ebonics that has been 
presented to the LAUSD School Board asks for full implementation of 
this policy and its educational practices listed above.
    The Oakland, Los Angeles, and Compton school districts that are 
debating this issue have some of the worst records for student 
achievement for students of all ethnic backgrounds. It is instructive 
that discussions of the ebonics proposal have revealed that one reason 
for its enactment is to create economic opportunities for mainly the 
black educated class to potentially earn extra money and potentially to 
create ``reserved'' job slots that mostly blacks can fill. The original 
proposal calls for potentially $34 million annually to be spent in 
large part to train or hire classroom aides, teachers, counselors, 
coordinators, and administrators as well as the trainers with 
``expertise'' in ebonics/black English.
    Just as importantly, the discussions have revealed the power of 
``political correctness'' in the public arena on this issue. State 
Superintendent of Public Instruction Delaine Eastin noted this when she 
suggested that if the Hoover Institution, or another conservative 
institution, had made the proposal, the negative reaction would have 
been strong. Jesse Jackson, for example, after first denouncing the 
ebonics proposal in harsh terms, has done a total turn around. 
Jackson's reconsideration on this issue is especially sad. As the 
leader of the Rainbow Coalition, he should support programs that help 
all poor children and not ignore native-born poor Latino and Asian and 
Anglo children who also face difficulties succeeding in school. Another 
example of ``political correctness'' came from university linguists who 
proclaimed ebonics/black English as a separate language. Will they next 
endorse surfers who want their own teacher, especially trained in 
surfer-speak (Venice sub-dialect) by specialists in surfer-speak 
language and culture?
    A final example of ``political correctness'' on this issue is the 
role of the Los Angeles Times. The opinion pieces it prints are 
overwhelming in support of ebonics. Also, the Los Angeles Times ignored 
two major press conferences by Latino organizations on this issue. The 
Los Angeles Times is failing to adequately point out that the original 
proposal did not treat equally with district resources the Asian, 
Latino and Anglo children who also speak dialects of English.
    Lastly, the ebonics/black English proposal reveals the bankruptcy 
of some of the large urban school districts in managing instructional 
programs that are supposed to enable children to succeed. Black 
children are just as likely to succeed in school as any other children, 
provided they are given an opportunity to learn in well-maintained 
schools with enough seats, books and materials, as well as trained 
teachers and administrators who will not sabotage the learning process 
by their greater concern for their pocketbooks than about the learning 
needs and progress of their students. Perhaps it is time to look more 
carefully at our school district leaders and ensure that they learn the 
language of accountability.
                                 ______
                                 

 Prepared Statement of Delaine Eastin, California State Superintendent 
                         of Public Instruction

    Mr. Chairman and distinguished members of the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, and Education, my 
name is Delaine Eastin. I am the California State Superintendent of 
Public Instruction. As an elected state constitutional officer, I 
administer the California Department of Education (CDE) and serve as 
the Executive Officer and Secretary of the California State Board of 
Education.
    Our priority in California education is to raise standards for 
every student. This means keeping the focus on making sure every 
student is proficient in standard English. While I share the concerns 
of many parents, educators, and community members about the 
unacceptably low academic achievement levels of African-American 
students of the Oakland Unified School District and other school 
districts in California, I also believe it is a disservice to African-
American students to set lower standards for their achievement. My 
department and I are committed to high academic standards and English 
proficiency for all students. Separate and equal education is 
inherently unequal.
    I want to state unequivocally that I oppose the use of so-called 
Ebonics or African language system as a means to improve student 
achievement. While I value the cultural and linguistic richness that 
students bring into the classroom, educators must be diligent to design 
and implement instructional strategies that enable African-American and 
other students to acquire the highest level in the achievement of 
standard English. The use of Ebonics in the classroom is simply a poor 
instructional strategy in my opinion.
    According to researchers, even before the age of five, many 
children learn an intricate system of language. They are able to 
construct sentences, ask questions, and select appropriate pronouns 
using the structure (syntax, phonology and grammar) of the language 
system to which they are born. Basically, children are not taught 
language in the sense that they are taught arithmetic. They learn 
language by themselves, and as long as it is spoken around them, they 
seem to mirror the language of their environment. Since oral language 
is learned by children whether or not it is taught to them, and because 
they model the language and dialects of their immediate environment, 
all spoken language mirrors the environment in which it is used, 
regardless of a child's race or social status. In other words, unless 
neurologically or physically handicapped, children enter school with a 
language system that reflects their cultural milieu.
    Without question, language is the basis for communication. In our 
society, communication plays an important role in the determination of 
an individual's educational, social and vocational success. Standard 
English is the language of commerce and social mobility both here and 
abroad. To the extent that African-American students deserve every 
opportunity to improve their socioeconomic status, it is imperative 
that they learn standard English if they have not already acquired such 
a skill before entering school. Toward this goal, the CDE Standard 
English Program (SEP) seeks to assist school-level administrators and 
classroom teachers and parents in developing locally-designed standard 
English programs to expand the standard English language skills of 
speakers of nonstandard English.
    In June 1979, the concept of a program to help African-American 
children learn standard English first emerged at the Summit on 
Educational and Social Concerns. Subsequently, the Equal Educational 
Opportunities Commission of the California State Board of Education 
developed a paper on a standard English program and presented it to the 
Board in November 1980. Succinctly, the paper outlined the need for 
special efforts to develop proficiency in standard English for students 
who are speakers of nonstandard English or Black Language. Based on the 
recommendations of the Equal Educational Opportunities Commission, the 
California State Board of Education adopted a policy in February 1981 
directing districts to address the linguistic needs of Black Language 
speakers.
    To provide standard English learning skills proficiency to 
California students who are speakers of Black Language and to provide 
equal educational opportunities for African-American students, the 
California State Board of Education and the California Department of 
Education recognized then, and continue to do so now, that:
  --oral language development is a key strategy that facilitates 
        learning in reading and other academic areas;
  --structured oral language practice in standard English should be 
        provided on an ongoing basis;
  --oral language development should be emphasized during the teaching 
        of reading and writing;
  --special program strategies are required to address the needs of 
        students who speak nonstandard English or Black Language;
  --staff development should be provided for policy makers, 
        administrators, instructional personnel, and other persons who 
        are responsible for the education of students who speak 
        nonstandard English;
    The CDE Standard English Program (SEP) is a language arts expansion 
based on oral language development for speakers of nonstandard English 
or Black Language. This effort to improve proficiency in standard 
English for speakers of Black Language is NOT: (a) A program to teach 
Black Language; (b) A program for teachers to learn to speak Black 
Language; (c) A program to develop curriculum materials on Black 
Language; SEP is an effort to improve the oral, reading, and writing 
standard English proficiency of kindergarten through grade 12 students 
who speak nonstandard English. SEP provides these students a rich 
standard English language acquisition program. SEP uses intensive oral, 
language-based activities focused on the culture of the students and 
community and devotes as much time as needed to improve the proficiency 
in standard English among speakers of Black Language. The amount of 
study time spent on SEP activities is based upon appropriate levels of 
oral and written standard English proficiency of the students.
    Each January, the CDE sponsors a statewide ``Language Symposium.'' 
CDE encourages school districts to attend in order to learn the SEP 
implementation strategies that are supported by the California State 
Board of Education-adopted English-Language Arts Framework. CDE 
provides technical assistance to local school districts throughout the 
year and at a Summer Institute for teachers and other staff working in 
their respective standard English programs. Currently there are 20 
districts, 300 schools, and 6,000 students in California involved with 
the SEP.
    While the CDE supports implementation of the SEP, we also support 
many other strategies for improving achievement levels of all 
underachieving students. The academic achievement problems in Oakland 
are the result of a great many factors common to many low-performing 
urban schools. There is no single solution. There is a need to use the 
entire ``toolbox'' of strategies that have demonstrated to be effective 
in improving the academic achievement of low-performing students. Such 
strategies include preschool focus on early language acquisition, 
smaller class sizes in early elementary grades, and a greater emphasis 
on early literacy. I am working closely with the chief executive 
officers of our state institutions of higher learning to advance a 
legislative proposal to hire college students to tutor public school 
students who need assistance with their academic development outside 
regular school hours. All these and other strategies are welcome 
additions to the toolbox of strategies that can benefit low-performing 
students, including speakers of nonstandard English.
    Our goal in California is to teach the children of this state to 
speak as effectively as the Mayor of Oakland, the Mayor of San 
Francisco and the Superintendents of Schools in Oakland, San Francisco, 
Los Angeles and San Diego. All of these leaders are eloquent African-
American speakers of standard English.
    The California Department of Education and I stand ready to 
cooperate in every way possible with the Oakland Unified School 
District and other school districts in applying effective strategies to 
teach standard English in California schools. To reiterate, separate 
standards for African-American children to learn English are a sellout 
to lesser standards and unequal education. As a society, we have a 
stake in helping all children to meet the same high standards. Bill 
Cosby said it very well, I think, when he wrote in the Wall Street 
Journal, ``Legitimizing the street in the classroom is backward. We 
should be working hard to legitimize the classroom--and English--in the 
street.''
    Thank you.
                                 ______
                                 

Prepared Statement of John R. Rickford, Professor, Stanford University, 
                              Stanford, CA

    Please allow me to submit the following statement to be read into 
the record of the Ebonics panel which will testify before your 
Subcommittee on January 23, 1997.
    Exordium.--I am a Professor of Linguistics at Stanford University, 
where I have been employed as a faculty member since 1980. My 
professional qualifications include an M.A. (1973) and Ph.D. (1979) in 
Linguistics from the University of Pennsylvania. I have been involved 
in the study of Creole languages and American English dialects, 
including African-American Vernacular English [AAVE] or ``Ebonics,'' 
for over twenty-five years, and I have taught several courses on these 
topics at Stanford. I am currently co-authoring a book on African-
American English for Cambridge University Press, and co-editing another 
on the same subject for Routledge. I am a member of the Executive 
Committee of the Linguistic Society of America, and in that capacity, 
wrote the draft of the resolution on Ebonics which was unanimously 
approved, with minor amendments, at the Society's business meeting in 
Chicago on January 3, 1997. I wish to emphasize that I am an 
independent scholar and researcher, committed to the highest standards 
of scientific inquiry, and to the pursuit of scientific truth 
regardless of the direction in which the evidence may lead.
    Role of vernacular language varieties in school success.--Since the 
Oakland School Board passed its original Ebonics resolution on December 
18, 1996, I have stepped up my research on the role of vernacular 
varieties in school success, considering evidence not only from the 
United States, but also from other countries.
    One perhaps unsurprising finding of this research is that, almost 
universally, students who speak non-standard or vernacular varieties of 
a language tend to do relatively poorly in school, especially in 
reading, writing, and related subjects which require competence in the 
standard variety.
    More surprising, however, and of particular relevance to the 
Oakland School Board's proposal, is the evidence of several studies 
that taking the vernaculars of students into account can facilitate 
their mastery of the standard variety, as well as the curriculum-
central skills of reading and writing. I will cite six such studies, 
beginning with two European cases and then turning to U.S. cases 
involving AAVE:
    1. Tore Osterberg, in his 1961 book, Bilingualism and the first 
school language--an educational problem illustrated by results from a 
Swedish dialect area (Vaster-bottens Tryckeri, Umea), describes an 
experiment in which an experimental group of dialect speakers (D) in 
the Pitea district of Sweden was taught to read first in their 
nonstandard dialect, and then transitioned to standard Swedish, while a 
parallel control group (R) was taught entirely in standard Swedish. 
After thirty-five weeks, he found that:
    The dialect method showed itself superior both when it was a 
question of reading quickly and of rapidly assimilating matter which 
comes fairly late in the course. The same applied to reading and 
reading-comprehension. (p. 135) Instruction in dialect has thus 
resulted in a good general reading technique in both dialect and 
standard language. This technique was better, that is, quicker and 
surer, in comparison to R group's. D pupils also understood better what 
they read. (p. 136)
    2. Tove Bull, in a 1990 article entitled ``Teaching school 
beginners to read and write in the vernacular'' (in Tromso linguistics 
in the eighties, Novus Press, Oslo), discusses a Norwegian research 
project conducted between 1980 and 1982 in which ten classes of 
beginning students, including nearly 200 students each about 7 years 
old, were taught to read and write either in their Norwegian 
vernaculars (Dialect group) or in the standard language (Control 
group). After assessing their progress on several measures, Bull 
concluded that:
    With respect to reading and reading abilities the results above 
show that the vernacular children read significantly faster and better 
than the control subjects. It seems as if particularly the less bright 
children were the ones to benefit from this kind of teaching. They made 
superior progress during the year compared with the poor readers in the 
control group. (p.78)
    Bull's proposed explanation for the superior progress of the 
vernacular children (ibid.) is that ``the principle of 
vernacularization of the medium of initial teaching may have made 
illiterate children more able to analyze their own speech, thus 
increasing and improving their metalinguistic consciousness and 
phonological maturity, than the principle of traditional teaching of 
reading and writing achieved.''
    3. Ann McCormick Piestrup, in a 1973 study of 208 African-American 
first grade children in Oakland, California (Black dialect interference 
and accommodation of reading instruction in first grade, Monographs of 
the Language Behavior Research Laboratory, No. 4, University of 
California at Berkeley) showed first of all the typical relationship in 
which children who used more AAVE features also had lower reading 
scores. What was more interesting, however, was the relationship 
between the teacher's teaching style--the way they responded to their 
pupil's language--and the children's success in reading. Piestrup 
distinguished six different teaching styles, but I will report only on 
the two which were correlated with the lowest and the highest reading 
success. The least successful teachers were those in the 
``Interrupting'' group, who ``asked children to repeat words pronounced 
in dialect many times and interpreted dialect pronunciations as reading 
errors'' (p. iv). They had a stultifying effect on their students' 
reading development, reflected not only in lower reading scores, but 
also in the fact that some children ``withdrew from participation in 
reading, speaking softly and as seldom as possible; others engaged in 
ritual insult and other forms of verbal play apart from the teacher'' 
(ibid.). By contrast, teachers in the ``Black Artful'' group ``used 
rhythmic play in instruction and encouraged children to participate by 
listening to their responses. They attended to vocabulary differences 
of Black children and seemed to prevent structural conflict by teaching 
children to listen for standard English sound distinctions.'' Not only 
did children taught by this approach participate enthusiastically in 
reading classes, they also showed the highest reading scores.
    4. Gary Simpkins and Charlesetta Simpkins, in a 1981 article 
entitled ``Cross-cultural approach to curriculum development'' (in 
Black English and the education of Black children and youth, ed. by 
Geneva Smitherman, Center for Black Studies, Wayne State University) 
describe an experiment involving the Bridge readers which they had 
created in 1974 together with Grace Holt. The Bridge readers, which 
were published by Houghton Mifflin in 1977, provided reading materials 
in three varieties: AAVE, a transitional variety, and Standard English 
[SE]. The Bridge materials were field tested over a four-month period 
with 417 students in 21 classes throughout the United States (Chicago, 
Illinois; Macon County, Alabama; Memphis, Tennessee, and Phoenix, 
Arizona). A control group of 123 students in six classes was taught 
using ``regularly scheduled remedial reading'' techniques. At the end 
of the four-month period, students' scores on the Iowa test of Basic 
Skills indicated that students taught by the Bridge method showed an 
average gain of ``6.2 months for four months of instruction, compared 
to only an average gain of 1.6 months for students in their regular 
scheduled classroom reading activities'' (p. 238, emphasis in 
original). It should be noted parenthetically that the gain of only 1.6 
months for four months of instruction which was evidenced by the 
control group is consistent with the evidence we see all over the U.S. 
that African-American inner city children tend to fall further and 
further behind mainstream norms with each year that they remain in 
school.
    5. Hanni Taylor, in a 1989 book entitled Standard English, Black 
English, and Bidialectalism (Peter Lang, New York), reported that she 
tried to improve the Standard English writing of inner city Aurora 
University students from Chicago using two different methods. With an 
experimental group of twenty students, she raised students' 
metalinguistic awareness of the differences between Ebonics and 
Standard English through contrastive analysis, and tailored pattern 
practice drills. With a control group, also including twenty students, 
she did not do this, but simply followed ``traditional English 
department techniques.'' After nearly three months of instruction, the 
experimental group showed a 59 percent reduction in the use of Ebonics 
features in their SE writing, while the control group, using 
traditional methods, showed a slight INCREASE (8.5 percent) in the use 
of AAVE features. One of Taylor's points was that students were often 
unaware of the precise points on which AAVE and SE differed; raising 
their awareness of this difference through contrastive analysis helped 
them to limit AAVE intrusions in their SE usage.
    6. Doug Cumming, writing in the Atlantic Constitution on Januay 9, 
1997 (p. B1), reported on a program that has been going on for the past 
ten years in De Kalb County, Georgia in which fifth and sixth grade 
students in eight schools are taught to switch from their ``home 
speech'' to ``school speech'' at appropriate times and places. The 
program originally emphasized differences between AAVE and SE, but now 
stresses bidialectalism more generally, taking into account the 
international backgrounds of many students. The program, which is 
similar to Taylor's, and to the methods followed in California's 
``Standard English Proficiency'' program (ongoing in fifteen school 
districts since 1981), has produced excellent results. According to 
Cumming, ``The program has won a `center of excellence' designation 
from the National Council for Teachers of English. Last year, students 
who had taken the course had improved verbal test scores at every 
school. At Cary-Reynolds, their scores rose 5.2 percentage points.''
    These experimental results lead me on the one hand to support the 
Oakland School Board's decision to take the vernacular of their 
students into account in teaching them to read and write and to master 
SE, and on the other to urge that your Subcommittee continue Title I 
funding for programs like SEP and the Atlanta program, and even 
consider increasing it. Although some commentators have rightfully 
pointed to the importance of school facilities, teacher training and 
other factors which retard the progress of children in inner city and 
low income schools, the experimental evidence suggests that when these 
significant factors are controlled for, approaches which take the 
vernacular dialects of students into account are more likely to succeed 
on a large scale than those which do not.
    Thank you for the opportunity to contribute to your important 
deliberations. Should you require further information, please do not 
hesitate to contact me, either by e-mail (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4a6bdb7bfb2bba6b094b7a7b8bdfaa7a0b5bab2bba6b0fab1b0a1">[email&#160;protected]</a>) 
or at the address and phone number above.
            Sincerely,
                                       John R. Rickford, Professor.
                                 ______
                                 

                         Letter From John Baugh

                                        Swarthmore College,
                                  Swarthmore, PA, January 22, 1997.
Hon. Arlen Specter,
U.S. Senate,
Washington, DC.
    Dear Senator Specter: I write in three capacities: as a Professor 
of Linguistics and Education, as a former Director of Stanford's 
Teacher Education Program, and as a black person who attended inner-
city public schools in Philadelphia and Los Angeles as a child.
    Much of the present confusion over the term ``Ebonics'' stems from 
the fact that it was coined by Afrocentric scholars who viewed the 
linguistic consequences of the African slave trade internationally. For 
them the term ``Ebonics'' applies comprehensively to descendants of 
former slaves throughout North and South America. The original ``Pan-
African'' (i.e., international) definition of ``Ebonics'' exceeds the 
linguistic consequences of slavery within the United States, which has 
been characterized by linguists in various ways, including Nonstandard 
Negro English, Black English (vernacular), and African-American 
(vernacular) English.
    Professional linguists did not embrace the term ``Ebonics'' for 
domestic usage, in part, because of the international attributions of 
the term. However, several urban educators have come to interpret 
``Ebonics'' in the narrower national context that has recently spawned 
linguistic consternation in the wake of the Oakland School Board 
resolutions of December 18, 1996, and January 15, 1997.
    I know of no professional linguist who would characterize African-
American vernacular English as anything other than a dialect of 
English, albeit one that is not standard. I know of no professional 
linguist who would diminish the unique linguistic heritage of American 
slave descendants in comparison to all other U.S. immigrants.
    Whereas the typical European immigrant came to America without 
knowing English, they did so without being segregated from speakers of 
their native language. By striking contrast, slaves were immediately 
segregated from other speakers of their native language by their 
captors to prevent revolts.
    Whereas the typical European immigrant attended a public or private 
school to become literate, it was once illegal to teach slaves to read 
or write.
    These unique linguistic characteristics are profound, and belie the 
pervasive linguistic ignorance that has been displayed in response to 
Oakland's efforts to teach standard English to many of their African-
American students. Black English is not simply ``bad English,'' nor can 
it be dismissed as mere slang. Linguistic research by many of the 
leading black and white scholars in the field clearly demonstrate 
systematic and rule-governed linguistic patterns that differ 
considerably from the prescriptive standard English norms that are 
essential to full participation in any professional arena.
    Thus, while I take considerable exception to any interpretation of 
``Ebonics'' as a language other than English (i.e., in the U.S. 
context), I commend the efforts of educators who acknowledge the unique 
linguistic consequences of slavery in pedagogy that intends to foster 
mastery of standard American English.
    On a very personal note, many of my former teachers in public 
schools in Philadelphia and Los Angeles were overtly critical, or 
hostile, to the home languages and nonstandard dialects that I and my 
fellow classmates brought with us to school. Theirs was a pedagogy on 
linguistic castigation, shame, and intimidation, which was detrimental 
to our educational welfare.
    At Stanford we have adopted new procedures for teacher training 
that instill a foundation of cultural and linguistic respect for every 
student. Unlike many of the teachers who taught me, the teachers that 
we now educate recognize that no student should be made to feel the 
sense of linguistic shame and embarrassment that was pervasive in my 
youth.
    Thank you for your willingness to consider these remarks. It is 
with considerable humility and the highest regard for your national 
responsibilities concerning the educational welfare of all American 
students that this letter is written.
            Respectfully submitted,
                    John Baugh, Eugene M. Lang Visiting Professor for 
                            Issues of Social Change, Swarthmore 
                            College; Past President of the American 
                            Dialect Society; Professor of Education and 
                            Linguistics, and former Director of Teacher 
                            Education, Stanford University.
                                 ______
                                 

 Prepared Statement of Charlena M. Seymour, President, American Speech-
                      Language-Hearing Association

    I am Charlena M. Seymour, Ph.D., President, American Speech-
Language-Hearing Association (ASHA) and Dean of the Graduate School at 
University of Massachusetts at Amherst. ASHA appreciates this 
opportunity to provide written testimony to the Senate Appropriations 
Subcommittee on Labor, HHS and Education concerning Ebonics. ASHA 
represents more than 87,000 audiologists, speech-language pathologists, 
and speech, language and hearing scientists nationwide. More than 50 
percent of our members provide services in educational settings.
    Audiologists, speech-language pathologists, and speech, language 
and hearing scientists specialize in the identification, assessment and 
treatment of persons with communication disorders. They are specialists 
in the understanding and expression of human communication and its 
normal development, including hearing, articulation, voice, fluency, 
auditory and/or visual processing, language, and memory.
    More than one in ten Americans have some type of speech, language 
or hearing disorder. Speaking and hearing are so essential to our daily 
lives that they have been specifically recognized as two of the nine 
``major life activities'' cited in the Americans, with Disabilities 
Act. Communication skills and language abilities define the very core 
of learning and set the course for academic and lifetime success. 
Because communication influences an individual's ability to obtain, 
retain and apply knowledge, it is critical that individuals receive 
appropriate services from qualified professionals who are cognizant and 
respectful of linguistic and culturally based communication 
differences.
                               background
    ASHA and its members have historically addressed linguistic 
varieties used by their consumers. Prior to the 1970's, many consumers 
using varieties different from society's mainstream linguistic standard 
were misdiagnosed as having a communication disorder and were 
recommended for therapeutic services. Since then, ethnolinguistic and 
sociolinguistic research has spurred a growing appreciation for how 
culture and social experiences affect the development and use of 
language and speech. Members of our association became increasingly 
aware of different linguistic varieties belonging to culturally and 
linguistically diverse communities. The research described legitimate 
and rule-governed patterns and behaviors learned by children, used 
effectively by families and friends, and taught by parents. This 
information gave way to greater understanding of the nature of language 
and led to clinicians' diagnosing communication disorders based on the 
individual's own linguistic background. Similarly, court cases such as 
Larry P. v. Riles and the Ann Arbor Decision, which gave legal 
recognition of social dialects (particularly ``Black English'') in 
educational settings, prompted ASHA to reconsider the role of the 
professions relative to social dialects.
                            asha's position
    In 1982, ASHA's Legislative Council, the governing body of the 
Association, unanimously approved a position paper on social dialects. 
Since then, ASHA has officially recognized that the English language is 
comprised of many linguistic varieties, such as Black English, standard 
English, Appalachian English, New York dialect and Spanish-influenced 
English. The features of these varieties are systematic, highly regular 
and cross all linguistic parameters, e.g. phonology (the sounds of 
language), morphology (the word patterns of language), syntax (the 
sentence patterns of language), semantics (the meanings of language), 
lexicon (the words of language), pragmatics (the use of language), 
suprasegmental features (the prosodic features of speech), and kinesics 
(the body movement and gestures that convey meaning). The existence of 
these varieties is the result of historical and social factors. Due to 
historical factors, the majority of Ebonics speakers are African-
Americans. However, due to social and educational factors, not all 
African-Americans are Ebonics speakers.
    It is the position of ASHA that no dialectal variety of English is 
a disorder or a pathological form of speech or language. Each social 
dialect is adequate as a functional and effective variety of English. 
Each serves a communication function as well as a social solidarity 
function. It maintains the communication network and the social 
construct of the community of speakers who use it. Furthermore, each is 
a symbolic representation of the historical, social and cultural 
background of the speakers. ASHA also recognizes that standard English 
has been adopted by society as the linguistic archetype used by the 
government, the mass media, business, education, science, and the arts.
    The purpose of ASHA's position statement is to provide guidance to 
members of our professions and others working with individuals from 
culturally and linguistically diverse communities on appropriate 
treatment strategies. First, according to this position statement, it 
is indeed possible for dialect speakers to have linguistic disorders 
within the dialect. In order to distinguish between those aspects of 
linguistic variation that represent the diversity of the English 
language from those that represent speech, language and hearing 
disorders, professionals must take essential steps to make accurate 
assessments. This requires competencies that include knowledge of the 
particular dialect as a rule-governed linguistic system, knowledge of 
the phonological and grammatical features of the dialect, and knowledge 
of nondiscriminatory testing procedures. Clinicians are expected only 
to address those features or characteristics that are true errors and 
not attributable to the dialect.
    Second, the position statement holds that dialect speakers can find 
it advantageous to have access to the use of standard English. Also, 
professionals can provide elective services to individuals who do not 
present a disorder. These services are offered without jeopardizing the 
integrity of the individual's first dialect. Service providers must be 
sensitive and competent in at least three areas: linguistic features of 
the dialect, linguistic contrastive analysis procedures, and the 
effects of attitudes toward dialects. Furthermore, the professional 
should have a thorough understanding and appreciation of the community 
and culture of the dialect speaker.
    Third, ASHA members also can serve in a consultative role to assist 
educators in utilizing dialectal features to facilitate the learning of 
reading and writing in standard English.
                                summary
    In summary, the experience and expertise of ASHA members has been 
at the core of ASHA's position on social dialects. It has recognized 
the existence of linguistic varieties used by speakers belonging to 
culturally and linguistically diverse populations. These varieties have 
proven to be systematic, rule-governed and adequately serve pragmatic 
and social functions of specific social contexts. ASHA has identified 
competencies necessary to being sensitive and respectful of linguistic 
varieties and their speakers. These require that professionals are 
knowledgeable of the dialects spoken by their consumers and of 
procedures that are sensitive to their consumers' own communication 
norms. Furthermore, one of the fundamental components of preferred 
practice patterns in the clinical process states ``Procedures are 
conducted in the patient's/client's chosen communication mode and 
linguistic system. These become essential to appropriately identify 
``language disorders'' from ``language differences.''
    ASHA has also recognized that proficiency in the English standard 
is advantageous for success in the mainstream society. Any speaker can 
elect to learn the standard dialect. Similarly, school systems can 
elect to implement procedures or programs that incorporate dialect 
varieties to enhance and facilitate learning. Competencies for 
professionals assisting in these endeavors also include knowledge of 
the dialect, its differences to mainstream English, and effects of 
attitudes toward dialects.
    In keeping with these recommendations, ASHA continues to address 
dialectal matters. The Association offers the opportunities for our 
members to present research on culturally and linguistically diverse 
children's language development. ASHA offers members continued 
education opportunities through workshops and teleseminars on issues 
such as non-discriminatory assessment procedures. Policy and clinical 
papers are developed and disseminated. Also, articles are published in 
journals and books are written on the subject. All these activities are 
necessary to offer the highest quality services in the best interest of 
the individuals who we serve.
    The American Speech-Language-Hearing Association (ASHA) appreciates 
the opportunity to submit these comments to the Senate Appropriations 
Subcommittee on Labor, HHS and Education concerning Ebonics.
                                 ______
                                 

        Prepared Statement of the Center for Applied Linguistics

    Much of the national discussion about the Oakland Unified School 
District's policy on standard English instruction suggests a lack of 
public awareness of how language works. Under-informed about what 
dialects are, how they relate to each other, and what functions they 
fulfill, people have voiced their biases about language in society. 
Ebonics, or African-American Vernacular English (AAVE), has been 
erroneously called ``slang,'' ``broken English,'' ``poor grammar,'' or 
``improper usage,'' instead of the fully-fledged dialect that it is.
    This conversation is not just another harmless case of the lay 
audience having less technical information than the scientist. It is a 
matter of perpetuating the myth that there is one correct English. When 
this myth goes unchallenged, it is hard for schools to treat students' 
linguistic competence in a vernacular dialect as relevant to continuing 
language development. It is even harder for schools to present language 
as an intriguing system for scientific investigation. But without these 
two ingredients, dialect instruction is unlikely to succeed.
    Sociolinguistic studies show that all dialects have linguistic 
integrity. None is more regular than another; they are merely 
different. The features of AAVE that contrast with standard English 
varieties are patterned and predictable, not random deviations. In 
other words, AAVE is just as regular as is standard English.
    What makes standard English the standard is a matter of social 
attitude and the political power of those who speak it. People believe 
that standard English equals ``good grammar,'' and these beliefs are 
knit into our institutions. Since standard English speakers control 
education, commerce, government, and so on, the standard dialect is 
firmly associated with public life.
    Entrenched belief in a monolithic English hinders curriculum 
development. One of the aspects of Oakland's position on Ebonics that 
seems so hard for many people to accept is the notion that vernacular 
dialect offers a valuable language learning resource. (Certainly the 
school board's view of the role that Ebonics should play in schools has 
not been clear.) Seen repeatedly in the media is the view that AAVE is 
without value, that it should be remediated, and that vernacular 
features should be corrected even at home. But this is the traditional 
approach that has had such limited success. One study found that when 
teachers corrected students' dialect, they actually increased their 
production of vernacular features.
    We need research into effective ways of teaching standard English. 
Since vernacular and standard dialects of English share almost all of 
their linguistic resources, standard dialect instruction should 
pinpoint exactly where vernacular and standard structures differ. For 
example, standard had gone (``Teachers had gone into classrooms'') 
contrasts with vernacular had went (``Teachers had went into 
classrooms'') according to a rule that regularizes the past participle; 
and standard mine (``I've got mine today'') is vernacular mines (``I've 
got mines today''). Rather than subjecting vernacular speakers to the 
traditional mind-numbing and inefficient translation drills, teachers 
might situate mini-lessons according to the dialect learning needs that 
students demonstrate. If class members agree that standard English is 
appropriate for classroom interaction and for writing, these lessons 
could help students progress toward their language development goals.
    Because dialect prejudice is rampant and accepted, efforts to teach 
another dialect need to be grounded in scientific consideration of 
sociolinguistic facts. Students need to look at some of the evidence 
that all dialects are regular so that they can begin to question the 
inaccurate characterizations of dialects that they have been exposed 
to. They need to also examine dialect appropriateness in social 
settings as demonstrated by language use, in order to be convinced that 
bidialectalism is valuable. Informal experiments with dialect awareness 
curricula developed by Walt Wolfram and his colleagues have shown that 
upper elementary and middle school students find sociolinguistic 
education fascinating. Informal evaluation indicates students' 
recognition that dialect contrasts occur regularly, rather than 
haphazardly, and their awareness that dialect prejudice is not 
justifiable.
    Dialect awareness is not just for vernacular dialect speakers 
learning standard English as an additional dialect. All students need a 
scientifically based education on language variation to engage sensibly 
in discussions about dialect differences such as that occasioned by 
events in Oakland and to get along in a dialectally diverse world. The 
challenge is to develop curriculum and materials for students and 
teachers and to ensure that dialect education plays a central role in 
language education.
    In conclusion, the Center for Applied Linguistics submits the 
following recommendations for the record:
    First, students who are not proficient in standard English should 
have access to instruction that helps them to develop it.
    Second, research is needed to determine what works in teaching 
standard English to speakers of other varieties of the language. 
Sociolinguistic research on African-American Vernacular English can be 
applied to developing methods and materials for teaching standard 
English.
    Third, parents and other community members need to participate in 
decisions concerning standard English instruction. Much of the negative 
parental reaction to the possibility of using AAVE to show its contrast 
with standard English has been the result of scarce information 
available to the community. If parents are involved in every step of 
the process, such dialect instruction should be better received.
    Fourth, developing methods of teaching standard English should not 
be left exclusively to the local schools. There is a need to consult 
carefully with scholars who have conducted research on AAVE and its 
applications to education. Otherwise, there is a danger that mistaken 
perceptions of dialect differences will be taught.
    We would encourage the Subcommittee not to let this issue be 
shelved, nor allow for short-term solutions which are bound to fail. We 
urge the Subcommittee to support research on dialects and dialect 
instruction--not only for African-American students, but for all 
students. Every American citizen needs to know that variation in the 
English language is natural and normal. Schools need to develop 
curricula that will invite students to examine dialect differences. 
Making scientific knowledge about dialects available should help to 
dispel the myths about language use that fuel social factionalism.

                         conclusion of hearing

    Senator Specter. I think it has been a very constructive 
hearing, and we will digest this record and decide what to do 
further on the subject.
    Thank you all.
    [Whereupon, at 11:35 a.m., Thursday, January 23, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
